<html>
<title> - FAA REAUTHORIZATION: PERSPECTIVES ON RURAL AIR SERVICE AND THE GENERAL AVIATION COMMUNITY</title>
<body><pre>[Senate Hearing 115-66]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-66

                          FAA REAUTHORIZATION:
                   PERSPECTIVES ON RURAL AIR SERVICE
                   AND THE GENERAL AVIATION COMMUNITY

=======================================================================

                                 HEARING

                               BEFORE THE

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 6, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-598 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8cfd8c7e8cbdddbdcc0cdc4d886cbc7c586">[email&#160;protected]</a> 




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

ROY BLUNT, Missouri, Chairman        MARIA CANTWELL, Washington, 
ROGER F. WICKER, Mississippi             Ranking
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
SHELLEY CAPITO, West Virginia        TAMMY BALDWIN, Wisconsin
CORY GARDNER, Colorado               TAMMY DUCKWORTH, Illinois
TODD YOUNG, Indiana                  MAGGIE HASSAN, New Hampshire
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 6, 2017....................................     1
Statement of Senator Blunt.......................................     1
    Prepared statement...........................................     3
Statement of Senator Cantwell....................................     4
    Prepared statement...........................................     4
Statement of Senator Fischer.....................................     5
Statement of Senator Moran.......................................     9
    Letter dated March 6, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from 150 mayors regarding the privatization of our 
      air traffic control system and the removal of Congressional 
      oversight..................................................    11
Statement of Senator Inhofe......................................    13
Statement of Senator Booker......................................    15
Statement of Senator Hassan......................................    17
Statement of Senator Capito......................................    18
Statement of Senator Wicker......................................    20
Statement of Senator Peters......................................    21
Statement of Senator Thune.......................................    23

                                Appendix

Hon. Laurie Gill, Mayor of Pierre, South Dakota, prepared 
  statement......................................................    29
Spencer Dickerson, Senior Executive Vice President--Global 
  Operations, American Association of Airport Executives, and 
  Executive Director, U.S. Contract Tower Association, prepared 
  statement......................................................    31
Mark Baker, President and CEO, Aircraft Owners and Pilots 
  Association, prepared statement................................    41
Dr. Guy M. Smith, Professor Emeritus, Embry-Riddle Aeronautical 
  University, prepared statement.................................    45
Letter dated April 4, 2017 to Senator Roy Blunt from Matt 
  Atkinson, Board Chair, Alaska Air Carriers Association and Jane 
  Dale, Director, Alaska Air Carriers Association................    51
Letter dated April 6, 2017 to Hon. John Thune, Hon. Bill Nelson, 
  Hon. Roy Blunt and Hon. Maria Cantwell from Selena Shilad, 
  Executive Director, Alliance for Aviation Across America.......    53
Letter dated June 30, 2017 to Hon. John Thune from Alan J. 
  Stolzer, Ph.D., FRAeS, Dean and Professor, Embry-Riddle 
  Aeronautical University........................................    54
Written statement from the Air Line Pilots Association, 
  International..................................................    55
Response to written questions submitted to Dr. Guy M. Smith by:
    Hon. John Thune..............................................    63
    Hon. Richard Blumenthal......................................    64
    Hon. Tammy Duckworth.........................................    65
Response to written questions submitted by Hon. Amy Klobuchar to:
    Spencer Dickerson............................................    70
    Mark Baker...................................................    71
Response to written question submitted by Hon. Tammy Duckworth 
  to:
    Hon. Laurie Gill.............................................    72

 
                          FAA REAUTHORIZATION:
                   PERSPECTIVES ON RURAL AIR SERVICE
                   AND THE GENERAL AVIATION COMMUNITY

                              ----------                              


                        THURSDAY, APRIL 6, 2017

                               U.S. Senate,
      Subcommittee on Aviation Operations, Safety, 
                                      and Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:01 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the Subcommittee, presiding.
    Present: Senators Blunt [presiding], Thune, Wicker, 
Fischer, Moran, Inhofe, Capito, Gardner, Young, Cantwell, 
Klobuchar, Booker, Peters, and Hassan.

             OPENING STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. The hearing will come to order. Based on 
Senator Cantwell's staff assurance that we can start without 
her and she is on the way, we are going to do that.
    We have an 11 o'clock vote scheduled today, and because of 
that, we have asked the witnesses to give us an opportunity to 
look at your written testimony and ask questions, and so we 
will be moving quickly here as we get started.
    We are certainly glad our witnesses are here today. The 
Honorable Laurie Gill, the Mayor of Pierre, South Dakota. How 
we get someone from Pierre to be here with Chairman Thune, the 
Chairman of the Full Committee, is a shock to all of us. But, 
Mayor, we are glad you are here. Spencer Dickerson, the 
Executive Director of the U.S. Contract Tower Association, 
which is an affiliate organization of the American Association 
of Airport Executives. Mr. Mark Baker, the President and CEO of 
the Aircraft Owners and Pilots Association. And Dr. Guy Smith, 
Professor Emeritus at Embry-Riddle Aeronautical University.
    We are pleased that you are all here.
    I certainly want to recognize that there are family members 
here of the victims of Colgan Air Flight 3407. Your presence 
here today is a reminder to us that aviation safety must be the 
primary goal of this subcommittee and the Congress as it deals 
with FAA issues.
    This hearing is part of a series of hearings on the 
reauthorization of the Federal Aviation Administration.
    Civil aviation, obviously, is critically important to our 
economy and particularly important to small and rural 
communities. It is estimated that the overall economic impact 
of reliable air service in small communities is roughly $121 
billion, and it supports over 1.1 million jobs.
    Quality air service links smaller communities to the 
broader economy and global transportation networks. Small and 
non-hub airports provide a lifeline for local businesses, for 
transportation of service members, and others.
    A perfect example of that would be the Waynesville-St. 
Robert Regional Airport at Forney Field, at Fort Leonard Wood, 
Missouri, located in central Missouri. This is a joint use 
facility which provides reliable, accessible air service for 
members of the military serving on post and thousands of their 
family members who attend annually the regular training 
graduations there. It also links local businesses to Lambert 
International Airport at St. Louis. It supports tourism at the 
Mahaffey Museum complex on base.
    And that is only one of a lot of small airport stories 
around America where the airport being linked up to the greater 
network makes all the difference in the world and where 
commercial air service at those airports really matters.
    General aviation also is an important part of the 
responsibility we have here. It encompasses a range of 
noncommercial operations, including private pilots that fly 
small planes, gliders, hot air balloons, homemade aircraft, as 
well as sophisticated jet aircraft, as part of the daily 
business flow of the country.
    General aviation plays an important role in connecting 
rural areas to the rest of the Nation's air transportation 
system. It is also estimated to support over a million jobs and 
accounts for over $2 billion in total economic activity.
    There is no question that the importance of regional air 
service and general aviation needs to be one of our priorities. 
From 2007 to 2016, small and non-hub airports experienced 
significant declines in departure seats and connectivity. 
Additionally, in 2014, the Government Accountability Office 
testified that regional airlines were having difficulties 
finding sufficient numbers of qualified pilots.
    Reduced service in rural airports is alarming, and a number 
of members of this subcommittee are concerned about that.
    I am going to submit the rest of my remarks for the record.
    We, of course, are going to be looking at and want to talk 
about the Contract Tower Program, small community air service, 
some of the elements that we put in the Senate version of FAA 
reauthorization last year that turned out to be more of a 
temporary extension.
    Senator Cantwell and I are both committed to having the 
best bill we can possibly produce and, if possible, get that 
done by the end of this current extension of FAA. And I am glad 
that she and I are working together on this committee, and I 
turn to her for her remarks.
    [The prepared statement of Senator Blunt follows:]

      Prepared Statement of Roy Blunt, U.S. Senator from Missouri
    Good morning.
    Thank you to the witnesses for appearing before this Subcommittee 
today to discuss their perspectives on rural air service and the 
general aviation community.
    We have before us: The Honorable Laurie Gill, Mayor, Pierre, South 
Dakota; Mr. Spencer Dickerson, Executive Director, U.S. Contract Tower 
Association, an affiliated organization of the American Association of 
Airport Executives; Mr. Mark Baker, President and CEO, Aircraft Owners 
and Pilots Association; and Dr. Guy Smith, Professor Emeritus, Embry-
Riddle Aeronautical University.
    I would also like to recognize the family members of the victims of 
Colgan Air Flight 3407. Your presence is a steadfast reminder that 
aviation safety must be the primary goal of this subcommittee.
    This hearing is one of a series on reauthorization of the Federal 
Aviation Administration (FAA).
    As we've previously noted, civil aviation is a critically important 
sector for the economy in general, and in rural and small communities 
in particular. It is estimated that the overall economic impact of 
reliable air service in small communities is roughly $121 billion, and 
it supports over 1.1 million jobs.
    Quality air service links smaller communities to the broader 
economy and global transportation networks. Small, and non-hub airports 
provide lifelines for local businesses, transportation for service 
members and their families, and bolster local tourism. A perfect 
example of this is the Waynesville-St. Robert Regional Airport at 
Forney Field, Fort Leonard Wood.
    Located in central Missouri, this joint-use facility provides 
reliable, accessible air service for members of the military serving 
on-post and thousands of their family members who attend annually for 
training graduations. It also links the local businesses in Ft. Leonard 
Wood's surrounding communities to Lambert International in St. Louis, 
and supports tourism for the Mahaffey Museum Complex.
    In addition to commercial air service at regional airports, we also 
want to highlight the important role of General Aviation (GA). GA 
encompasses a range of non-commercial operations, including private 
pilots that fly small planes, gliders, hot air balloons, homebuilt 
aircraft, as well as sophisticated jet aircraft. GA plays an important 
role connecting rural areas to the rest of the Nation's air 
transportation system, and it's estimated that GA supports 1.1 million 
jobs and accounts for $219 billion in total economic output.
    There's no question about the importance of regional air service 
and general aviation, but we must also recognize and address the 
challenges they face.
    From 2007 to 2016, small and non-hub airports experienced 
significant declines in departures, seats, and connectivity. 
Additionally, in 2014, the Government Accountability Office testified 
that regional airlines were having difficulties finding sufficient 
numbers of qualified pilots.
    Reduced service to rural airports is alarming.
    In addition to reduced service, and insufficient availability of 
pilots, we must also examine Federal programs that support air service 
at smaller airports to determine if they are working as Congress 
intended.
    These programs include: The Federal Contract Tower program, which 
allows FAA to contract with private air traffic control providers at 
253 airports nationwide, including five in Missouri; Essential Air 
Service, which provides a safety net to ensure rural areas have air 
service, including four in Missouri; and The Small Community Air 
Service Development Program, which provides grants to communities for 
strategies to improve availability and price of air service, including 
multiple airports in Missouri.
    This Subcommittee is mindful of the anxiety in rural communities 
that hear talk about funding cuts in Washington to these programs.
    Proposed cuts to rural aviation programs are a perennial request of 
both Republican and Democratic administrations.
    While a president has the right to propose cuts in spending, the 
Constitution gives Congress the power to actually set spending.
    The purpose of this hearing is to examine what's working for rural 
aviation, and what can be improved. To that end, we need to think of 
rural aviation and general aviation issues holistically.
    I was pleased with provisions included in the short-term FAA 
Extension, Safety, and Security Act that require the Department of 
Transportation to convene a working group and issue a report to 
Congress by July 15, 2017.
    The focus of the Working Group is to consider whether funding for 
existing rural aviation programs is sufficient, and to identify 
initiatives to support pilot training and aviation safety for small 
communities. The Subcommittee eagerly awaits the working group's 
report, and we look forward to hearing from our witnesses today. I want 
to thank my Subcommittee counterpart, Maria Cantwell, for being here 
today as we continue to work in a bipartisan manner to advance rural 
aviation and safety as part of a comprehensive FAA reauthorization.
    I turn now to Ranking Member Cantwell for any remarks she would 
like to make.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I know we are on 
a quick time schedule this morning, so I am going to be brief 
and submit my fuller statement for the record.
    But, I too, want to recognize the families who are here of 
the victims of the Colgan Air Flight 3407. Your constant 
presence as we look at aviation security issues and safety 
issues is so appreciated. Thank you for constantly doing that.
    Obviously, we are here today to talk about the 
interconnectedness of our system and making aviation and 
general aviation safer. NextGen will provide better data and 
weather and traffic information to drive that safety. 
Obviously, the FAA's new Part 23 rules I am sure will be 
discussed here.
    The Chairman mentioned briefly the SCASDP grant program. I 
cannot tell you how much we appreciate this program in 
Washington State. It has been able to help us continue to grow 
and launch great services, which have been very stabilized 
after the SCASDP grant, so very, very interested in that.
    And obviously, if I could just say, contract tower, 
contract tower, contract tower three times to get everybody to 
realize how important these contract towers are to communities. 
We are going to get a chance to ask questions about this from a 
safety perspective, but I am sure many of my colleagues here 
have the same concerns about these contract towers, so we want 
to make sure that they remain.
    But rural airports are vital connections. I will just give 
one example.
    In Pullman, Washington, Schweitzer Engineering has its 
headquarters there with more than 2,000 employees, but it is 
just a town of 32,000 people. So the fact that their fleet can 
move in and out, getting their employees and customers--and 
these high 2,000 paying jobs in the community are all supported 
because of that small airport.
    So I want to make sure we are continuing the economic 
development that is associated with our airports throughout our 
state.
    So, thank you, Mr. Chairman. I will submit my fuller 
statement.
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    Thank you to the witnesses for being here today to discuss matters 
pertaining to rural aviation and general aviation. I would especially 
like to acknowledge the families of the victims of Colgan Air Flight 
3407, many of whom are here with us today. We all appreciate the 
tireless work you do to make the aviation system safer.
    As we think about our national airspace as an interconnected 
system, we must look at ways to make aviation, and especially general 
aviation, safer. NextGen will provide better data on weather and 
traffic, but we should look for other opportunities to drive safety.
    One area where we have seen progress for general aviation came with 
the release this past December of the FAA's new Part 23 rules. The new 
rules, which apply to GA planes under 19,000 pounds, apply a 
performance-based certification standard to new safety-enhancing 
technologies that can be brought into the cockpits of GA aircraft. The 
new rules should reduce the time and the cost of moving these 
technologies through the certification process, and the system as a 
whole will benefit as a result.
    Importantly, the new Part 23 rules come at a time when aviation 
authorities across the globe are working toward common certification 
standards, meaning that safety technology developed here in the United 
States can be quickly adopted into GA fleets worldwide.
    Following on the heels of the new Part 23 rules, we should consider 
other areas for improving existing regulations. The FAA reauthorization 
provides an opportunity to identify areas where we can enhance, 
streamline, or refocus regulation to improve safety.
    This committee has done much to ensure access to our commercial air 
system for rural areas, especially through its strong support for the 
Essential Air Service program, and the Small Community Air Service 
Development Grant Program (SCASDP, pron. SCAS-DAP).
    In Washington state, SCASDP has had a tremendous impact. Six 
Washington state airports have been awarded SCASDP grants in the last 
six years, and the results have made a real difference. New routes have 
been launched through revenue guarantees, and marketing campaigns have 
led to increased tourism and higher load factors to the benefit of 
these communities.
    Rural airports allow vital connections between small towns and the 
global economy. In Pullman, Washington for example, Schweitzer 
Engineering Laboratories has its headquarters, a major manufacturing 
facility, and more than 2,000 employees--all in a town of just 32,000 
people. SEL's fleet of 5 Pullman-based aircraft have flown about half 
of the company's 4,000-strong global workforce among their more than 
100 locations in the last 15 years. Without the ability to access 
locations far and near, big and small, Schweitzer Labs would be unable 
to respond to their customers' needs, and they certainly wouldn't be 
able to offer 2,000 well-paying jobs.
    My state serves as an example of how the Federal Government can 
work with small and rural communities to ensure that they are able to 
take full advantage of our national airspace. For Washington state, 
SCASDP accomplishes this purpose. For other members of this committee, 
on both sides of the aisle, the Essential Air Service (EAS) program is 
important. That is why I was disappointed in the Administration's 
proposal to eliminate the EAS program, which would have a very negative 
impact on small and rural communities across the country. I am sure 
many members with affected communities will be sharing their views on 
the Administration's proposal.
    With that, I look forward to your testimony.

    Senator Blunt. Thank you, Senator Cantwell.
    I think I will defer my questions until later so we can get 
started.
    We have asked the witnesses to do us the favor of not 
providing their testimony verbally. We have the written 
testimony, so we will go right to questions.
    And, Senator Fischer, we will start with you.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman and Ranking Member 
Cantwell.
    If I could, I would like to begin with you, Mayor Gill. You 
discussed the AIP funding challenges that small, rural 
communities face in dropping enplanements because of unreliable 
air service.
    Scotts Bluff, which is in the panhandle of Nebraska, faces 
this same challenge. And I was pleased to provide relief to 
rural airports in the FAA extension bill.
    Since you raised this in your testimony, do you have 
additional suggestions on how Congress can craft AIP funding 
distribution so that it recognizes small community airports 
that face this very difficult situation?
    Ms. Gill. Yes, certainly. Thank you so much for that 
question.
    In Pierre, as you are familiar with and have already 
mentioned, we have seen disruption in our service and changes 
in the reliability in the service over the last several years. 
And as that has happened, our enplanements have fallen below 
the 10,000-threshold level.
    What that means to a community like ours is the difference 
in over $1 million annually in money coming in from the AIP 
program that we can use for infrastructure dropping down to 
$150,000 a year. So that kind of a dip is drastic. It is 
dramatic. And $150,000 does not give us much to work on in 
keeping the infrastructure up.
    So in response to your question, what I would recommend is 
that the Airport Improvement Program funding distribution 
should be looked at and crafted in a way that recognizes that 
small community airports may have suffered enplanement 
reductions due to pilot supply issues following implementation 
of the 1,500-hour rule. And when an airport's enplanements 
drop, it is extreme under the current formula.
    Legislation, I believe, should be established to provide a 
more gradual reduction, or a delay in reduction, or some other 
meaningful response to the program to allow us to adapt to the 
scenario that we are facing.
    Senator Fischer. Thank you.
    And as a follow-up, I share your support for strengthening 
the EAS program. Nebraska has seven rural communities that 
receive critical commercial air service because of EAS. And you 
talked about how Pierre was able to use the EAS funding to 
increase the number of enplanements.
    Would you elaborate on how the EAS improved that air 
service, which increased enplanements and the airport's ability 
to serve your community?
    Ms. Gill. Certainly. Just to put this in perspective, what 
happened for us was that, in the summer of 2013, when the 
Federal rule change went into place, the year of 2013, Pierre 
had 14,500 enplanements. Just 3 years later, our traffic had 
plummeted more than 60 percent to less than 6,400, and our 
commercial air service provider at the time could not staff 
their flights because they could not find enough pilots 
eligible under the new rule. Consequently, our reliability of 
our service suffered.
    After the regulation change, by 2015, a full 20 percent of 
our flights out of Pierre were canceled, and 40 percent were 
not on time. The number of flights that we had per day dropped 
from eight to three. Our customers lost confidence in the 
service that was being provided, and that caused enplanements 
to decline even more.
    So what happened was, as a result, Pierre applied for 
funding under the Essential Air Service program. And in 2016, 
that was reinstated and funded.
    As a result, we have been able to receive service now from 
a new carrier using 50-seat regional jets in twice-daily 
service to Denver. Enplanements are recovering, and it looks 
like we are on track to exceed that 10,000-enplanement 
threshold in 2017.
    So we feel like we have a success story with EAS and that 
it has reinstated the lifeline for Pierre to the rest of the 
Nation.
    Senator Fischer. That is good news. I have used your 
airport in the past. I live 2 hours south of Pierre, so I have 
used it.
    Mr. Baker, in your written testimony, you mentioned the 
difficulty in utilizing the nonprimary entitlement funding for 
general aviation airports. In Nebraska, we have 60 of these 
airports that qualify for NPE funding.
    Could you please provide the Subcommittee with your 
perspective on how to improve the effectiveness of this funding 
program for GA airports?
    Mr. Baker. Thank you. I would be happy to.
    You know, if you look at the history of the $150,000 a year 
for these NPE airports, nonprimary entitlement airports, it was 
well-intended. If you go back 15 years ago, there was only 
about, call it about $18 million left over at the end of the 
year. But as we have gone on, costs have risen to update 
taxiways, lighting systems, other things that these general 
aviation airports require, the 5,000 public use ones that are 
out there in the countryside.
    We are now giving back--over $300 million a year is being 
returned because the program does not work anymore.
    We would really like this committee to take a look at how 
we can use that money--it has already been allocated, the $300-
plus million--and use it in more systematic and significant 
programs to update these airports and keep the infrastructure 
alive. The money has already been allocated, and it is just, 
unfortunately, being turned back into the FAA--to think about 
other programs.
    So we think a real committee effort to pull this together 
and say how should we spend this money and redo the $150,000 a 
year for 4 years, which equals $600,000 for programs, into more 
significant programs at a limited number of airports every year 
to keep this money being employed and take care of this 
infrastructure that is really outdated.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chair.
    Senator Blunt. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    I mentioned contract towers. Currently, there are 253 
airports in 46 states that participate in this program. Of the 
16 towers in the cost-share program, seven of them are operated 
at airports that support regularly scheduled commercial air 
service. It is the cost-share contract program generally and 
the cost-share contract of these towers, seven of which I want 
to focus on.
    Walla Walla Regional Airport, it will cost I think this 
year $84,700 to participate in the Contract Tower Program. In 
2014, airports had a total, this particular airport, of 72,000. 
I think that is passenger count.
    Similarly, costs at Joplin Regional Airport in Missouri and 
Grand Island in Nebraska supported even larger commercial air 
enplanements. Yet, they too were required to have the local 
match.
    So I can understand the cost-share at a contract tower with 
no commercial air service, but those that are, I would submit 
that when you have a contract tower support regular commercial 
air service flights--so we need to look at this a little 
differently.
    So, Mr. Dickerson, I have heard a discussion of formulas 
being looked at. How can we best support these contract towers 
in the entire system in places like Walla Walla?
    Mr. Dickerson. Thank you, Senator. First off, I would like 
to thank this Subcommittee and the Commerce Committee for its 
great support of this program over the past several years.
    As you said, it is a lifeline that is very important to 
small community rural air service and general aviation.
    The cost-share program was established by Congress about 15 
years ago as a safety net for airports that did not qualify for 
the fully funded program primarily based on their traffic 
level. And that, from our perspective, worked very well.
    It was based on the percentage, so if you were at a 0.8 on 
a benefit-cost ratio, the locals would pay 20 percent. Congress 
put in a limit of 20 percent several years ago.
    What has happened recently, the last several years, is FAA 
has not run these benefit-cost ratios on any of the towers, 
including the benefit-cost of towers. It affects Joplin, as you 
said, Walla Walla, Grand Island.
    A lot of these airports have had an increase in airline 
service and passenger traffic over that period of time, 
probably 7 or 8 years since they ran the BCs. Many of them 
could go into the fully funded program, eliminating the need 
for the local cost-share payment, but FAA has not run these 
towers, BCs on these towers. They put a moratorium on any new 
applicants for the program, nontowered airports, in 2014, which 
has been very frustrating for the industry.
    So a lot of the provisions you had in your bill last year 
exempted cost-share towers that had 25,000 enplanements. That 
would benefit Walla Walla, Joplin, Grand Island. That is a 
great provision. We are very supportive of that.
    You also included a number of reforms to the program to get 
FAA off the dime and get moving. We believe FAA is going to 
wait for Congress to act. We just need closure on this program 
in terms of the new airports that want to get in the program 
and the cost-share facilities.
    Senator Cantwell. We obviously want good programs that 
work. But in this case, I do think the language we submitted 
that was in the Senate version but did not make it into the 
final version really would help these airports that are 
growing. And we are helping them grow.
    So they are almost moving--they are doing what we want them 
to do for our communities and for the air service program. They 
are growing. But then they are still being charged under a 
system that is very punitive, as opposed to being able to move 
up, just because of the moratorium.
    So we would hope that we could figure out a way to get the 
FAA to look--we will give direction. I am definitely for giving 
direction, but we hope that we can resolve this so these 
airports can continue to grow in a cost-effective way. And that 
is really what we are asking.
    I do not know the details of Joplin or this site in 
Nebraska. But I can tell you from Walla Walla's perspective, it 
is going to continue to grow. It is just about how you make the 
next phase and the next leap.
    And since, for us, this is our wine industry, a very 
burgeoning wine industry, tourism industry, we want those 
enplanements to grow. But we have to have a cost-effective way 
for the airport to meet that demand and not be under a system 
that uses an old formula that penalizes them.
    Thank you, Mr. Chairman.
    Senator Blunt. Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you very much.
    I thank our panel for being with us.
    I think a number of us on this Committee and in the U.S. 
Senate have a reputation of being supporters of general 
aviation. I sometimes think that people would perceive me as a 
general aviation supporter because we manufacture so many 
airplanes in Kansas, Wichita, the air capital of the world, 
home of many, many planes being made that are flown across the 
country and around the globe.
    That certainly is a component of my view on these issues 
about rural airports, but the point that we always try to make 
is it is not just about manufacturing airplanes. We need 
airports and pilots who fly those planes. And particularly in 
rural America, the places that all of us come from, our ability 
to connect with the rest of the world is often determined by 
access to air service--commercial and private.
    And so I can name dozens of communities and businesses in 
those communities that are only there, can only remain there, 
if they can connect with the rest of the world because the 
hometown airport is there that brings in their customers and 
clients and allows them to service their customers and clients 
around the globe.
    So if you care about rural America, you better care about 
rural America's airports.
    And I appreciate the testimony. I had the chance to review 
it. I normally wait until you tell me what you are going to 
say. I had to read it this time to find out what you are going 
to say, and I appreciate that.
    I want to list just a few issues that seemed to me to be 
front and center, and make sure that I am not missing anything 
when we come to the topics that we care about in preserving GA 
and regional commercial service at airports across rural 
America and small towns.
    EAS is often front and center, and that is critical to our 
commercial service. The Contract Tower Program has been 
mentioned here numerous times, but it is, again, toward the top 
of the list of things that matter. Airport infrastructure, our 
ability to get the funds to maintain our airports, matter 
greatly to us, and the ability for a local community or county 
to fully fund those airports is limited without the assistance 
of the Federal Government and the FAA.
    More pilots is a critical one to us. The Mayor talked about 
consequences. We have had similar circumstances in which we 
lose commercial service. The EAS subsidy is insufficient to 
keep an airline flying if they cannot provide quality service 
in a timely way. And often at least their explanation for their 
inability to do so is pilots, a pilot shortage.
    And we need to make certain that our small airports who, 
through no fault of their own, do not lose Essential Air 
Service funding because of a gap, or they do not receive the 
infrastructure funding because they have fallen in number of 
enplanements through no fault of their own. The airline just 
cannot provide the service, did not provide the service, or it 
went away. So we need to have a period of time in which 
airports can recover, return to commercial service.
    And then, finally, TSA is an issue that has occurred, and 
when that has happened, loss of service, then to convince TSA 
to come back with screening to a small airport has been a topic 
of concern in a number of instances.
    So that is kind of my outline of those issues that matter, 
that should matter to me as somebody who wants to make sure 
that rural America stays alive and well.
    What am I missing?
    I like that answer.
    [Laughter.]
    Senator Moran. Then let me take my comments one step 
further. There is an issue that is pending that is not the 
topic of this hearing, but the issue of privatization of air 
traffic control. And I would be interested if anyone would be 
interested in sharing their view of what concerns or lack of 
concerns they have about this program with air service and 
airports in rural America.
    This one I do expect an answer.
    Mr. Baker. I will weigh in on a view from over 300,000 
pilots and members from AOPA.
    The air traffic control services, whether it be tower or en 
route, is a very effective system, and we do not get any 
complaints from our members, from general aviation and small 
business aviation on the current system as it is employed for 
moving those 200,000-plus general aviation aircraft out there 
today.
    So from our perspective, we just want to make sure there 
are no additional user fees that get impacted by whatever 
change may come down the line.
    But from identifying the problem, we do not see the problem 
with the current air traffic control from a general aviation 
perspective.
    Senator Moran. Thank you.
    Anyone else?
    Mr. Dickerson. Senator, a couple points.
    AAA does not have a position on the ATC nonprofit 
corporation. There are several concerns we have about the bill 
that was introduced last year in the House.
    Number one, we need to make sure the AIP program, the 
airport grant program, has a long-term viability to it for the 
small airports, as you mentioned, and Senator Cantwell 
mentioned.
    PFCs, Passenger Facility Charge, we think that needs to be 
adjusted. That will allow large airports to leverage their 
funds with private investment. It also helps smaller airports 
because the bigger airports give back some of their entitlement 
funds to the smaller airports.
    The governance of the ATC board, the bill introduced last 
year in the House did not have an airport representative, and 
we just think it is critically important to make sure that 
airports are represented on this board that is going to 
potentially manage the air traffic control systems. It is not 
only about the airspace. It is about what is on the ground as 
well.
    And the last thing, we have to make sure there is a 
protection for the Contract Tower Program. As you mentioned and 
as Senator Cantwell mentioned, it is a very, very important 
program for rural America's small airports. We need to make 
sure that program is viable in the future, if Congress moves 
forward with the corporation.
    Senator Moran. Mayor, I do not know whether you have 
anything to say.
    Mr. Chairman, I would ask unanimous consent, I have a 
letter that is addressed to the Chairman, Chairman Thune and 
Ranking Member Nelson, from 150 mayors across the country who 
expressed concern with this issue, and I would ask unanimous 
consent that it be made part of the record.
    Senator Blunt. Without objection.
    [The information referred to follows:]

                                                      March 6, 2017
Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    As you debate reauthorization of the Federal Aviation 
Administration (FAA), I write to ask you to reject any risky plans to 
privatize our air traffic control system and take away Congressional 
oversight of this important public system.
    Over the last year, proposals have recently been forwarded to put 
this vital infrastructure under the control of a private entity 
dominated by the commercial airlines. On behalf of the tens of 
thousands of communities around the country, we are concerned about the 
very real and dire ramifications of eliminating Congressional 
oversight-of this public air transportation infrastructure.
    For tens of thousands of communities such as ours around the 
country, we depend on our local airport and all sectors of 
transportation to reach far-off markets and access critical services 
such as law enforcement, disaster relief, and medical care. Small 
aircraft and airports are utilized on a daily basis to help transport 
blood and organs to residents in rural communities, reunite veterans 
back from overseas with their families, maintain power lines, and help 
our companies reach customers in far-off markets, among many other 
priorities.
    Privatization would hand over decisions about infrastructure 
funding, taxes and fees, consumer complaints, noise, and many other 
priorities, to a board of private interests dominated by the commercial 
airlines. These are the same airlines that have cut back flights to 
smaller communities by more than 20 percent in recent years, and have 
stated their intent to divert investment from small and mid-sized 
communities to large ones where the airlines are most profitable.
    We are also concerned about costs and access. For example, the 
Canadian, privatized system, which is often held up as the system the 
U.S. should emulate, is more expensive than the system we have in the 
U.S. by miles flown. In the U.K., that system has seen ``more delays, 
higher fares and reduced connectivity'' at London's airports since 
privatization. So while we all agree that modernizing our air traffic 
control system and investing in American infrastructure should be among 
our highest priorities, privatization is not the answer.
    We look forward to working with you throughout this process to 
ensure that our air transportation system protects communities of all 
sizes and keeps passengers flying safely and efficiently.
            Sincerely,

Elmira, NY--Mayor Daniel J. Mandell
Clarksburg, WV--Mayor Catherine A. Goings
Ocala, FL--Mayor Kent Guinn
Corning, NY--Mayor Richard P. Negri
Mitchell, SD--Mayor Jerry Toomey
Fairmont, WV--Mayor Ronald J. Straight Sr.
Edgemont, SD--Mayor Carl A. Shaw
Warwick, NY--Michael J. Newhard
Texarkana, AR--Mayor Ruth Penney Bell
Easton, MD--Mayor Robert C. Willey
Watertown, SD--Mayor Steve Thorson
Fayetteville, AR--Mayor Lioneld Jordan
Huron, SD--Mayor Paul Aylward
Texarkana, TX--Mayor Bob Bruggeman
Bloomington, IL--Mayor Tari Renner
Chillicothe, MO--Mayor Charles E. Haney
Lewisburg, WV--Mayor John Manchester
Worcester, MA--Mayor Joseph M. Petty
Elkins, WV Mayor Van T. Broughton
Wall, SD--Mayor Marty Huether
Sturgis, SD--Mayor Mark C. Carstensen
Longmont, CO--Mayor Dennis Coombs
Albert Lea, MN--Mayor Vern Rasmussen Jr.
Lake Wales, FL--Mayor Eugene Fultz
Santa Barbara, CA--Mayor Helene Schneider
Riverside, CA--Mayor William Bailey
McCall, ID--Mayor Jackie J. Aymon
Sioux Falls, SD--Mayor Mike Huether
Concord, NC--Mayor Scott Padgett
Prospect Heights, IL--Mayor Nicholas Helmer
Mountain Home, ID--Mayor Rich Sykes
Lewiston, ID--Mayor Jim Kleeburg
Florence, SC--Mayor Stephen J. Wukela
Fernley, NV--Mayor Roy G. Edgington Jr.
Huntington, WV--Mayor Steve Williams
Morristown, NJ--Mayor Timothy Dougherty
Macomb, IL--Mayor Michael J. Inman
Kamiah, ID--Mayor Dale Schneider
Mesquite, NV--Mayor Allan Litman
Mount Pleasant, SC--Mayor Linda Page
Newport, OR--Mayor Sandy Roumagoux
Jacksonville, IL--Mayor Andy Ezard
Broomfield, CO--Mayor Randy Ahrens
Petaluma, CA--Mayor David Glass
DeLand, FL--Mayor Robert F. Apgar
Jackson, TN--Mayor Jerry Gist
Gainesville, FL--Mayor Lauren Poe
Annapolis, MD--Mayor Mike Pantelides
Fernandina Beach, FL--Mayor John A. Miller
Naples, FL--Mayor Bill Barnett
Fargo, ND--Mayor Tim Mahoney
Sedalia, MO--Mayor Stephen Galliher
Wenatchee, WA--Mayor Frank Kuntz
Coeur d'Alene, ID--Mayor Steve Widmyer
Cumberland, MD--Mayor Brian Grim
Keene, NH--Mayor Kendall Lane
Zanesville, OH--Mayor Jeff Tilton
Youngstown, OH--Mayor John McNally IV
Henderson, NV--Mayor Andy Hafen
Big Rapids, MI--Mayor Mark Warba
Pinedale, WY--Mayor Bob Jones
Pekin, IL--Mayor John McCabe
Hermiston, OR--Dr. Dave Drotzmann, Mayor
Wausau, WI--Mayor Robert Mielke
Danbury, CT--Mayor Mark D. Boughton
New London, CT--Mayor Michael Passero
Idaho Falls, ID--Mayor Rebecca L. Noah Casper
Valdez, AK-Mayor Ruth E. Knight
Brigham City, UT--Mayor Tyler Vincent
Salisbury, MD--Mayor Jacob R. Day
Ely, MN--Mayor Chuck Novak
Winona, MN--Mayor Mark Peterson
New Ulm, MN--Mayor Robert J. Beussman
Wasilla, AK--Mayor Bert Cottle
Barre, VT--Mayor Thom Lauzon
Yerington, NV--Mayor George Dini
Taos, NM--Mayor Daniel Barrone
Arlington, WA--Mayor Barbara Tolbert
Boulder, CO--Mayor Suzanne Jones
Pullman, WA--Mayor Glenn A. Johnson, Ph.D.
Abilene, TX--Mayor Norm Archibald
Monroe, NC--Mayor Bobby Kilgore
Moscow, ID--Mayor Bill Lambert
Georgetown, DE--Mayor William E. West
Kenai, AK--Mayor Brian G. Gabriel, Sr.
Riverton, WY--Mayor John 'Lars' Baker
Grant, NE--Mayor Michael Wyatt
Findlay, OH--Mayor Lydia Mihalik
Martinsburg, WV--Mayor George Karos
Bingen, WA--Mayor Betty J. Barnes
Zephyrhills, FL Mayor Gene Whitfield
Terre Haute, IN--Mayor Duke Bennett
Carrollton, GA--Mayor Walt Hollingsworth
Altus, OK--Mayor Jack Smiley
Wheeling, WV--Mayor Glenn F. Elliott, Jr.
Salinas, CA--Mayor Joe Gunter
Hays, KS--Mayor Shaun Musil
Augusta, ME--Mayor David Rollins
Pendleton, OR--Mayor Phillip W. Houk
Hot Springs, AR--Mayor Ruth Carney
Fallon, NV--Mayor Ken Tedford Jr.
Latrobe, PA--Mayor Rosie Wolford
Le Mars, IA--Mayor Dick Kirchoff
Hutchinson, KS--Mayor Jon Daveline
Council Bluffs, IA--Mayor Matt Walsh
Salina, KS--Mayor Kaye J. Crawford
Henderson, KY--Mayor Steve Austin
Kaua'i County, HI--Mayor Bernard Carvalho
Natchitoches, LA--Mayor Lee Posey
Jonesville, VA--Mayor Jim Ewing
Cottonwood, AZ--Mayor Tim Elinski
Tuscaloosa, AL--Mayor Walt Maddox
Tucson, AZ--Mayor Jonathan Rothschild
Clarksdale, MS--Mayor Bill Luckett
Baker, MT--Mayor JoDee Pratt
Great Falls, MT--Mayor Bob Kelly
Middletown, RI--Town Council President Robert Sylvia
Wichita, KS--Mayor Jeff Longwell
Newport, RI--Mayor Henry F. Winthrop
Cumberland, RI--Mayor William Murray

    Senator Blunt. Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, Mr. Baker, thank you for all your help in the 
efforts that we have put forth for general aviation. When we go 
back and review real quickly the Pilot's Bill of Rights that 
was successful 3 years ago, certainly your organization was 
instrumental in getting that passed.
    Then when we did the Pilot's Bill of Rights 2, there are 
certain things that were not properly addressed in Pilot's Bill 
of Rights 1 in terms of what the courts might do and all of 
that, so we had the second one.
    But the one issue in there that got everyone's attention, 
of course, was the reform of the third class medical.
    Now there are several other things that were in that bill, 
and we were considering bringing it up in a separate bill this 
week when we had a business session and decided we would wait 
until the next time to make sure that we did not overlook 
anything. So we have the second bill that is going to come up.
    It will take care of the problems that were addressed but 
were not acted upon when the third class medical reform went 
in, such as de novo review, so that if an appeal is made 
through the district courts, they have to start from scratch--
they do not just automatically take what is handed to them by 
FAA or by NTSB; the transparency issue on re-examinations, 
which you are very familiar with; and then the last thing, the 
updates of the NOTAM program, that is Notice to Airmen.
    Since I had a personal experience with that a few years 
ago, only to find that there were no NOTAMs where they said 
they were NOTAMs, and yet we had no fallback position. That is 
a reform that is going to have to be done.
    All three of those reforms are going to be found in the 
bill that will be marked up by this committee at the next 
business hearing.
    Any comments on that bill?
    Mr. Baker. First off, to you, Senator Inhofe, and this 
Committee, it has been remarkable the difference we feel in 
general aviation with the support of the third class reform, 
which was signed into law last July. And by the way, the FAA 
has risen to the occasion and has met every deadline and maybe 
even exceeded it. It will be effective as of May 1st. And there 
are tens of thousands of aviators that will be back in the game 
over the next coming years, so thank you to this committee and 
to the full Senate for approving that, and your leadership 
particularly on it.
    The final part of the Bill of Rights 2, which you have been 
a leader on and we have been very concerned about, is this 
whole due process part. It is very important that as a citizen 
we have the opportunity to have real review of issues. And that 
is why we very much support the Pilot's Bill of Rights 2 and 
getting it signed off, as well as understanding these NOTAMs 
and what they call at the very end of the NOTAM, which means 
Notices to Airmen, it says you cannot trust it at the very end, 
because we do not know if it has actually been depicted 
correctly, a Presidential TFR or any of these things. And yet 
the airmen can be violated for entering that airspace.
    So there is a lot of work that needs to be done to get that 
so that it is clear and concise, and for the pilot to have due 
process.
    So thanks for your leadership on that. We look forward to 
that passing.
    Senator Inhofe. Yes. And I think we have the support to get 
it passed, a lot of that thanks to you.
    They were talking about the NPE program. I was proud to be 
a part of that back in 2000. In fact, that was the amendment to 
bring the general aviation airports into a position where they 
could compete and have some benefits.
    Mr. Dickerson, I think sometimes about what would have 
happened in the State of Oklahoma had we not had the contract 
towers. Our two major cities, in terms of football games, are 
Norman, Oklahoma; and Stillwater, Oklahoma. On football day, it 
is swamped. We without the contracts alternative that we had, 
we would be stuck without any help during that time. Your 
friend Walt Strong tells that story all the time.
    So, right now, there are some problems with it that we are 
going to try to address having to do with some of the benefits 
and reforming the FAA's benefit and cost analysis process.
    Would you address that for us and the benefits that you see 
that need to be improved there?
    Mr. Dickerson. Yes, sir. Thank you, Senator. And thank you 
for your leadership along with Senator Blumenthal on the 
contract tower funding letter that you generated 35 Senators on 
board----
    Senator Inhofe. Yes, that is right. The lead Democrat was 
Senator Blumenthal.
    Mr. Dickerson. So the benefit-cost ratio, we have had some 
specific recommendations, many of which, to Senator Cantwell's 
question, were included in the reauthorization bill last year 
and did not make it into the extension.
    What we think it does, right now, the FAA's thumb is on the 
scale against airport safety. It is leaning toward these broad, 
abstract economic models. And control towers provide such 
important, critical safety, we should be erring on the side of 
safety, not abstract economic models.
    Some of our specific recommendations are, unless you your 
traffic drops significantly at an airport, you should not be 
subjected to the annual benefit-cost ratios. The costs that 
would disappear from the FAA's budget if a tower was closed, 
those are legitimate costs to use in the analysis. But 
indirect, nonsite-specific costs that FAA wants to put in the 
model should not be included. Again, we should be erring on the 
side of safety.
    We have recommended lifting the cap on AIP use for building 
contract towers. Right now, it is $2 million.
    We think airports should have adequate time to respond to 
any BCs that the FAA puts out.
    So we have a number of measures that were in my written 
testimony, and many of which were in the bill last year that 
the Senate passed. We hope we can continue to work with the 
Commerce Committee to keep building on that success.
    Senator Inhofe. Excellent answer. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you.
    Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you, Mr. Chairman. And it is so 
appropriate the order that you have chosen this morning: 
Kansas, Nebraska, Oklahoma, and New Jersey in that order. These 
are four states that have so much in common.
    But I do want to say that general aviation is of extreme 
importance to my state as well. And while most of our high 
school football teams drive to their games, the reality is we 
have about 2.5 million general aviation operations annually. It 
is a critical part of our overall economy.
    But more than that, more than the almost $3 billion of our 
economy, it has actually proved, and I saw this during 
Hurricane Sandy, as a critical way of getting resources in and 
out of our state.
    So it is something that is of great value and interest to 
me but also, as much as I might joke about the differences 
amongst our states, we are one United States, we are 
interwoven, integrated lifelines whose arteries are our rail 
systems, our intermodal freight operations, but also general 
aviation.
    And so I am very concerned about this as a part of our 
overall infrastructure view, and I have worried that it is not 
getting the kind of attention.
    I was really grateful that Ranking Member Cantwell and 
other Democratic leaders released a $1 trillion infrastructure 
blueprint that included $30 billion in funding and upgrading 
and improving our Nation's airports. We have even heard our 
President talk about our airports and often comparing them to 
what we are seeing in other nations, in terms of their 
infrastructure investments.
    So I was wondering, can any of you speak to me about the 
importance of public investment in the general aviation 
community and how that can help us become more productive 
economically, and how would the $30 billion investment that was 
put into our investment infrastructure vision help general 
aviation needs?
    Mr. Baker. I will take a first shot at that, if you do not 
mind.
    I think if you look at it strategically, and you point out 
very correctly, general aviation's relief to places that the 
highway infrastructure is interrupted, the rail infrastructure 
is interrupted, it is the only way to bring relief, whether it 
is in Louisiana with hurricanes, New Jersey, potentially 
earthquakes in Carolina. It is essential to have a high-quality 
airport with high-capacity in that zone of relief. It is the 
only way to bring in quick relief, whether it is medical, 
whatever kind of relief is needed, and supplies.
    So we are very much involved with the idea that we should 
make sure that that infrastructure is being invested in, and it 
can be supported for the long-term growth of aviation because 
businesses also tend to locate next to an airport. Whether it 
is a factory or warehouse or whatever it is, and I have done 
that myself running other businesses. You need to go in and 
out. You need to make sure you can get there effectively and 
efficiently, and make sure you have a safe flight.
    If we fail to invest in that infrastructure, we are losing 
commerce.
    Senator Booker. Thank you.
    Anybody else?
    Ms. Gill. Yes. Senator, I completely understand where you 
are coming from in terms of the economic importance of general 
aviation.
    In rural America, where we have large open areas and the 
towns are far between, without that aviation and air service, 
folks have to potentially travel hundreds of miles to get to 
other reliable service, which adds other safety concerns.
    But for us, we are talking about the thread that holds 
together economic development opportunities in small, rural 
communities. Modern business demands adequate air service, and 
we have many business operations that are going on in our 
community that depend upon the ability to be connected to the 
rest of the world.
    So in all parts of the Nation, depending on all our 
different scenarios, economic development is very much 
dependent on air service.
    Senator Booker. So then let me maybe--Mr. Dickerson, I 
really do appreciate that. I am one of these people that is 
appalled that we are still doing aviation in this country with 
1940s technology. It causes horrible environmental realities, 
in terms of the quality of the air that people in communities 
like mine and others breathe in. It is horribly inefficient.
    So the NextGen implementation, to me, it is something I 
have been pounding on since I have become a United States 
Senator.
    Can you just maybe conclude by telling me how NextGen would 
help the general aviation industry to improve? And what does 
Congress need to do? Do we need to be investing more to get 
this actually done and implemented nationally?
    Mr. Dickerson. Well, investing more Federal money is always 
important in the aviation sense. Congress has been very 
supportive of the NextGen efforts that FAA has put forward.
    In your area, in the Port Authority of New York and New 
Jersey, with Newark and Kennedy and LaGuardia, it is absolutely 
critical in New Jersey to get NextGen going. A rising tide 
lifts all boats. If we get NextGen going, it is going to 
provide a lot more efficiencies in the system, particularly 
dealing with the delays that we have in the New York-New Jersey 
metropolitan area, Chicago, L.A., and that is going to give 
more access for general aviation into larger communities.
    On the airport infrastructure side, we cannot forget about 
the ground. There is a lot of focus on the administration's 
proposal on ATC corporations in the air. We have to worry about 
what is on the ground, and we have to make sure that airports 
have the necessary funds to deal with the increased demand that 
we are all seeing.
    We mentioned the PFC adjustment we think is needed. AIP, 
the airport grant program, that FAA says there is a $7 billion 
a year in needs and eligible projects, and AIP right now is 
just a little bit over $3 billion, so we are not even quite 
halfway there.
    So more Federal resources would definitely be welcome.
    Senator Booker. Thank you.
    Mr. Chairman, thank you very much.
    I think you would probably want to correct for the record, 
out of deference to the Senator from New Jersey, he said the 
Port Authority of New York and New Jersey. He should have said 
the Port Authority of New Jersey and New York.
    [Laughter.]
    Mr. Dickerson. Corrected.
    Senator Blunt. I am glad to get that straightened out.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair.
    Good morning to all of you.
    I am just going to echo the comments you have already heard 
from so many of us on the Subcommittee about the importance of 
rural airports and the EAS program.
    I also wanted to just touch on one point, to build on what 
we have been discussing around the contract towers. We have one 
in Nashua, New Hampshire, and one in Lebanon. And I was pleased 
to join my colleagues on the letter led by Senators Inhofe and 
Blumenthal in support of those.
    There is no question that they have a positive impact.
    I was hoping, Mr. Dickerson, that you could speak to the 
role these contract tower airports play in supporting the 
United States military.
    Mr. Dickerson. Thank you, Senator. I appreciate that 
question.
    In fact, Senator Inhofe, Senator Manchin, and Senator 
McCain did a letter to the Commerce Committee in November 2015 
that outlined the critical importance of military and national 
security with contract towers.
    It is interesting. Forty-seven percent of all military 
operations, almost half of all the military operations at 
civilian airports, occur at contract towers.
    The other point about the program is the support of the 
program toward our veterans. Seventy percent--70 percent--of 
all the contract controllers are veterans.
    So the military counts on contract towers for their 
operations, and it makes sense because they do not want to be 
in the major metropolitan areas, in terms of training and 
flight operations, be in the smaller communities. So a very, 
very strong partnership between the Department of Defense, 
national security, and contract tower airports.
    Senator Hassan. Thank you very much.
    I will submit the remaining questions I have for the 
record.
    Thank you all for being here.
    Senator Blunt. Mr. Dickerson, did you say that 70 percent 
of people who operate contract towers are veterans? What was 
your 70 percent?
    Mr. Dickerson. Seventy percent of all contract controllers. 
So the 253 airports that have contract towers, there are about 
1,200 to 1,500 total controllers that work for these three 
companies, and 70 percent of those are veterans.
    Senator Blunt. And almost half of the military 
installations are supported by contract towers?
    Mr. Dickerson. Half of the military operations that occur 
at civilian airports, not bases, but civilian airports, are 
contract towers, correct.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Chairman Blunt. And I would like 
to thank the Ranking Member for holding this hearing as well.
    I want to begin by flagging an issue of great importance. 
We all obviously talk about our states, but we had a very 
unusual occurrence at our Yeager Airport in Charleston.
    If any of you all have ever flown into Yeager Airport, you 
know it is on the top of three mountains. And a large portion 
in 2015, a large portion of the Yeager Airport EMAS, which is 
the emergency system to catch overruns, fell into the valley. 
And the collapse--luckily, nobody was hurt. But it collapsed 
onto a church and resulted in a major safety concern and has 
stymied our ability to grow at Yeager until we can fix this 
issue.
    You can imagine the expense of something like this and also 
making sure that we get it done right for the safety of that 
particular airport.
    We are hoping and we are working together, Senator Manchin 
and I are working together, to make sure that we can get the 
AIP program looking at this, maybe some of the reconfigured 
dollars, which brings me to the question that, Mr. Baker, in 
your testimony, you mentioned that you did not think--and I 
know Yeager does not get the NPE grants because it does not 
qualify for that. It gets the primary grants.
    But you mentioned in your testimony that some of this money 
is not used as efficiently, and it goes back into a national 
pool. Some people cannot get the match. The projects, the money 
that they are able to access is too small to be able to cover a 
larger project.
    Could you kind of expand on improvements that could be done 
to that, so that airports in and around all of our states could 
access these more efficiently?
    Mr. Baker. Sure can, Senator. As a matter of fact, I have 
used that airport, Yeager field, to fly Special Olympics kids 
into that event. It is a great airport. But, as you know, it is 
on top of a mountain, and you do need as much runway as you can 
get.
    Senator Capito. You do. You do not want to go over.
    Mr. Baker. That is right.
    So our proposal, our thinking here, is that, for the NPE 
airports, the $150,000 a year, which they can roll over for 4 
years, which equals $600,000, but also requires local support 
up to 10 percent, when we end up turning back in over $300 
million a year into the general fund, it seems like we are not 
doing what was intended.
    If you go back to when the NPE Program was started, only 
about $18 million a year were being carried over and that's 
because the airports could take on some of these smaller 
projects that would kind of fit into that couple hundred 
thousand dollar program.
    So I think there is an ask here for the Committee to look 
at and we want to work with you on this. How do we take that 
money and deploy it back in these airports that really need it 
and take bigger projects on and use the money where it was 
intended, to invest in those airports so that we can have an 
infrastructure that is sustainable for a long period of time?
    Senator Capito. Do you happen to know if primary and 
nonprimary dollars in that program can be interchanged if there 
is overflow from the year, or it is returned back because it is 
unused?
    Mr. Baker. As I understand it, the NPE dollars are carried 
over to the FAA's discretionary fund and, in some cases, are 
allocated to other non-NPE airports.
    Senator Capito. OK. Thank you.
    Mr. Baker, we also suffered a pretty devastating flood in 
June 2016. Many of you all will remember. It resulted in the 
loss of 23 lives, and 1,200 homes were damaged in that flood.
    I really learned a lot during the flood process in terms of 
where you need to have resources and what type of resources you 
need to have. I was interested in your comments on the ability 
of some of these airports and certainly the resources there to 
be able to be used in emergency situations.
    You mentioned Hurricane Sandy, in particular. Could you 
talk a little bit about that as well?
    Mr. Baker. Sure can. It is a really important part. People 
do not necessarily understand the value until it is that time.
    Senator Capito. Right.
    Mr. Baker. When I was living in Southern California back in 
the 1990s when we had the earthquake, that was very 
significant. The only way the first responders could get into 
that part of L.A. was using the Santa Monica Airport because 
the bridges were gone. They were not available to be used. So 
all first responders had to be flown into Santa Monica.
    As you look at those opportunities around the country and 
where that can happen, whether it is hurricanes, floods, 
tornadoes, that first response has to come through aviation, 
whether they are helicoptered in or flown in by fixed-wing, 
because the only way you can really bring in big volumes of 
relief is through fixed-wing aircraft, which require 3,000 to 
5,000 feet.
    Senator Capito. Right.
    Mr. Baker. So we think of this as strategic relief, and too 
often, it is kind of forgotten about until the need occurs.
    And Hurricane Sandy is a perfect example where the only way 
you could get first responders in there, because the roads were 
destroyed, full of sand, was by using aviation.
    So we want to have a thought process about how we make sure 
that network is protected in those high-risk zones.
    Senator Capito. Right. Thank you.
    Thank you all very much.
    Senator Blunt. Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you.
    Mr. Dickerson, I understand the contract tower concept has 
been thoroughly discussed at this hearing, so I will not ask 
you about that except to note that, in my neck of the woods, it 
is quite popular among the people who use general aviation. So 
I just wanted to note that while I move on to other topics that 
perhaps have not been discussed quite as thoroughly.
    Mr. Baker, you know there is a proposed ATC reform that 
would create an independent private corporation to operate air 
traffic services and eliminate the FAA's ability to provide 
oversight of the ATC system. There has been a letter signed by 
Senators Cochran, Leahy, Collins, and Reed to the Chair of the 
Full Committee expressing opposition to this proposal. And 
there has been a good deal of discussion with regard to what 
this proposal would do to the general aviation community and to 
rural America.
    So would you discuss how this initiative would affect our 
economy and what changes would it result in, pros and cons?
    Mr. Baker. It is a very interesting question. Again, when 
we look at where we see problems, we do not see any from our 
perspective in general aviation and business aviation as it 
relates to air traffic control towers. They work very 
efficiently and very well for movements of hundreds of 
thousands of general aviation aircraft.
    We do think that if there are things that should be done 
differently, we should be open-minded about it. But one of the 
things we are not open-minded about at all is any kind of user 
fees.
    We have a fuel tax we think is very efficient. As we look 
around the world and what has happened with privatization, it 
has not been a positive for general aviation and business 
aviation. When they go to fees, if they are for an instrument 
flight, it could even reduce safety because of people making 
decisions not to pay that fee.
    There are things I think we can learn from and be smarter 
about how we become efficient and fund the ATC system and all 
of the FAA. But, at the moment, we do not see any issues with 
the current ATC system.
    I sit on the NextGen Advisory Committee as well, so I am 
pretty knowledgeable about where the airlines have made 
decisions about priorities for the FAA to be responsive. And I 
think so far, I think the FAA has been doing a pretty good job 
of doing that work. And the airlines and general aviation and 
the rest of business aviation sit alongside that and make those 
priorities pretty clear.
    So we remain concerned that if we are going to make a 
change, that the representation, the understanding of no user 
fees is clear.
    Senator Wicker. Would this proposal result in less 
congressional oversight? Would that be a good thing or a bad 
thing?
    Mr. Baker. I think when you look, in reflection, about the 
FAA and how it has been supported, it has been funded pretty 
clearly by Congress, over $16 billion this fiscal year. I do 
not see a shortage of funding for the FAA myself, and I think 
Congress has done a pretty good job of that oversight.
    Senator Wicker. Let me then switch, Mr. Baker, to another 
topic, and that would be pilot shortages.
    Between 1980 and 2015, the number of active pilots has 
decreased from more than 827,000 to just over 590,000, a 30 
percent decrease.
    So tell us about this. What does it portend for the future?
    Mr. Baker. I am very concerned about that. It is an 
important number. Some of it is generational. In 1980, we had a 
lot of World War II, Korean, Vietnam veterans that were flying. 
We have lost many in that great group, that great generation.
    I do not think we have to think about, call it boiling the 
ocean here and getting back to 800,000 pilots. What we are 
looking at is graduating, call it 17,000 or 18,000 pilots and 
we are still providing the best pilot training in the world 
here in the United States. And we export a lot of that training 
around the world.
    I think we would be quite pleased if we get back to 25,000 
or 30,000 net new pilots a year.
    For civil aviation and for military aviation to get into 
the airline or business aviation world, it probably has never 
been a better time in my experience of flying for 40 years. The 
careers are finally starting to evolve, whether it is 
engineering or actually flying or being a controller.
    Senator Wicker. How are we going to do that?
    Mr. Baker. We are going to need a big, significant program. 
We, AOPA, are starting a program for high schools called STEM, 
actually what we call STEAM--science, technology, engineering, 
aviation, and math.
    We are kicking that off this fall in a number of high 
schools, because we need to introduce young people to the 
careers in aviation that can be profitable and engaging levels 
of potential pilots that have not occurred for probably 30 or 
40 years.
    We are going to need a lot of help to get this kicked off 
at the high school level. We want to work with industry and 
government to make sure that aviation careers and opportunities 
can be significant here in the U.S. I am pretty excited about 
the growth in the pilot population that we can help impact.
    But we are also concerned about costs in aviation, whether 
it is a consolidation of some FBOs, some other things that are 
occurring that impose high costs in aviation and that are 
important for us to manage and maintain, because this is not an 
inexpensive journey to become a pilot.
    Senator Wicker. If anybody wants to weigh in on the 1,500-
flight-hour rule, I would be happy for you to do that on the 
record. That would be helpful to us.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Wicker.
    Senator Peters, then followed by the Chairman of the Full 
Committee, Senator Thune.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And thanks to each of our panelists here today for your 
testimony. It is important.
    I may sound like I am belaboring an issue, but I think it 
is worth belaboring, and that is Essential Air Service, and 
certainly the fact at how floored I was to have the Trump 
administration basically zeroing out this money.
    To me, the title speaks for itself as ``essential.'' This 
is the Essential Air Service for our rural areas. And in the 
state of Michigan, I actually have nine airports that would be 
impacted as a result of these cuts.
    I think we are second only to the state of Alaska, in terms 
of the impact on it. Many people think of Michigan as an 
industrial manufacturing state, which we are. We are proud of 
it. But we are also a very rural state. It is the largest state 
east of the Mississippi with very large rural areas that are 
served by Essential Air Service carriers.
    And certainly, the panel has talked about the economic 
impact this would have. And certainly, Mayor Gill, you spoke 
quite a bit, and others, about the economic impact to these 
areas.
    At a time when our rural communities are hurting now, we 
have actually seen declines in our rural areas, this is quite a 
slap in the face to something that is absolutely critical for 
their continued economic development.
    This morning, I sent a bipartisan letter, so we came 
together in a bipartisan way, to the Senate appropriators, 
calling for the continued support and funding of this program. 
We have 19 Senators on board. And I am sure if we had the 
letter out further, we would have a whole lot more on board. I 
think there is strong support here.
    But I think it is important that we continue to put in the 
record as to how important, essential, again, with the focus on 
Essential Air Service is.
    I know many of you have already made comments, but I want 
to give you an opportunity. Is there anything else that we 
should have in the record to make it crystal clear how 
devastating this cut would be to many of our rural areas?
    I will start with you, Mayor Gill, because I know you deal 
with this on a regular basis.
    Ms. Gill. Yes, thank you. Senator, I have been talking 
about the impact of air service on rural America.
    I just would like to reiterate that if you want us in rural 
America and towns like Pierre to be economic contributors, then 
we need to have access to air service to keep us connected to 
the rest of the Nation.
    With that, I believe that there are things that Congress 
can do. They can keep safety at the very front of the 
decisionmaking, but yet make some other modifications that can 
allow us to have meaningful air service. The pilot shortage, we 
have talked about that. There are things we can do to try to 
get more pilots into the pipeline, and staying there, and 
making it a viable career for them.
    We need to be connected to the FAA, so that there is 
oversight, safety oversight, to those kinds of modifications.
    But with all of that said, I think that we need to consider 
fully funding the EAS program, because EAS does provide that 
lifeline to rural America. And I think there are ways to review 
it, make sure it is sustainable and functioning efficiently, 
but yet it is very important to our economic feasibility.
    Thank you.
    Senator Peters. Thank you.
    Just one other issue, and that is small airport 
enplanement, AIP eligibility. I know some of my colleagues have 
brought up this issue as well.
    We have a situation in Michigan as well where airports face 
this cliff, if they do not hit the 10,000, and often through no 
fault of their own, but it is pretty significant. We have been 
able to postpone that for a period of time. I do not know how 
long that will continue.
    Perhaps some thoughts from the panel as to, is there an 
alternative? Should we perhaps have a gradual, proportionate 
change?
    But certainly, I would think all of you agree that the 
cliff that we have right now is simply not fair. It really is 
detrimental to our smaller, rural airports. If anyone would 
care to comment?
    Ms. Gill. Well, I would just make a quick comment on that, 
that, yes, when we are threatened with going below 10,000 
enplanements in a small airport, the difference between $1 
million annually and $150,000 is huge.
    Senator Peters. It is a big deal.
    Ms. Gill. It makes it very difficult for an airport to be 
able to continue to make those infrastructure improvements.
    So a recommendation that I would suggest would be to look 
at legislation that should establish a more gradual reduction 
or a delay in reduction or some other meaningful response to 
the problem.
    Mr. Dickerson. Senator, one of the obvious ways to address 
this is increase AIP funding. I mean, we are a little bit over 
$3 billion. We talked about earlier the $7 billion in needs 
that the FAA has identified.
    This Committee has always been a great supporter of AIP. We 
hope, in the next reauthorization bill, you can get to at least 
$4 billion in AIP annually. That would help a lot in terms of 
small airports. As you said, they are so dependent upon the 
airport grant funding.
    Senator Peters. Thank you very much.
    Thank you.
    Senator Blunt. Thank you, Senator Peters.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Thank you, Mr. Chairman. I want to appreciate 
you holding this hearing on these very important subjects in my 
state of South Dakota.
    I especially want to thank the distinguished panel of 
witnesses, and particularly Mayor Laurie Gill from our State 
capital of Pierre.
    It is nice to have you here. Welcome, Laurie.
    Access to the national air transportation system is a 
serious concern for those who live or work long distances from 
even the smallest airports, so connectivity is, for small and 
rural communities, vital to the economy. Those important 
connections can take many forms. Sometimes it is in the form of 
reliable and timely passenger air service by airlines. 
Sometimes it is in the form of a robust general aviation 
community. But all depend upon solid infrastructure.
    And the condition of the regional airline industry, which 
has changed quite a bit in the last decade, is an important 
factor in maintaining that connectivity. One of the issues that 
we keep hearing about is the ability of those carriers to hire 
and retain a quality supply of pilots.
    I hope we can learn a little bit more about that issue 
today. I know that many of you have spoken on that on some 
level already.
    But safety is always the top priority when it comes to air 
travel. I want to be sure that safety measures are put in place 
that are having their intended effects. And that is actual 
safety, not the appearance of safety, which is most important.
    So, Mayor, I would just ask you first off--and thank you by 
the way for participating in the DOT Small Community Working 
Group. As the author of that provision, I look forward to 
hearing more about the working group's recommendations when 
they are released.
    As we think about the issue of pathways for individuals to 
become commercial airline pilots, do you agree that safety 
remains the most important consideration?
    Ms. Gill. Thank you. Chairman Thune, first of all, I want 
to say thank you for your ongoing efforts to continue to 
improve air service in rural America. Your efforts have been 
duly noted. Thank you.
    I think that part of what we are facing and what has put 
pressure on the carriers that have served Pierre have been the 
issue of finding enough pilots. So I absolutely agree that we 
need to do things that can continue to look at ways to get, 
first of all, people interested in being a pilot as a career 
knowing the current environment coming in. They have to, first 
of all, want to do that.
    And then when they get into the training programs, to 
continue to look at ways to modify what counts toward the 1,500 
hours that pilots currently need for certification. And I do 
believe that there might be ways to look at, for instance, 
allowing training provided by the industry to be able to use in 
ways that it is not now to count for those hours.
    We need safety to remain first in the forefront, so any 
recommendations I would make would be connected to FAA approval 
for safety and FAA determination of the number of hours to be 
credited.
    Another thing regarding pilots that comes to mind for me is 
having FAA consider broadening its view of what qualifies as 
academic experience worthy of credit hours. Again, FAA would 
make a safety determination as to what would qualify and how 
many hours.
    So those are just thoughts that come to mind, but I do 
think there needs to be an emphasis on looking at how we can 
continue to have pilots funneling into that pipeline because we 
are going to see more and more retirements coming that are 
going to help make this problem even deeper.
    The Chairman. With safety being the number one 
consideration.
    Ms. Gill. Absolutely. Safety, and everything that I would 
recommend would be tied in some way to FAA oversight to 
determine if any changes that are being made keep safety at the 
first, very first forefront.
    The Chairman. As the Mayor of Pierre, you are no doubt 
helping lead the economic development efforts of the city. Can 
you give any real-world examples of how access to and 
reliability of air service has impacted the community's 
economic development efforts, especially with respect to 
attracting businesses and employees to the community?
    Ms. Gill. Certainly. You know, we are the State capital, 
and so, obviously, we are a government town. In our top 10 
employers, we have State Government, Federal Government, and 
city government. There are a lot of those folks that need to 
get in and out to do business, whether it be at a regional 
office in Denver or in Washington, D.C. So we have the need to 
do that.
    We also are the gateway many times into the state of South 
Dakota, and people are coming from all over the world to come 
in to do their business.
    We have people that live in our community that work all 
over the Nation. And it is a wonderful thing about our country, 
that people can live where they want to and fly in and out and 
do the work that they need to do, whether they be a consultant 
or work for a national company. And many people live in central 
South Dakota and depend on that air service to get to where 
they need to.
    Then we also have talked to many businesses that we are 
working to entice to come into our community, and one of the 
things that they are checking out as they are looking at a 
community is they are checking out what the access to service 
is, where they can get to, how many flights, and is it 
accessible.
    So that very much is on the forefront of any decisions for 
a company that is making a business decision, looking at our 
community.
    The Chairman. Dr. Smith, we are glad to have your expertise 
representing Embry-Riddle, which is in aviation, obviously, a 
key institution in our country when it comes to these issues. I 
know on aviation safety, you have been a leader, in terms of 
the research there.
    Could you perhaps give us some idea about what factors to 
weigh most or least when it comes to producing the best and the 
safest pilots possible? What are some of the things that you 
think that we need to be focused on?
    Dr. Smith. Thank you, sir. I appreciate your emphasis on 
safety because everything that we do in university education, 
aviation education, and what we did in the pilot source study 
focused on the concept of safety first.
    What we found in the study, that hours themselves was not 
an indicator of performance, just the term hours. We felt that 
we really needed to go back and look at, where did those hours 
come from? What was the kind of experience that those pilots 
had in order to make them eligible to become first officers?
    In the industry, we are looking at two possible descriptors 
of training or background that would help. One of them is the 
concept of structured flying, structured flying under some kind 
of operating manual, under some kind of supervision.
    The other one is called ``disciplined flying.'' It is one 
of the reasons why the FAA allowed the military pilots to be 
eligible at 750 hours, because they know that all of the flying 
those pilots do is disciplined.
    So what I would like you to look at is the concept that 
hours themselves without any kind of descriptor of where those 
hours come from is insufficient evidence that a pilot is either 
going to perform well or is going to be safe.
    The Chairman. Mr. Chairman, thank you. I appreciate, again, 
you having this hearing.
    Great panel. I know there will be a lot of questions for 
the record, and I know that you have had to expedite this 
because of votes.
    But we appreciate your flexibility and understanding that, 
and I look forward--I know I have some questions I would like 
to submit for the record too, as well.
    So thank you, Mr. Chairman.
    Senator Blunt. Thank you, Chairman. I think we have put a 
lot of information on the record today with the help of our 
witnesses.
    Let me ask two or three more questions, since I have not 
done that yet.
    So, Dr. Smith, you are saying that the quality of hours is 
every bit as important as the number of hours.
    Dr. Smith. And probably more important because some of our 
young folks have figured ways to get hours. They go to the 
airline, and they are totally unprepared because they have not 
had those quality hours.
    Senator Blunt. So I am assuming from that that if you go to 
the airport and rent a little plane and fly around for some 
hours, that is not necessarily the kind of disciplined hours 
that you think matter.
    Dr. Smith. That is right, not disciplined or structured. 
Whereas flight instruction (many of our students graduate from 
college, get their certificates and become flight instructors) 
under most of those circumstances, that is a very disciplined 
way of flying, and it is very structured. And those flight 
instructors in our study did show that they performed better 
than those who did not have that kind of experience.
    Senator Blunt. So you mentioned military hours. Are there 
other background influences that are likely to create a better 
pilot than others?
    Dr. Smith. We had several of them in our study.
    Number one, the one that showed the most effect size, was 
the years since graduation, so that gap that the rule put into 
place between when a pilot gets his or her certificates and 
when a pilot is eligible for hiring at a regional airline, what 
do they do during that gap? And that is what we are looking at, 
the possibility that this flying experience is disciplined or 
structured.
    We found that those who filled that gap very quickly, most 
of them are doing it by flight instruction, performed better.
    Pilots who had total time, surprisingly less than 1,500 
hours in many cases, did better. And that is because they went 
straight from their training program through some kind of 
flight instruction or some kind of experience like that, and 
directly into airlines, whereas many of the pilots in this 
study were second-career pilots, did something else for quite a 
bit of time before they went to work for the regional airlines.
    Senator Blunt. OK. I think we have to figure out how we 
qualify what creates the safest pilot here as much as we can 
and err on the side of that rather than on the side of just 
accumulating time. That is what your study appears to verify.
    Dr. Smith. And the FAA instituted the restricted ATP to 
give credit to pilots who come from the structured type of 
programs and education efforts, and also to military pilots. I 
think they could look at more of those, that the restricted ATP 
could be expanded to more of those organizations that provide 
structured or disciplined type of flying experience.
    Senator Blunt. Mr. Baker, you said you are on the NextGen 
Advisory Committee?
    Mr. Baker. That is correct.
    Senator Blunt. Are you satisfied with the speed of progress 
there up until now?
    Mr. Baker. The speed is never fast enough, and the cost is 
always higher than you would like. But I do think the NAC 
actually works pretty well at identifying the priorities, and 
the workgroups identify the pathways to get those priorities 
accomplished.
    The feedback loop that occurs with all my partners in the 
airlines and business aviation and others in the industry, I 
think there is general agreement that the NAC, as a committee, 
is a pretty successful one. I think the leadership--currently, 
we have FedEx leading that group and previous to that was 
Delta, and Alaska before that.
    I see the way the NAC works and it creates good consensus, 
and then the FAA knows what the priorities are, so it does 
work.
    Senator Blunt. And what do we need to do to make it work 
more quickly? Should the Congress be providing more incentive? 
More funding? More oversight? What do you think we need to do 
to close the gap between where we are now and where we would 
like to be?
    Mr. Baker. In some cases, I think that communication could 
be much improved but it is actually working, whether it is the 
PBN, the performance-based navigation systems, at some airports 
or understanding some of the other system complications. 
However, we are going to need Congress to weigh in on some 
others--noise and other things that are not part of the 
purview, if you will, of the NextGen Advisory Committee. When 
you are trying to make more efficient approaches and departures 
from these airports, some of the other challenges that seem to 
get rolled into this thing are noise and other kinds of 
performance issues that are outside of the purview.
    Senator Blunt. And you mentioned the amount of money in, I 
believe, the Airport Improvement Program funding. I think at 
that point you said that perhaps the local match was too high 
for small airports. Do you think there should be a local match?
    Mr. Baker. I do think there should be some, call it skin in 
the game, that this group has to align and say that these 
projects are recognized as adding value to that community. But 
maybe it can be spread out over some period of time. It can be, 
instead of being 10 percent, something less than that, 
particularly when you have safety opportunities to improve for 
the national network, for the transient neighbors coming in and 
out of that airport.
    So I think there is a way to look at it that would be much 
improved.
    I do want to add one other comment about safety, if you 
have one second, which is general aviation just came through 
its safest year ever in 2016 in terms of general aviation 
safety. I think it was a recognition from the work that FAA had 
done, NTSB, AOPA, and others. But general aviation has become a 
lot safer over the last half-dozen years.
    Senator Blunt. And, Mr. Dickerson, did you say that you 
thought the FAA had a thumb on the scale against safety?
    Mr. Dickerson. Yes, sir. I think in terms of their 
analysis, they want to focus more on, as I said earlier, 
abstract economic models in terms of benefit-cost versus the 
benefits of a control tower.
    Senator Blunt. I think at the time you also mentioned these 
abstract models included things that were not near the site 
where the aviation question was to be engaged, right?
    Mr. Dickerson. That is correct, nonsite-specific, indirect 
costs. No problem with costs associated with that tower, 
controller costs, telecommunication costs. But as I said, if we 
are going to err, we need to err on the side of safety, not on 
the these broad, abstract economic----
    Senator Blunt. And the nonsite-specific costs would include 
things like what?
    Mr. Dickerson. Depreciation costs, airway facility costs, 
things that are spread across the whole system of FAA, not 
specific to that airport.
    Senator Blunt. OK.
    Well, I am sure there will be questions for the record. I 
think we put a lot on the record today. The hearing record will 
remain open for 2 weeks. Senators will be asked to submit any 
questions, and, hopefully, you will be responsive to those.
    We want to conclude the hearing and thank our witnesses. 
The hearing is adjourned.
    [Whereupon, at 11:12 a.m., the hearing was adjourned.]

                            A P P E N D I X

  Prepared Statement of Hon. Laurie Gill, Mayor, Pierre, South Dakota
    Chairman Blunt, Ranking Member Cantwell, and Members of the 
Subcommittee:

    I am Laurie Gill, Mayor of Pierre, South Dakota. Through my 
statement today, I hope to add to the subcommittee's understanding of 
the challenges facing rural communities in achieving and maintaining 
reasonable air service. I'll also offer some thoughts on how Congress 
can address these challenges. At the outset, I also want to thank 
Chairman Thune for his sustained efforts to maintain and improve rural 
air service.
Air Service and Pierre
    Pierre is the capital of South Dakota and has a population of 
approximately 14,000. It is located in the center of our state, far 
from our state's population centers and from large hub airports. 
Without adequate air service to Pierre, our citizens and businesses 
face the following drives for meaningful scheduled air service options:

                                Sioux Falls, 226 miles;

                                Rapid City, 171 miles;

                                Minneapolis, 453 miles; and

                                Denver, 540 miles.

    The distances alone make clear that our citizens and our State 
Government need reasonable air service in Pierre to be connected.
    But distances are only part of the story. What's important is that 
businesses and people and communities be connected to the region, the 
country, and the world though reasonable air service. Businesses are 
not eager to locate or stay in communities with inadequate air service. 
Whether a business locates, leaves, or stays in Pierre or similar small 
cities has a very important multiplier effect on the local economy. In 
addition, growth breeds growth; losses can be hard to stop once they 
begin. So, achieving and maintaining reasonable air service is 
important to our economy. Air service is also important to individuals. 
Our residents, like people everywhere, sometimes have to travel long 
distances to visit family or medical specialists, attend special 
events, or meet other needs.
    In short, air service is a necessity for Pierre and similar cities 
and the program to help ensure such service is aptly named the 
Essential Air Service program.
    Let me turn now to a summary of recent air service in Pierre, 
beginning with annual enplanement data.

2013                                                              14,507
2014                                                               9,504
2015                                                               6,572
2016                                                               6,382
 

    The numbers show a huge decline in enplanements after 2013. It was 
in the summer of 2013 that FAA rules took effect that require a first 
officer in a 14 CFR part 121 air carrier operation to have 1,500 flight 
hours (or flight hours plus certain credits toward flight hours 
equaling 1,500 hours).
    There was also a decline in the reliability of air service to and 
from Pierre after the rule took effect. More flights were canceled and 
fewer were on time. In 2015 nearly one in five flights was canceled and 
over 40 percent were not on time. The number of daily flights plummeted 
from 8 to 3. Commercial air service was challenged to find a sufficient 
supply of pilots that qualified under the new rule. Prior to the rule's 
effect, Pierre had 19 seat service four times a day to Minneapolis and 
four times a day to Denver. After the change, the carrier tried to cope 
in part by changing the service to offer only 9 seats. That may have 
put that plane outside the reach of the 1,500 hour rule, but the 
smaller configuration did not inspire confidence in the community in 
the service.
    As commercial air services continued to degrade, our customer 
complaints skyrocketed and enplanements at Pierre plummeted. 
Individuals responded in part by making the long drives to other 
airports. And long drives in winter weather are an additional safety 
concern. This trend placed further downward pressure on enplanement 
totals in Pierre and carrier profitability, which can have a downward 
pressure on service. During this period, Pierre lost eastbound service 
to Minneapolis and Denver service frequency was reduced.
    That kind of decline in service triggers additional problems. It 
has adverse implications for the physical infrastructure of our 
airport. Under the Airport Improvement Program (AIP), an airport with 
10,000 or more enplanements in a year receives an annual apportionment 
of at least $1,000,000 for eligible airfield infrastructure. To fall 
below 10,000 enplanements drops the minimum annual apportionment to 
$150,000--a reduction of 85 percent. With this steep cliff in the 
structure of the apportionments to airports, over the long term, an 
airport with fewer than 10,000 enplanements faces challenges in 
obtaining funds to maintain infrastructure that will attract or retain 
scheduled air service providers.
    Lack of reliable air service has additional implications for EAS 
communities. As I've mentioned, unreliable service can lead to fewer 
passengers, leading to higher per passenger EAS subsidy costs and, 
ultimately, a risk that EAS payments for service could be terminated if 
per passenger costs exceed per passenger subsidy maximums applicable to 
the EAS program.
Important Help From the EAS Program
    From 2006 through the summer of 2016, Pierre was an EAS eligible 
community but did not receive EAS subsidy. After the 1,500 hour rule 
took effect and reliability plummeted, in 2016 the City of Pierre 
requested EAS subsidy in an effort to regain air service reliability. 
The request for EAS funding was granted. As a result, last summer 
Pierre began to receive service from a new carrier using 50 seat 
regional jets, in twice daily service to Denver. The more modern and 
larger plane has increased community and passenger confidence. 
Enplanements are recovering and may well exceed 10,000 in 2017. It is 
important to note that this development is directly related to Pierre 
service receiving subsidy under the EAS program. EAS payments 
facilitate the carrier's use of the larger plane and pilot staffing and 
service has been much more reliable. Given the long history of 
uncertainty surrounding air service in Pierre after implementation of 
the 1,500 hour rule, we remain very alert to air service issues and 
simply cannot assume that we've achieved a permanent solution. 
Moreover, at this point the improvement is only westbound to Denver. We 
still have no eastbound service to Minneapolis out of Pierre.
Rural America Deserves a Prompt and Constructive Response from 
        Congress
    There are ways Congress can address the small community air service 
issues I've described today.
    Congress should respond to the service declines that followed 
implementation of the 1,500 hour rule. This must be done in a way that 
maintains safety--and as a public official, and as a wife, mother, and 
grandmother, I am absolutely committed to safety. And that includes 
concern over long winter drives.
    Possibilities include allowing hours of credit towards the 1,500 
hours for training provided by air carriers in their training programs, 
subject to FAA approval. Such training clearly has at least the 
potential to be valuable and highly professional, just as current rules 
have found value in experience in the military and in graduating from 
certain institutions of higher education. This new approach to 
receiving credit hours towards the 1,500 hours should be subject to FAA 
approval, however, as well as to an FAA determination of the number of 
hours to be credited. In addition, the FAA, with or without direction 
from Congress, should consider providing additional hours of credit for 
academic and military training and consider broadening its view of what 
qualifies as academic experience deserving hours of credit. Again, all 
such actions would be subject to FAA making a finding supporting the 
safety of the approach, including as to the hours to be credited 
towards the 1,500 hours.
    Financial support for students studying to be pilots, or for pilots 
struggling to pay back student loans, could also help address pilot 
supply. Such actions could well encourage individuals to pursue, or 
continue to pursue, a career as a pilot.
    What I am sure of as to pilot supply is that rural America's 
aviation needs are for safety and service, not safety and less service. 
So, I have offered some ideas that should help improve service and that 
are fully consistent with safety.
    Similarly, full funding for the EAS program is warranted and very 
important. Congress should address the unforeseen consequences of the 
1,500 hour rule on service before considering reductions in EAS 
funding. Such an approach could well increase enplanements, help 
contain costs, and reduce long drives to other airports. It would be a 
win, win. There would be better service, bringing about economic growth 
in the affected communities. The likely increased ridership would hold 
down budget costs. If constructive reforms to EAS can be fashioned, 
fine. Some points may warrant more service, others may warrant a 
seasonal reduction in service. But now, of all times, is not the time 
for EAS reductions, much less wholesale reductions.
    In addition, AIP funding distribution should be crafted in a way 
that recognizes that small community airports may have suffered 
enplanement reductions due to pilot supply issues following 
implementation of the 1,500 hour rule. A drop in annual apportionments 
from $1 million to $150,000 is extreme. Legislation should establish a 
more gradual reduction, or a delay in reduction, or some other 
meaningful response to this problem.
Conclusion
    Rural small communities face aviation service challenges but there 
are sound ways for Congress to respond, as I have outlined today. Your 
consideration is deeply appreciated.
    That concludes my statement. Thanks very much for the opportunity 
to testify.

    Note: Mayor Gill is a Member of the Working Group on Improving Air 
Service to Small Communities authorized by section 2303 of the FAA 
Extension, Safety, and Security Act of 2016, Public Law No. 114-190. 
This statement is presented in her capacity as Mayor of Pierre, SD, and 
does not purport in any way to speak for any other entity.
                                 ______
                                 
    Prepared Statement of Spencer Dickerson, Senior Executive Vice 
                               President
 --Global Operations, American Association of Airport Executives, and 
          Executive Director, U.S. Contract Tower Association
    Chairman Blunt, Ranking Member Cantwell, and members of the Senate 
Commerce Subcommittee on Aviation Operations, Safety, and Security, 
thank you for inviting me to participate in today's hearing on rural 
air service. It is an honor for me to be here today.
    My name is Spencer Dickerson. I am the Senior Executive Vice 
President--Global Operations for the American Association of Airport 
Executives (AAAE) and the Executive Director of the U.S. Contract Tower 
Association. AAAE is the world's largest professional organization 
representing the men and women who manage commercial service, reliever, 
and general aviation airports.
    The Contract Tower Association represents 253 airports that 
participate in the Federal Aviation Administration (FAA) Contract Tower 
Program. This cost-effective program allows commercial service airports 
in smaller communities and general aviation airports to have air 
traffic control services. AAAE created the Contract Tower Association 
in 1996 to promote the program and to enhance aviation safety at 
smaller airports around the country.
    Mr. Chairman, before discussing the Contract Tower Program in 
greater detail, I would like to thank you and your colleagues for your 
leadership on small community air service issues. The Senate Commerce 
Committee has a long tradition of standing up for small communities and 
supporting those programs that enhance aviation safety and ensure that 
people who live in rural parts of the country are connected to our 
national aviation system.
    One example stands out for our members who participate in the 
Contract Tower Program: Four years ago during the sequestration battle, 
members of this subcommittee played a critical role to beat back 
efforts to close 149 contract towers. We deeply appreciated your 
leadership then and all the steps that you have taken since then to 
ensure the long-term viability of the Contract Tower Program.
    I would also like to thank all you for the enormous amount of work 
that you and staffs did on the FAA reauthorization bill and the 
temporary extension last year. The bipartisan FAA bill that this 
subcommittee and the Senate overwhelmingly approved last year included 
a number of welcome provisions to help small communities. Our members 
appreciate that they have lawmakers who are looking out for them and 
the small communities they serve.
    We undoubtedly will need your leadership on rural air service 
issues again this year. As all you know, the Administration is 
proposing to reduce transportation spending by 13 percent in Fiscal 
Year 2018 and eliminate the Essential Air Service (EAS) program. If 
enacted into law, this proposal would likely end commercial air service 
at many airports around the country.
    We look forward to working with you to determine how the 
Administration's complete budget request could impact rural air service 
and airport-related programs. We also hope to work with you on two 
broader airport initiatives that would help large and small airports--
eliminating the Federal cap on local Passenger Facility Charges (PFCs) 
and increasing funding for the Federal Airport Improvement Program 
(AIP).
    Today, I would like to focus on how the FAA's Contract Tower 
Program improves aviation safety at participating airports and benefits 
small communities in rural America and less populated areas of the 
country. I would also like to touch on the EAS and Small Community Air 
Service Development Programs and describe some of our recommendations 
for the next FAA reauthorization bill.
Help Preserve Safe Operations at Airports By Preserving the Contract 
        Tower Program
    Mr. Chairman, on behalf of the airports with FAA contract towers at 
their facilities, I would like to thank members of this subcommittee 
for your strong support for the Contract Tower Program. This successful 
public-private sector partnership allows airports to have cost-
effective air traffic control services that enhance aviation safety and 
improve air traffic efficiency.
    Currently, 253 airports in 46 states participate in the program, 
including 237 that participate in the fully funded program. Another 16 
airports participate in the cost-share program, which requires local 
airports to pay for a portion of their contract controller costs. Every 
Commerce Committee member has at least one contract tower in his or her 
state. A total of 126 contract towers are located in your states, 
including 23 in Texas and 25 in Florida.
    As you know, the Contract Tower Program continues to enjoy strong 
bipartisan and bicameral support for the way it enhances aviation 
safety and provides significant cost savings to the FAA and U.S. 
taxpayers. The significant benefits of this highly-regarded government-
industry partnership have been validated repeatedly by audits of the 
Department of Transportation (DOT) Office of Inspector General.
    To illustrate the cost-effectiveness of the program to taxpayers, 
contract towers handle approximately 28 percent of all U.S. tower 
operations, but they account for just 14 percent of FAA's overall 
budget allotted to air traffic control tower operations. Additionally, 
the Contract Tower Program provides FAA and taxpayers annual savings of 
approximately $200 million.
    The FAA controls and oversees all aspects of the contract tower 
program, including operating procedures, staffing plans, certification 
and medical tests of contract controllers, security and facility 
evaluations. All contract controllers are certified by the FAA, and 
they meet the identical training and operating standards as FAA 
controllers.
    It is important to note that contract tower airports provide 
significant funds to operate and maintain their towers, including 
maintenance, utilities, janitorial and other expenses. Additionally, 
many participating airports have provided substantial local and state 
funds to construct their towers over the past 10 to 15 years.
    Contract towers operate together with FAA-staffed facilities 
throughout the country as part of an integrated national air traffic 
control system. The Contract Tower Association works closely with our 
friends and colleagues at the National Air Traffic Controllers 
Association to find ways that contract towers and FAA-staffed towers 
can work together effectively and efficiently for the traveling public.
    The contract tower program enjoys strong support from a wide array 
of aviation groups, including the Aircraft Owners and Pilots 
Association, Regional Airline Association, Airports Council 
International-North America, National Air Transportation Association, 
Cargo Airline Association, National Business Aviation Association, 
National Association of State Aviation Officials, and Air Traffic 
Control Association.
    Contract Towers at Commercial Service and Reliever Airports: Mr. 
Chairman, contract towers are widely known for providing air traffic 
services for small airports including those in rural America. Some who 
may not be familiar with the program may get the wrong impression that 
airports with contract towers are largely general aviation facilities. 
But there are a number of contract tower airports with a significant 
amount of commercial airline traffic.
    Of the 253 airports that participate in the Contract Tower Program, 
almost 90 are small hub or non-hub commercial service airports. For 
instance, the Lihue Airport in Kauai and the Kona International Airport 
on the Big Island are two small hub airports that are served by 
contract towers. According to the FAA, each Hawaiian airport had almost 
1.5 million enplanements in 2015.
    The Northwest Arkansas Regional Airport is another small hub 
airport that participates in the Contract Tower Program. The Arkansas 
airport had 629,000 enplanements in 2015. Needless to say, contract 
towers play a key role at those airports and their ability to have safe 
and reliable commercial airline service, which directly impacts their 
local economies.
    Contract towers also play an important role in reducing congestion 
at large commercial service airports. Many reliever airports scattered 
throughout the country participate in the Contract Tower Program. These 
airports relieve air traffic in major metropolitan areas including 
Atlanta, Los Angeles, Chicago, Dallas, San Francisco, Las Vegas, 
Phoenix, Miami, Seattle, and Minneapolis.
    Without our system of reliever airports--including those with 
contract towers--large commercial service airports around the country 
likely would face increasing congestion and delays. At a time when 
passenger boardings and operations are rising, it's critical that we 
continue to increase aviation capacity. We can do that, in part, by 
expediting the implementation of NextGen, increasing funding for 
airport infrastructure projects, and by maintaining a strong contract 
tower program.
    Contract Towers Serve Our Military: The United States military is a 
long-time partner with airports that participate in the Contract Tower 
Program. According to the FAA, 47 percent of all military operations at 
civilian airports in the United States occur at contract tower 
airports.
    That's why any proposal to shutter or cut the Contract Tower 
Program could have a significant impact on our Nation's military and 
national security.
    In a letter to Senate Commerce Committee leaders in late 2015, 
Senators James Inhofe, Joe Manchin, and John McCain described how many 
contract tower airports are located near military bases and ``serve as 
significant readiness or training facilities'' for active military, 
national guard, and reserve units. They pointed out that the 
collaboration between civilian contract towers and military units 
strengthens our national security.
    ``Without the Federal Contract Tower Program, the vast majority of 
these airports would be unable to continue operating a tower,'' the 
three Senators wrote. ``As a result, the military units actively using 
these airports would be forced to significantly curtail their 
activities or operate from more distant, busier airports that support 
substantial commercial aviation operations.''
    Since the 1980s, the Army, Air Force, Navy, Marines, National 
Guard, and Reserves also have recognized that airports with contract 
towers provide cost-effective and reliable solutions for flight 
operations and pilot training. The following list includes some of the 
contract tower airports with extensive military and national security 
operations:

  <bullet> Kenai, Alaska: U.S. Air Force and Air National Guard.

  <bullet> Jacksonville Cecil Field, Florida: U.S. Coast Guard, Customs 
        and Border Protection, Army National Guard.

  <bullet> Kona, Hawaii: Air National Guard (154th Wing) Air Force 
        (15th Wing), Coast Guard (District 14).

  <bullet> Bloomington, Indiana: Naval Surface Warfare Center Crane 
        Division.

  <bullet> Topeka, Kansas: Air National Guard (190th Air Refueling 
        Wing), Air Force Reserve (KC-135 Tanker Squadron).

  <bullet> Columbus, Mississippi: Pilot training for Columbus Air Force 
        Base.

  <bullet> Branson, Missouri: Pilot training for Vance, Columbus and 
        Randolph Air Force Bases.

  <bullet> Lawton, Oklahoma: Aerial point of embarkation for Ft. Sill 
        Air Force Base.

  <bullet> Rapid City, South Dakota: Ellsworth Air Force Base and 
        National Guard.

  <bullet> Ogden, Utah: Flight training for Hill Air Force Base, Army 
        National Guard.

    In addition to providing a critical service for the United States 
military, the contract tower program supports our Nation's veterans. 
Approximately 70 percent of all contract controllers are veterans. The 
fact that so many men and women who have served our country find a home 
in the Contract Tower Program is a key reason why many of us believe 
this the program is so successful.
    Cost-Benefit Eligibility Criteria: The FAA has been working to 
revise the cost-benefit eligibility criteria for the contract tower 
program in a manner that could close some contract towers and/or 
unfairly shift tower staffing costs to contract towers airports. The 
airport industry has tried extremely hard over the past few years to 
work collaboratively with FAA on these reforms without any tangible 
results.
    To complicate matters, the FAA in 2014 placed a moratorium on new 
airport applicants and cost-share applicants for the program. This has 
prevented some airports currently without air traffic control services 
from being able to participate in the Contract Tower Program. The 
moratorium has also prevented some airports from possibly being able to 
move from the cost-share program to the fully-funded Contract Tower 
Program.
    Our members strongly believe that the FAA should err on the side of 
safety, not abstract economic models when considering the future of the 
Contract Tower Program. This program is not just about dollars and 
cents--it is about what's in the best interest of advancing aviation 
safety throughout the Nation. That's why we continue to seek your help 
to preserve this program.
    The Contract Tower Association is continuing to propose a number of 
cost-benefit reforms that would provide stability for contract tower 
communities and promote aviation safety and economic growth. We 
continue to believe that a fair and balanced cost-benefit analysis for 
contract towers should take into account the broad array of significant 
benefits the program provides to individual communities and to the 
Nation in terms of enhanced safety, cost savings, economic development, 
and job creation.
    Recommendations for the FAA Reauthorization Bill: We are grateful 
that the FAA reauthorization bill that this subcommittee and the Senate 
approved last year included a number of welcome provisions to help 
contract towers and their surrounding communities. I hope that we can 
continue to work together to build on that legislation as you resume 
consideration of the FAA bill this year.
    Mr. Chairman, the following includes some of the specific 
recommendations that the Contract Tower Association is proposing again 
this year. You'll notice that our list hasn't changed in the past year. 
Many of our proposals still are aimed at ensuring that the FAA moves 
forward with a fair and balanced cost-benefit analysis to ensure that 
small airports can continue to participate in the successful and cost-
effective program.
    First, we believe that fully funded contract towers should not be 
subject to unnecessary annual cost-benefit analyses unless their 
traffic drops by more than 25 percent in single year or 60 percent over 
a three year period. Once the FAA accepts an airport into the Contract 
Tower Program, the airport should be allowed to continue to participate 
in the program unless it suffers a significant decrease in aircraft 
traffic. Additionally, we support the provision in the Senate-passed 
FAA bill that proposed to exempt airports with more than 25,000 
passenger enplanements from cost share payments.
    We also urge you to prohibit the FAA from adding non-site specific 
or indirect costs to its cost-benefit analysis. The agency should be 
allowed to consider those costs that would disappear if the tower 
closed. But the FAA should not be permitted to consider indirect costs 
as a basis for closing a contract tower since those costs will remain 
in FAA's operations budget even if the tower is closed.
    When the FAA performs a cost-benefit analysis it should give full 
consideration to the safety and economic benefits of having an air 
traffic control tower. We recommend that the agency do this by adding a 
10 percentage point margin of error to its cost-benefit calculations to 
account for these hard to quantify benefits. The Senate-passed FAA bill 
would have added five percentage points.
    The FAA should have procedures in place to ensure that airports 
have an adequate opportunity to respond to an unfavorable cost-benefit 
analysis before they lose their air traffic controllers. The Contract 
Tower Program is a successful public private partnership. But in order 
for that partnership to continue to succeed, contract towers should be 
allowed to provide their side of the story when the FAA conducts its 
costs-benefit analysis.
    We also urge you to remove the $2 million cap on AIP eligibility 
for contract tower construction. Eliminating that unnecessary cap would 
make contract tower construction consistent with other AIP-funded 
projects. Although the FAA bill that the House Transportation and 
Infrastructure Committee approved last year proposed to eliminate the 
$2 million cap, the Senate-passed version of the bill would have raised 
it to $4 million.
    Finally, we continue to urge Congress to end the moratorium on the 
FAA for considering applicable non-towered airports and non-federal 
towered airports for the contact tower program and run cost-benefit 
ratios on the cost-share contract towers.
    Air Traffic Control Reform: Mr. Chairman, we realize that Congress 
and the Administration will continue to debate a proposal that calls 
for a not-for-profit corporation to operate our air traffic control 
system. If Congress moves forward with this plan in the next FAA 
reauthorization bill, we urge you to include explicit protections for 
the Contract Tower Program. Whether Congress decides to have the FAA or 
a non-for-profit corporation in charge of our air traffic control 
system, we hope all of you will agree that the Contract Tower Program 
should remain intact.
    Our members are concerned that an air traffic control corporation 
could unilaterally decide to close some or all contract towers. To 
avoid that possible scenario, we believe that Congress should require 
the corporation to receive approval from the local airport operator 
before being allowed to close its contract tower. Since the 253 FAA 
contract towers represent half of all towers in the country, handle 
almost 30 percent of all tower operations nationwide, and control 47 
percent of military traffic at civilian airports, we firmly believe 
there contract towers should be protected.
    In an increasingly global marketplace, we cannot afford to take a 
step backward. Our communities desire and deserve the benefits that FAA 
contract towers provide. We are encouraged by the successful and highly 
effective partnership that airports, contract controllers, air traffic 
control contractors, and the FAA have developed over the past three 
decades, and we urge this subcommittee and Congress to continue to 
support this vital program.
Support Other Small Community Air Service Programs
    Fully Fund Essential Air Service Program: We would like to thank 
this subcommittee for its long-standing support for the EAS program. 
The FAA reauthorization bill that this committee and the Senate 
approved last year authorized $155 million in discretionary funding for 
EAS in Fiscal Years 2016 and 2017.
    Congress created the EAS program as part of the Airline 
Deregulation Act of 1978 to ensure that small communities could 
maintain a minimal level of scheduled air service. Since then, this 
program successfully has allowed people who live in rural and less 
populated areas to have access to our national aviation system.
    According to DOT, 173 communities participate in the EAS program, 
including three in South Dakota, four in Missouri, and 61 in Alaska. 
However, President Trump's Fiscal Year 2018 Budget Request proposes to 
eliminate funding for this program--a move that would likely end 
commercial air service to EAS communities around the country.
    As members of this subcommittee well know, commercial air service 
is not just a matter of convenience for leisure travelers. It is also 
critical to economic development efforts in communities around the 
country. Without the EAS program it would be difficult for many small 
communities to retain commercial air service and attract businesses 
that promote economic development and support jobs.
    The EAS program is funded by a combination of annual appropriations 
and revenue from overflight fees. On behalf of EAS communities around 
the country, we urge you to continue to support this program and reject 
the Administration's proposal to eliminate commercial air service to 
communities around the country.
    Continue to Back the Small Community Air Service Development 
Program: AAAE has been a strong supporter of the Small Community Air 
Service Development Program. Since Congress created the program in 
2000, it has helped numerous small communities suffering from 
insufficient air service or unreasonably high fares.
    DOT officials have pointed out that small community grants fund a 
variety of projects, including financial incentives for airlines and 
marketing initiatives. At a time when small airports are trying to do 
everything they can to hold on to commercial air service and attract 
new service, the Small Community Air Service Development Program can 
provide small communities with a much-needed boost.
    It is worth noting that small communities that participate in the 
program bring significant local funds to the table. When announcing new 
grant recipients last year, DOT noted that ``nearly all the communities 
pledged local cash and/or in-kind contributions from local, state, 
airport, or private sources to complement their requests for Federal 
assistance.''
    The FAA reauthorization bill that the Senate approved last year 
included $10 million for the Small Community Air Service Development 
Program in both FY16 and FY17. That amount is $4 million more than the 
previous authorized level and $5 million more than Congress 
appropriated for the program in FY16. I urge you to include at least 
that amount in the next FAA reauthorization bill.
    Additionally, we would like to thank this committee for including a 
provision in the Senate-approved FAA bill to allow current small hub 
and smaller airports to be eligible to participate in the program--not 
just those that were classified as small airports in 1997. We encourage 
you to include that same provision in the next FAA bill.
    Address Small Community Challenges: Airport operators around the 
country also urge this subcommittee to work with them, airlines, and 
other aviation stakeholders to address the ongoing pilot shortage and 
other small community challenges while maintaining the highest level of 
aviation safety.
    There may be a number of reasons why many small communities are 
struggling to retain and attract commercial air service, including 
industry consolidation and the changing fleet size. But small and 
medium-sized communities are continuing to experience commercial air 
service reductions, in part, because carriers say that there are not 
enough qualified pilots to operate their flights.
    The last FAA extension required DOT to establish a ``Working Group 
on Improving Air Service to Small Communities.'' As part of its 
assignment, the panel is expected to examine ``obstacles to attracting 
and maintaining air transportation services to and from small 
communities.'' It is our understanding that the group has been working 
hard and meeting regularly. Airport operators look forward to its 
findings and recommendations.
    We are hopeful that the small community panel can help Congress, 
the Administration, and other aviation stakeholders come up with 
reasonable proposals that enhance small community air service and 
ensure that we have enough pilots in the pipeline while maintaining the 
highest level of aviation safety.
Help General Aviation and Commercial Service Airports Repair Aging 
        Facilities; Build Infrastructure Projects
    Mr. Chairman, this subcommittee also can help small commercial 
service and general aviation airports by providing them with the 
resources they need to repair aging facilities and build critical 
infrastructure projects. The following includes some key actions that 
this subcommittee can take to prepare airports for the challenges 
ahead.
    Increase AIP Funding: Increasing AIP funding, which this 
subcommittee proposed to do last year, would help fund critical safety, 
security, and capacity projects at all sizes of airport. AIP is a 
particularly key source of revenue for general aviation and smaller 
commercial airports that have limited funding options.
    The Senate-passed version of the FAA reauthorization bill proposed 
to increase AIP funding from $3.35 billion to $3.75 billion in FY17--a 
welcome $400 million increase. The bill that the House Transportation 
and Infrastructure Committee approved last year called for a slightly 
higher $4 billion funding level by FY22.
    The FAA's 2017 National Plan of Integrated Airport Systems 
indicates that airports will have $32.5 billion in AIP-eligible 
projects between 2017 and 2021--approximately $6.5 billion per year. 
That's twice the $3.2 billion designated for airport capital projects 
as part of the program's $3.35 billion annual funding level.
    Considering the enormous amount of capital needs, airports are 
encouraging Congress to increase AIP funding to at least $4 billion 
annually--the same amount that the House Transportation and 
Infrastructure Committee approved last year.
    Eliminate the PFC Cap: Perhaps the single most important action 
that Congress can take to help build airport infrastructure projects is 
by eliminating the PFC cap. Congress hasn't adjusted the cap in 17 
years. Eliminating the cap now would be the easiest way to provide more 
funding for capital projects at airports throughout the country.
    PFCs are an important source of revenue for large and small 
airports alike. As members of this subcommittee know, small commercial 
service airports often rely on PFCs to pay their local match for 
Federal AIP funds, to upgrade aging facilities, and to pay for other 
critical infrastructure projects.
    Although general aviation airports don't collect PFCs, they benefit 
from those commercial services airports that do. Large and medium hub 
airports that collect PFCs have up to 75 percent of their AIP 
entitlements withheld. The FAA then distributes 87.5 percent of those 
funds to general aviation and small commercial service airports through 
the Small Airport Fund.
    Small airports currently receive about $500 million annually from 
the Small Airport Fund. But they could benefit even more if Congress 
adjusted the PFC cap and focused limited Federal funds on smaller 
airports that need Federal assistance the most. Airport executives are 
continuing to urge Congress to eliminate the PFC cap as part of the 
next FAA reauthorization bill.
Conclusion
    Chairman Blunt, Ranking Member Cantwell, and members of the 
Subcommittee on Aviation Operations, Safety, and Security, thank you 
again for inviting me to participate in this important hearing on rural 
air service and contract towers. We greatly appreciate your long-
standing support of the Nation's airports and look forward to working 
with you and your staff as we seek to enhance rural air service and 
general aviation operations nationwide.
            Attachments: map and list of FAA contract towers
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
         Prepared Statement of Mark Baker, President and CEO, 
                 Aircraft Owners and Pilots Association
General Aviation and Airports in Rural America
    The Aircraft Owners and Pilots Association (AOPA) represents more 
than 300,000 of America's pilots and aviation enthusiasts and we 
believe that nothing better represents the foundational spirit of 
freedom than taking to America's skies. And the most necessary element 
of the freedom to fly is America's network of airports. Local airports, 
many of which are in rural communities and are not served by commercial 
aviation, are economic engines that allow towns to tap into the 1.1 
million jobs and $219 billion in economic output that general aviation 
(GA) is responsible for in today's economy.
    The national network of airports is made up of some 5,200 public-
use community airports and only around ten percent of those airports 
have commercial service, meaning they rely on GA alone to connect the 
170 million GA passengers every year and serve the needs of the medical 
and law enforcement communities as well as support everything from 
agriculture, fishing, and pest control to forestry and wildlife 
management. It all comes down to access and rural America relies on GA 
airports.
    The following are the four categories of GA Airports according to 
the FAA and a map of the airports from the FAA 2012 ASSET Report.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

General Aviation Airport Funding
    The Federal Aviation Administration's National Plan of Integrated 
Airport Systems (NPIAS) consists of 3,340 airports including 2,950 non-
primary airports most of which do not have commercial service. Funding 
for these non-primary airports comes from Non-Primary Entitlement (NPE) 
grants under the Airport Improvement Program (AIP) to improve safety, 
capacity, and security or meet environmental concerns. The AIP does not 
receive any general fund revenue and instead is financed by a series of 
national airspace system fees including taxes on aviation fuels.
    Under NPE, each non-primary airport receives $150,000 per year for 
capital projects. An airport may ``bank'' their unspent NPE for up to 
four years for a potential total amount of $600,000 in the fourth year. 
By the fifth year, the amount available to the airport returns to 
$150,000. Considering the NPE is not indexed, the value of grants has 
been decreasing since inception of the program in 2001.
    Many GA airports have had difficulty using their NPE funds for two 
reasons. First, the amount available in any given year is too low to 
complete needed projects. Second, often the cash strapped airport 
sponsors struggle to provide the ten percent local match requirement 
for a project. Also, NPE funds are limited to airside projects such as 
lighting, runways, and taxiways and cannot be used for other airport 
projects such as terminals or hangar construction.
    When a non-primary airport does not use its entitlement in a fiscal 
year, the funds are returned to the FAA discretionary fund and spent on 
current year projects including at larger primary airports which 
benefit from this cycle. As a result, hundreds of millions of NPE 
dollars are not being spent on their intended purpose, to help small GA 
airports, mostly in rural America. Of the $442 million in total NPE 
funds last year, 2016, $329 million were carried over to the 
discretionary fund. Between 2006 and 2016, more than $2 billion in NPE 
funds have been carried over. AOPA would like to work with the 
Committee to ensure that NPE funds are being used as Congress intended 
and to protect the airport ecosystem for small communities across the 
United States.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Source: CRS Report titled ``Reauthorization of the Federal Aviation 
Administration in the 115th Congress'', March 20, 2017.
Public-Private Partnerships
    Certain airports have recognized the advantages of establishing 
public-private partnerships to meet the needs of the local aviation 
community and generate additional revenue. The result is a win-win--
businesses realize and capitalize on opportunities and the airport 
becomes more self-sustaining. However, many airports lack the resources 
to effectively market these opportunities to the private sector. The 
Metropolitan Airport Commission, which owns and operates seven airports 
in the Minneapolis area, has proven the concept and accomplished 
extensive hangar development at their GA airports relying solely on 
private capital.
    Public-private partnerships can go a long way to help cash strapped 
local communities rebuild and reinvigorate their airports and increase 
economic output to the benefit of taxpayers and users of the airport.
    There is significant demand for hangar development at airports 
across the country but in most cases their construction and 
refurbishment may not be financed by AIP grants. Many airports have 
long waiting lists for hangars and what hangars they have are often old 
and in need of repair.
    AOPA would like to work with the Committee, the FAA, and industry 
to help airports take advantage of public-private partnership 
opportunities to increase traffic, expand facilities, and maximize 
revenue potential.
General Aviation Airports--Health, Safety, and Security
    General aviation airports play a vital role in our national 
airspace system especially during emergencies. Professionals in law 
enforcement, national security, border security, and healthcare use GA 
airports, even where larger airports are available, because of 
accessibility and lower costs and congestion. As the FAA said in a 2012 
report on GA airports, ``It is faster, easier on the patient, and far 
less expensive to operate these lifesaving services from a general 
aviation airport.''
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    In natural disasters, including earthquakes, hurricanes, floods, 
and wildfires, the extensive system of GA airports provides a staging 
area to support relief and rescue efforts. For example, Eagle's Nest 
Airport in New Jersey became one of the only ways to quickly and 
efficiently deliver supplies to the area in the aftermath of Hurricane 
Sandy.
    Volunteers, not just professionals, use GA airports every day to 
provide services and care. Programs including the Civil Air Patrol, 
Pilots & Paws, Patient Airlift Services, Veterans Airlift Command to 
help transport wounded warriors, the Air Care Alliance, Disaster 
Airlift Response Teams, and many others help those in need connect with 
those who have a passion for aviation and giving back.
    GA airports also serve as an emergency diversionary location. From 
passenger illness to deteriorating weather, there are times in all 
segments of aviation where an aircraft needs to land quickly, and a 
broad system of airports gives pilots better options in emergencies. 
For example, the U.S. Forest Service has designated certain GA airports 
as staging areas to fight fires. Using aircraft to fight large fires 
spread over a wide geographic area is often the safest and most cost-
effective solution, saving property and lives.
    As indicated by the FEMA chart below of Presidential Disaster 
Declarations from 1964 to 2013, every region of the U.S. has been 
impacted by some type of natural disaster. Again, AOPA would like to 
work with the Committee to ensure that GA airports are available and 
prepared to assist in times of natural disasters.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Contract Towers
    AOPA strongly supports the Contract Tower Program, which is one of 
the FAA's most effective public-private partnerships. The program 
provides essential air traffic services at 253 airports in 46 states, 
and handles approximately 28 percent of all air traffic control tower 
aircraft operations in the U.S. but only accounts for around 14 percent 
of FAA's overall budget allotted for tower operations. Federal contract 
towers operate together with FAA-staffed facilities throughout the 
country as part of a unified national air traffic control system that 
benefits and connects smaller airports and rural communities.
    Contract towers have also produced a stellar safety record equal to 
or better than FAA-run control towers based on FAA audits and reviews 
by the Department of Transportation Inspector General, and the National 
Transportation Safety Board. In addition, numerous studies have 
validated what we in GA know to be true, that airports are economic 
engines for communities, and establishing an air traffic control tower 
drives even greater economic development and job creation. Maintaining 
funding for the contract tower program is vital to aviation safety and 
the economic viability of countless communities.
General Aviation Pilot Population
    Whether individuals fly for business, personal reasons or intend to 
fly for a living one day, most pilots start out in general aviation. GA 
faces a number of very real challenges including rising costs of 
aircraft ownership and training as well as a burdensome regulatory 
environment and subsequently the U.S. pilot population has been 
declining for decades.
    According to the FAA, in 1980 there were 827,071 active pilots. By 
2015 that figure had fallen to 590,039--a nearly 30 percent decline. 
The FAA issued 50,458 private pilot certificates in 1980 and by 2015 
that number was just 16,473--a 67 percent decline. Additionally, AOPA 
estimates there were almost 500,000 lapsed pilots under the age of 70 
in 2015 and 70 to 80 percent of students who start flight training drop 
out without earning a pilot certificate. This drop in the number of 
pilots comes as demand and job opportunities are on the rise; the U.S. 
airline industry will need 95,000 new pilots between 2015 and 2034 
according to a Boeing analysis.
    AOPA is also committed to helping all pilots fly more safely which 
is why the AOPA Air Safety Institute has been producing free safety 
education programs for over 60 years. From groundbreaking online 
courses to popular live seminars and videos, ASI covers the spectrum of 
aviation safety education. AOPA is committed to safety and it is 
embedded in our organization's culture.
    To reverse the decline in the pilot population, AOPA created the 
You Can Fly program to build a stronger, more vibrant, and more 
resilient pilot community. You Can Fly is based on extensive research 
and real-world experience and is made up of a series of initiatives to 
support flying clubs, encourage best practices in flight training, get 
lapsed pilots back in the air, bring AOPA's resources and expertise to 
pilot groups across the country, and invite high school students to 
learn more about careers in aviation and aerospace.
    Congress, and more specifically this Committee, has already taken a 
big step to reduce costs and bureaucracy for pilots by passing third 
class medical reform legislation last year which was signed into law by 
President Obama. This was the biggest reform for pilots in recent 
history and this Committee work will have an enormous positive impact 
on GA for decades. The FAA's Regulatory Impact Analysis estimates that 
327,324 pilots that have a valid FAA medical certificate may benefit 
from and utilize the improved regulations, now called BasicMed, that 
could save pilots over $380 million from 2017 to 2026.
    General aviation airports play a crucial role in the economy and 
the daily lives of millions of people. They make a multi-billion impact 
on America's GDP and contribute more than one million jobs. Much of 
this directly supports rural communities. We support needed reforms to 
the Non-Primary Entitlement program to ensure continued access to these 
communities, and we strongly encourage public-private partnerships to 
help relieve the financial burden on airport sponsors and to build our 
airports of the future. We need to move America's small airports to a 
place beyond simply surviving and toward thriving. Additionally, by 
understanding the role of general aviation in the economy and the 
access that small airports provide, as well as their importance to our 
citizens when disasters strike, we gain perspective on what our small 
airports do for us today and their incredible future potential.
                                 ______
                                 
      Prepared Statement of Dr. Guy M. Smith, Professor Emeritus, 
                  Embry-Riddle Aeronautical University
                        2015 Pilot Source Study
Co-Principal Investigators:
Dr. Guy M. Smith--Embry-Riddle Aeronautical University
Dr. Elizabeth Bjerke--University of North Dakota
Research Team:
Dr. MaryJo Smith--Ypsilon Associates
Dr. Cody Christensen--South Dakota State University
Dr. Thomas Carney--Purdue University
Dr. Paul Craig--Middle Tennessee State University
Dr. Mary Niemczyk--Arizona State University
Background
    In February 2010, the Federal Aviation Administration (FAA) issued 
an Advance Notice of Proposed Rulemaking (ANPRM) titled ``New Pilot 
Certification Requirements for Air Carrier Operations'' that proposed 
changes to regulations relating to the certification of pilots 
conducting domestic, flag, and supplemental operations. Industry and 
educator members commissioned the first Pilot Source Study (PSS) 2010 
to answer one ANPRM question, ``Are aviation/pilot graduates from 
accredited aviation university degree programs likely to have a more 
solid academic knowledge base than other pilots hired for air carrier 
operations?'' The research question was, ``What are the background 
characteristics (education, flight experience, etc.) of pilots and how 
did their backgrounds (source) influence their success in regional 
airline training? Background and performance data for 2,156 pilots 
hired by regional airlines between 2005 and 2009, a convenience 
sampling of six regional airlines, showed that pilots who experienced 
fewer extra training events and fewer non-completions were pilots who: 
(a) graduated from a flight program accredited by the Aviation 
Accreditation Board International (AABI), (b) had an aviation degree, 
(c) completed their flight training in a collegiate program, (d) had a 
CFI certificate, or (e) had between 501-1,000 total flight hours.
    In February 2012, the FAA issued a Notice of Proposed Rulemaking 
(NPRM) that would require first officers in Part 121 operations to hold 
an ATP certificate and type rating for the aircraft to be flown, with 
restricted privileges for pilots with an aviation degree or military 
pilot experience. Industry and educator members commissioned the second 
Pilot Source Study 2012 with the same research question, expanding the 
data to include other regional airlines. Background and performance 
data for these 4,024 pilots hired between 2005 and 2011, a convenience 
sampling of seven regional airlines not included in the previous study, 
showed that pilots who experienced fewer extra training events and 
fewer non-completions were pilots who: (a) graduated from an AABI-
accredited flight program, (b) had an aviation degree, (c) completed 
their flight training in a collegiate program, (d) had a CFI 
certificate, or (e) had between 1,001-1,500 total flight hours. With 
the exception of total hours, the results of PSS 2012 were consistent 
with the results of PSS 2010.
    On August 1, 2010, the U.S. Congress passed Public Law 111-216, 
titled the ``Airline Safety and Federal Aviation Administration 
Extension Act.'' On July 15, 2013, the FAA issued the ``Pilot 
Certification and Qualification Requirements for Air Carrier 
Operations'' rule (FOQ Rule) that abruptly changed the pilot hiring 
situation for U.S. air carriers operating under Part 121. The FOQ Rule 
required all pilots operating in a Part 121 airline to have an ATP 
certificate that requires them to be at least 23 years old and have at 
least 1,500 hours total flight time. Other changes required by the FOQ 
Rule were that all Part 121 pilots must complete the Airline Transport 
Pilot Certification Training Program (ATP CTP), have 50 hours of 
multiengine experience, and possess an aircraft type rating. The FOQ 
Rule which became effective on August 1, 2013, provided an avenue for 
alternatively-trained first officers to fly as required crewmembers 
under Restricted Airline Transport Pilot (R-ATP) privileges at the age 
of 21 instead of 23 years old if they:

  <bullet> graduated from an FAA-approved R-ATP Bachelor's degree 
        program with 60 approved credit hours and had 1,000 hours total 
        time, or

  <bullet> graduated from an FAA-approved R-ATP Bachelor's degree 
        program or Associate's degree program with 30 approved credit 
        hours and had 1,250 hours total time, or

  <bullet> were prior U.S. Military pilots and had 750 hours total time

    In essence, P.L. 111-216 and the FOQ Rule inserted a gap between 
completing pilot certification and becoming eligible to be an airline 
first officer. The Pilot Source Study 2015 collected data on this 
``Gap''--what pilots did between earning their certificates and being 
eligible for airline training.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

PSS 2015 Protocol
    In January 2015, industry and educator members at the ``Pilot 
Supply Summit'' requested the Pilot Source Study researchers to conduct 
a new study to answer the question, ``What is the effect of P.L. 111-
216 and the FOQ Rule on pilot hiring and pilot training in U.S. 
regional airlines?'' The new study, Pilot Source Study 2015, was 
conceived as a replication study, involving the same 13 airlines that 
provided data for the two previous studies. To accommodate a very 
condensed timeframe, two research teams were assembled--a Data 
Collection Team and a Data Analysis Team, both led by co-principal 
investigators, Dr. Guy M. Smith from Embry-Riddle Aeronautical 
University and Dr. Elizabeth Bjerke from the University of North 
Dakota. In May, the PSS Data Collection Team, at the Regional Airline 
Association (RAA) Annual Convention in Cleveland, OH, briefed the RAA 
Board of Directors, the Regional Operations Council, and the Flight 
Training Committee to request permission to come to the airlines to 
collect data for the study. Acknowledging an urgent need for the study, 
the senior management of many airlines applauded the research effort, 
promising to cooperate with the Data Collection Team, including 
airlines not included in Pilot Source Study 2010 or 2012. Urged by this 
enthusiastic response, the PSS Data Collection Team redesigned the 
study into a population study that would include virtually all U.S. 
regional airlines and all pilots hired by these airlines from August 1, 
2013 to the date of data collection. AABI managed a separate Pilot 
Source Study fund to cover travel costs for the Data Collection Team--a 
principal investigator (professor), a data collection manager (graduate 
student), and additional data collectors, as necessary. The data 
collection manager and additional data collectors received a stipend of 
$100 per day; the principal investigators did not receive any payment 
beyond reimbursement of travel expenses. The researchers on the Data 
Analysis Team did not receive any payment for their work on the Pilot 
Source Study. The donors to the Pilot Source Study fund were two 
universities, five major airlines, an association, and a consulting 
firm. To maintain objectivity, the Pilot Source Study fund did not 
request or accept any contributions from AABI, RAA, or any regional 
airline.
    Two documents were critical to the study. At the beginning of every 
visit, all members of the Data Collection Team signed a non-disclosure 
agreement, asserting that ``all data shall remain in the airline's 
control, except de-identified data specifically released by the airline 
for the purposes of the Pilot Source Study.'' Another document 
explained the research protocol that would be strictly followed at each 
airline: the Data Collection Manager would collect identified 
background data from Human Resources or Pilot Recruiting records; the 
Principal Investigator would collect identified performance data on 
Training, Initial Operating Experience (IOE), and Recurrent Training 
from training or operational records; the Data Collection Manager, 
after combining the two identified records, would delete all 
identifying information (name, ID number, age, gender, ethnicity, etc.) 
and deliver the de-identified dataset to the Pilot Source Study data 
repository. The Data Collection Team visited 22 U.S. regional airlines 
from April to October 2015, collecting 7,073 pilot records. These data 
were combined into two composite spreadsheets for analysis. The data 
from 19 Part 121 airlines (6,734 records) were analyzed by the Data 
Analysis Team consisting of six researchers from different universities 
and one independent research consultant. The data from three Part 135 
airlines (339 records) were analyzed separately because the 
restrictions of the FOQ Rule did not pertain to these airlines.
PSS 2015 Results--Part 121 Airlines
    For analysis, the background data was combined into two categories: 
Educational Background (college degree, AABI-accredited flight degree, 
aviation degree, and college GPA) and Experience Background (years 
since graduation, previous employment, CFI certificate, military pilot, 
ATP certificate, and aeronautical experience). Four indicators of 
performance (outcomes) were analyzed: non-completions, extra training 
events, extra IOE, and extra recurrent training. Significant results of 
the study are summarized in Table A at the end of the document and are 
described here.
    For College Degree (graduate 8 percent, bachelors 63 percent, 
associate 9 percent, high school 18 percent, unknown 2 percent), pilots 
with a bachelor's degree had fewer non-completions and less extra 
training than expected; pilots with an associate degree had more non-
completions, more extra training events and more extra IOE than 
expected; and pilots with no degree (high school) had more non-
completions and more extra training events than expected.
    In the dataset, 23 percent of the pilots graduated from AABI-
accredited flight programs. These pilots had fewer non-completions, 
less extra training, less extra IOE, and less extra recurrent training 
than expected.
    The variable, Aviation Degree (48 percent), included graduates from 
AABI-accredited flight programs, graduates from other flight programs, 
and graduates from aviation disciplines other than flight. Pilots with 
an aviation degree had fewer non-completions, less extra training, and 
less extra recurrent training than expected. Pilots with a non-aviation 
degree had more non-completions, more extra training events, and more 
extra recurrent training than expected.
    Only 38 percent of the pilot records had college GPA information. 
Pilots whose college GPA was 3.0 or lower had more extra training 
events, more extra IOE, and more extra recurrent training than 
expected.
    In the dataset, 55 percent of the records included graduation 
dates, which was converted to Years since Graduation. Pilots with fewer 
than four years since graduation had fewer non-completions, less extra 
training, and less extra recurrent training than expected. Pilots with 
more than 10 years since graduation had more non-completions, more 
extra training events, more extra IOE, and more extra recurrent 
training than expected.
    For Previous Employment (26 percent Part 121, 16 percent Part 135, 
8 percent Part 91, 36 percent flight instructor, and 14 percent other), 
pilots who were previously flight instructors had fewer non-completions 
than expected but they required more extra IOE and more extra recurrent 
training than expected. Pilots who were previously employed in Part 121 
operations had less extra training, less extra IOE, and less extra 
recurrent training than expected. Pilots who were previously employed 
in Part 91 operations had more non-completions and more extra training 
events than expected.
    In contrast with Pilot Source Study 2010 and 2012, having a CFI 
certificate did not show any significant advantage over the expected 
outcomes for pilots in the 2015 study. However, pilots who did not have 
a CFI certificate had more non-completions and more extra training 
events than expected.
    In the dataset, 12 percent were prior military pilots. They had 
less extra training than expected.
    As required by the FOQ Rule, all pilots had an ATP certificate (2 
percent military R-ATP, 15 percent institutional authority R-ATP, and 
83 percent traditional ATP). Pilots with an institutional authority R-
ATP had fewer non-completions, less extra training, and less extra 
recurrent training than expected.
    Total Time was binned into the following categories: 27 percent 
with 1,500 hours or fewer; 42 percent between 1,501 and 3,000 hours; 14 
percent between 3,001 and 4,500 hours; and 17 percent with more than 
4,500 hours. Pilots with 1,500 hours or fewer had fewer non-
completions, fewer extra training events, and less extra recurrent 
training than expected. Pilots with more than 4,500 hours had more non-
completions but less extra recurrent training than expected. Pilots 
with between 1,501 and 3,000 hours had more extra recurrent training 
than expected.
    Pilots with less piloting experience (instrument hours, cross-
country hours, pilot-in-command hours, second-in-command hours, multi-
engine hours, turbine hours, dual-given hours, and total time) had 
fewer non-completions and fewer extra training events than expected. 
Pilots with more experience had less extra IOE and less extra recurrent 
training than expected.
    Comparing the backgrounds of the pilots in PSS 2015 to pilots in 
the combined 2010 and 2102 datasets, there was no difference in highest 
degree (bachelor, associate, or no degree). There were significantly 
fewer pilots with an aviation degree, fewer pilots with an AABI-
accredited flight degree, more military pilots, and fewer CFI 
certificates with more hours of dual-given. By law, none of the 2015 
PSS pilots had commercial pilot certificates but 17 percent had R-ATP 
certificates. Also by law, the 2015 PSS dataset had significantly fewer 
pilots with less than 1,500 total flight hours.
    Comparing outcomes between the PSS 2015 pilots (Post-Law) and the 
2010/2102 pilots (Pre-Law), Post-Law pilots had more non-completions 
and required more extra training. Having an AABI-accredited flight 
degree, an aviation degree, or a CFI certificate had a positive effect 
on the number of extra training events for Post-Law pilots. Post-Law 
completions were positively affected by having a bachelor's degree, an 
AABI-accredited flight degree, an aviation degree, or being a CFI. The 
additional total hours required by the FOQ Rule was less beneficial to 
regional airline training for Post-Law pilots; as the number of total 
hours increased, so did the proportion of non-completions and extra 
training events. Most importantly, completions decreased from 93.4 
percent in the Pre-Law dataset to 83.6 percent in the Post-Law dataset, 
and the Post-Law pilots required significantly more extra training. 
Using approximate costs of training from seven regional airlines, the 
Data Analysis Team estimated an airline's average expenditure per pilot 
who did not complete training to be $38,464 with zero return-on-
investment to the airline.
    In Summary, ranked by the magnitude or size of the effect, in the 
Pilot Source Study 2015, pilots with best training performance in Part 
121 airlines (fewer non-completions and fewer extra training events) 
were:

  <bullet> pilots with fewer than four years since graduation,

  <bullet> pilots with 1,500 or fewer total flight hours,

  <bullet> pilots who graduated from an AABI-accredited flight program,

  <bullet> pilots with an institutional authority R-ATP,

  <bullet> pilots with an aviation degree,

  <bullet> pilots with a bachelor's degree,

  <bullet> pilots whose previous employment was in a Part 121 
        operation, and

  <bullet> prior military pilots
PSS 2015 Results--Part 135 Airlines
    Three airlines, operating under 14 CFR Part 135, were included in 
the Pilot Source Study 2015. These airlines were not restricted by P.L. 
111-216 or the 1,500-hour FOQ rule; however, they were impacted by some 
unintended consequences of the law. Most Part 135 operations do not 
need first officers; they are single-pilot operations requiring a 
captain (with ATP and at least 1,500 flight hours). So, first officers 
fly for these airlines in training to become captains. Part 135 first 
officers do not need an ATP certificate or even an R-ATP certificate; 
they must have a commercial pilot certificate with instrument rating 
and at least 250 flight hours. Part 135 pilot training is nearly 
identical to Part 121 pilot training. Therefore, the Pilot Source Study 
used the same protocols, data, and procedures for both Part 135 and 
Part 121 airlines. The Part 135 research question was: How do the 
background characteristics of the Post-Law pilots affect their success 
(outcomes) at a Part 135 Regional Airline? The population was 339 new-
hire first officers hired by three Part 135 airlines from August 1, 
2013 to summer 2015.
    For the educational background variables, the following significant 
results were noted: 1) Pilots who performed best in Part 135 airline 
training were graduates from AABI-accredited flight programs and pilots 
who graduated after 2010, or more recently. 2) Pilots who needed 
significantly more extra training were pilots who had only high school 
diplomas and pilots with a GPA less than 3.0.
    For the experience background variables, the following significant 
results were noted: 1) Pilots who performed best in Part 135 airline 
training were those who had previous employment experience as flight 
instructors, and had fewer than 500 total flight hours. Pilots who 
required significantly more Extra Training were the pilots who held CFI 
certificates but had no flight instructor experience.
    The most important results from Part 135 airlines are in the 
outcome variables (Completions and Extra Training). A startling result 
is that 42 percent of the pilots, hired in the two-year period, 2013-
2015, left the airline. Many of these pilots did not fail training; 
they most likely opted to leave the Part 135 airline because they had 
the necessary flight hours to apply to a Part 121 airline.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Only 37 percent of the Part 135 pilots did not need any extra 
training. In fact, 18 percent of these pilots needed 7 or more extra 
training events. In summary, for Part 135 airlines, the training 
investment is analogous to pouring water on sand.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Conclusions

  <bullet> The study affirmed the value of a college degree. The most 
        successful pilots had a bachelor's degree, principally from an 
        AABI-Accredited Flight Program or at least a degree in 
        aviation. Recent college graduates were more successful than 
        second-career pilots.

  <bullet> The FOQ Rule requires only 50 hours of multiengine flight 
        time. Many pilots in the study had minimal multiengine 
        experience. An unintended consequence of the FOQ Rule is a 
        shortage of multiengine flight instructors throughout aviation 
        education. Also, the reduction of pilot-in-command multiengine 
        experience requires additional training at the airline.

  <bullet> Most importantly, all three Pilot Source Studies concluded 
        that ``FLIGHT HOURS'' is not a reliable predictor of 
        performance by pilots.
        [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                                 ______
                                 
                            Alaska Air Carriers Association
                                       Anchorage, AK, April 4, 2017

U.S. Sen. Roy Blunt (R-Mo.),
Chairman of the Subcommittee on Aviation Operations, Safety, and 
            Security

    The Alaska Air Carriers Association (AACA) is a membership 
organization whose mission is to support and advocate for the 
commercial aviation community. Our members include Part 121, 135, 125, 
and commercial Part 91 Alaskan air carrier operators and associate 
members that support them.
    The most current economic data representing the Alaskan aviation 
industry estimates there is about $3.5B worth of economic activity, 
generated through 47,000 jobs and comprising 8 percent of Alaska's 
gross state product. 82 percent of the communities in Alaska are 
dependent on commercial air carrier transportation for routine 
transportation.
    AACA is writing to you today regarding issues important to Alaskan 
air carriers and the communities they serve.
Essential Air Service
    Essential Air Service program allows 61 communities in Alaska to be 
connected to life-sustaining services. The EAS program underwrites 
scheduled flight service where it may otherwise prove economically 
infeasible. EAS provides a vital lifeline for communities off the road 
system, offering regular U.S. mail service, transportation for business 
and leisure travelers who support these fragile rural economies, and 
the most fundamental link--connection to a larger city with healthcare 
and emergency resources.
    The role of Essential Air Service in Alaska lies in sharp contrast 
to its function in the Lower 48. While some Alaska EAS communities may 
be totally inaccessible except by an hours or days-long boat or snow 
machine ride, several EAS communities in the Lower 48 lay within a 
reasonable drive from an international airport.
    This disparity underscores the need for the U.S. Department of 
Transportation (USDOT) to prioritize Alaska EAS funding when making 
decisions about where to preserve service, and where to allow market 
forces to take over routes which have outlived the need to remain 
federally subsidized.
    We appreciate all the time and effort the USDOT Essential Air 
Service program administrators spend on maintaining these critical air 
service links in our vast state. We stand ready to work with them, and 
you, to ensure our rural Alaska communities' lifelines are protected as 
you work through the FAA reauthorization process.
    Alaska includes approximately 1/3 of the communities served under 
EAS contracts. Eighty-two percent of our communities are not accessible 
by road and rely on air transport for all life sustaining goods and 
services. Alaska's people travel by air eight times more often per 
capita than those in rural areas of the Lower 48, and ship 39 times 
more freight per capita--nearly one ton per person per year.
    Please help insure that the viability of communities in Alaska and 
small businesses struggling to survive are not categorized alongside 
communities on road systems in the contiguous 48 states.
    AACA urges the sub-committee consider creating two categories of 
EAS. EAS would provide for transportation support in communities with 
other forms of public transportation such as roads and Alaska EAS would 
provide assistance to communities that rely solely on air 
transportation.
Aviation Weather, Procedure Development and Infrastructure Outages
    Aviation weather information is limited in Alaska! It's been 
estimated that over 200 new Automated Weather Observation Stations 
(AWOS) are needed in Alaska to meet the density of aviation weather 
currently available in the contiguous 48 states where alternate means 
of access via roads is readily available.
    Aviation weather is vital for instrument approach procedures, 
encouraged by the FAA to provide a higher level of safety. Currently, 
there are 31 airports in Alaska with instrument approach procedures 
that cannot be used due to lack of aviation weather. More communities 
in Alaska desire instrument procedures but lack weather, airport 
surveys or procedure development. For one community in Alaska, the time 
necessary to complete an airport survey and develop the instrument 
procedure is estimated at five years.
    Of the 750 total airports, public and private use, registered with 
FAA in Alaska only 134 of those airports are served by aviation 
certified AWOS/ASOS weather. Due to frequent AWOS/ASOS weather outages 
and new requirements for Part 121 operators to have certified weather 
for flights operated when visual flight rules apply, back up weather at 
all airports may be necessary.
    AACA encourages the sub-committee to support program grant funds 
through AACA to site and develop necessary aviation weather in Alaska.
Federal Aviation Excise Taxes
    IRS collection practices target small Alaskan air taxis. Multiple 
members have been fined from $250,000 to $1.8 million on inconsistent 
interpretation of ambiguous language in the law. Senator Murkowski's 
proposed draft language is supported by AACA.
    Even after receiving IRS interpretive documents on the issue, much 
confusion exists in the business aviation community over the 
application of the excise tax rules caused by terminology differences 
between the IRS (the agency that imposes the tax and administers to the 
rules) and the FAA. Commercial operators are very familiar with FAA 
rules and definitions but unlike their ability to deal with FAA 
requirements, the interpretation and application of IRS rules and 
definitions becomes unclear and in some instances creates 
insurmountable financial obligations for some operators. In addition, 
legal and accounting professionals give their clients varying and 
conflicting advice regarding the application and collection of FET's.
    AACA urges the sub-committee support the excise tax language 
proposed by Senator Murkowski that clearly articulates obligations for 
Part 135 on-demand and commuter operators on excise taxes.
Service Animals
    FAA certificates Part 135 operators to transport passengers on-
demand or on a published schedule. Aircraft typical to the Alaskan Part 
135 industry are generally small and equipped with 9 seats or less. A 
typical Part 135 fleet could include Cessna 185/206/207, Cessna 208 
Caravans, DE Havilland Beaver and others. Part 135 operators are based 
at every hub in Alaska and provide schedule or on-demand transportation 
to any community or remote off field locations. Alaska's tourism 
industry relies on Part 135 operators for flight seeing, hunters and 
fisherman or other tourism related transportation. Common to all of 
these aircraft is the lack of a secure access door to the pilot cabin.
    Carriers are mandated to transport service and emotional support 
animals alongside their owner and other passengers in the aircraft 
cabin. Conversely, the Federal Aviation Administration (FAA) 
regulations mandate carriers secure all items inside the cabin during 
all flights (see Part 135.87 below).
    In small Part 135 aircraft, turbulence or other disruption of 
flight is common and everyone including the pilot is at risk for injury 
as the animal could be tossed about the cabin and even into the 
cockpit. In addition, unsecured animals could hinder passenger access 
to exit routes and doors.
    AACA seeks resolution for Part 135 air carriers who desire to 
provide transportation services in compliance with all USDOT 
requirements and where the safety of all passengers and flight crew is 
protected. One solution is to exempt Part 135 operators whose aircraft 
are not equipped with a cockpit security access door from the 
requirements of this law. There may be other solutions and AACA seeks 
your guidance and assistance to solve this significant safety issue.
    Thank you again for your attention to this matter.
            Best regards,

Matt Atkinson,
Board Chair ,
Alaska Air Carriers Association.
Jane Dale,
Director,
Alaska Air Carriers Association.

Cc: Congressman Don Young
Senator Dan Sullivan
Senator Lisa Murkowski
Alaskan FAA Administrator Kerry Long
Alaska Legislature
                                 ______
                                 
                       Alliance for Aviation Across America
                                                      April 6, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Roy Blunt,
Chairman,
Committee on Commerce, Science, and Transportation,
Subcommittee on Aviation Operations, Safety, and Security,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Maria Cantwell,
Ranking Member,
Committee on Commerce, Science, and Transportation,
Subcommittee on Aviation Operations, Safety, and Security,
United States Senate,
Washington, DC.

Dear Chairman Thune, Ranking Member Nelson, Chairman Blunt and Ranking 
Member Cantwell:

    In light of your hearing today entitled, ``FAA Reauthorization: 
Perspectives on Rural Air Service and the General Aviation Community,'' 
we write regarding the critical importance of general aviation and 
small and mid-size airports to the connectivity of rural communities to 
our Nation's airspace.
    Specifically, on behalf of thousands of local communities, elected 
officials, businesses, and charitable organizations around the country, 
we have serious concerns about the current proposal being pushed by the 
commercial airline lobby to privatize our Nation's air traffic control 
system and make it accountable to private interests, as opposed to 
public citizens and communities of all sizes.
    For rural areas of the country in particular, general aviation and 
local airports are a literal lifeline to thousands of communities with 
little to no commercial air service. Small aircraft and airports help 
public utility companies to oversee our power lines, they support 
businesses in transporting personnel and specialized equipment, and 
they allow farms and ranches to survey and manage their crops and 
farmland--about 71 million acres per year. These aircraft and airports 
also help first responders and volunteer pilots to respond quickly to 
help to fight wildfires, transport blood, organ and platelets, reunite 
veterans with their families and help to bring patients to medical 
treatment when other forms of transportation are inaccessible. With 
46.7 million Americans living more than an hour away from a Level 1 or 
2 trauma center, general aviation plays an increasingly significant 
role in ensuring that patients in rural areas of the country have 
access to the medical care they need.
    These aircraft and airports also support critically-needed U.S. 
jobs and economic activity. Many companies use general aviation to 
reach far-off plants, customers and job-sites, and reach multiple 
locations in a day; all of which help them to increase efficiency and 
compete in an increasingly global economy. The airports that these 
aircraft utilize are also economic drivers for the local community. For 
example, general aviation aircraft and airports support over 1.1 
million jobs and over $219 billion in economic activity--and, the 
general aviation industry is one of the few manufacturing sectors that 
contributes positively to the balance of U.S. trade.
    However, these businesses and organizations would be decimated by a 
privatized air traffic control system funded by new user fees and 
governed by an unaccountable entity with limitless authority to raise 
taxes. Given that this new entity would also have the authority to 
direct resources, investments and access, general aviation would also 
likely face limited access to airspace and airports, and a lack of 
investment in smaller airports resulting from a system that caters to 
the biggest commercial airlines, instead of the public good. These are 
the same commercial airlines that have stated explicitly that their 
push for privatization is about gaining ``control'' of the system, and 
that there is ``no point' '' in deploying NextGen technology to regions 
outside of New York City. According to the Government Accountability 
Office (GAO), scheduled departures at medium-hub airports have already 
decreased nearly 24 percent between 2007 and 2013, and by about 20 
percent at small-hub airports. Meanwhile, the airlines continue to push 
new, endless fees totaling $6.8 billion in 2015 alone. The big 
commercial airlines have made their priorities clear and they do not 
include consumers or rural America.
    It is for all these reasons that consumer groups, local Mayors, 
Chambers of Commerce, rural and free market groups and businesses have 
all voiced concerns with this risky proposal. Moreover, by an 
overwhelming margin, Americans oppose this proposal to privatize our 
Nation's air traffic control system and turn it over to a non-profit 
corporation. With debate about to ensue in Congress about investments 
in our Nation's infrastructure and reauthorization of the Federal 
Aviation Administration (FAA), we welcome the opportunity to 
participate in a constructive debate about modernization of our 
nation's air traffic control system, rather than the same old tired 
push by the commercial airline lobby for privatization.
    Thank you for the opportunity to offer our perspectives and we look 
forward to working with you on issues important to general aviation and 
rural communities.
            Sincerely,
                                             Selena Shilad,
                                                Executive Director,
                                  Alliance for Aviation Across America.
                                 ______
                                 
                       Embry-Riddle Aeronautical University
                                   Daytona Beach, FL, June 30, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

RE: Proposed Amendment to Section 217(d) of Public Law 111-216 (49 
            U.S.C. 44701 note)

Dear Senator:

    On June 28, I expressed support for the subject proposed amendment. 
Unfortunately, we have become aware of some additional information that 
must be considered by the university before offering our endorsement of 
the amendment.
    Thus, please accept this letter withholding our support.
    I appreciate your understanding.
            Sincerely,
                             Alan J. Stolzer, Ph.D., FRAeS,
                                                Dean and Professor.

cc: Senator Bill Nelson
                                 ______
                                 
    Written Statement of Air Line Pilots Association, International
    The Air Line Pilots Association, International (ALPA) represents 
more than 55,000 airline pilots who fly for 32 airlines in the United 
States and Canada. ALPA is the largest pilots' union in the world, and 
we also operate the largest nongovernmental aviation safety and 
security organization in the world.
    The subject of today's hearing is very important. We applaud you 
for taking the time to place a high degree of focus on the issues 
surrounding small communities and their access to the world through air 
transportation.
    Whether passengers and cargo begin and end their travel at a large 
hub airport or a small, single-runway gravel strip, air transportation 
services must be safe. The industry has come a long way in ensuring 
that when a traveler boards an airliner, they do not need to worry 
about arriving at their destination safely. They just take it for 
granted. However, the safety of our skies is no accident. It is the 
result of hard work and the lessons learned from tragedy--as well as 
the bold action of the United States Congress.
    Prior to the passage of the Airline Safety and FAA Extension Act of 
2010, the United States experienced four high profile fatal airline 
accidents over a six-year period, including the Colgan Air Flight 3407 
accident on February 12, 2009, just outside of Buffalo, NY. These 
airline accidents, which killed scores of passengers, focused the 
Nation's attention on how to increase aviation safety, and 
professionals at the Federal Aviation Administration, the National 
Transportation Safety Board and the U.S. Congress all responded.
    Since passage of this landmark legislation, our country has not had 
a single passenger fatality on a large, scheduled U.S. passenger 
airline (Part 121). This law significantly improved training and 
qualification requirements for first officers--and improved the safety 
of our skies. It is a measure that was written in blood and should not 
be weakened in any way, shape, or form.
    As FAA Administrator Huerta likes to point out, there are no longer 
kiosks in airports for purchasing airplane crash insurance. He has also 
remarked that travelers worry more about whether the flight will be on-
time, or whether the Wi-Fi will be working, than the safety of the 
flight. As airline pilots, we show up at work every day with the 
primary focus of working our very best to ensure that passengers can 
continue to take the safety of airline travel for granted.
Essential Air Service
    The primary reason for our testimony today is to discuss the 
Administration's initial plans for the Fiscal Year 2018 Budget, in 
which the President has called for the elimination of the Essential Air 
Service (EAS) program, and the potential ramifications of that action.
    Looking back over the history of EAS and other small community air 
service programs, it is easy to find many times where elimination or 
significant reductions in the program have been proposed. These 
proposals muddy the waters about small community access to air 
transportation, and they create uncertainty about air transportation.
Nearly 30 Years of Essential Air Service
    One of the unfortunate effects of airline deregulation in 1978 was 
the certitude that some smaller cities and towns would lose scheduled 
airline service as airline companies began to make routing and service 
operations a business decision. To mitigate that outcome, the Essential 
Air Service (EAS) program was enacted that same year as a temporary 
program. Congress later determined that the EAS program should continue 
past its initial 10-year life and wrote it into law in 1987, 
effectively expanding and extending it for an additional 10 years. This 
has been repeated several more times, and now the program is 
approaching the 30-year mark, one temporary extension at a time.
    ALPA members have a vested interest in the EAS program because our 
airlines are EAS participants so some of our members operate flights to 
and from EAS communities. Further, our members live in all corners of 
the United States, including in and around many of the EAS communities. 
As such, we have a strong connection with smaller cities and towns and 
an interest in ensuring that they have safe access to the national 
airspace system.
Should Essential Air Service Be a Permanent DOT Program?
    ALPA strongly supports making the Essential Air Service program 
permanent and fully funding it in this year's budget. There are many 
communities that rely on air transportation simply to survive. These 
communities are frequently unable to generate enough passenger air 
travel for airlines to profitably serve those communities, thus the 
need for subsidies. Many of the communities are found in rural Alaska, 
where a lack of highways and roads means that air transportation is the 
only form of access to the world beyond the edge of their community.
    In the contiguous 48 states, there is also a large number of small 
communities that are a long distance from scheduled airline services, 
and yet the communities are growing due to the presence of natural 
resources, manufacturing, and related jobs that propel our Nation's 
economy forward. Some of these communities need EAS to ensure continual 
airline service and will continue to do so indefinitely.
    While originally viewed as a ``temporary'' fix, it is now obvious 
that EAS could be recognized as a permanent and important piece of the 
Nation's air transportation policy framework. A permanent program would 
allow Congress and policymakers to take the necessary steps to refine 
the program and ensure that those small communities that truly need it 
have access to the same high levels of safe, affordable air 
transportation as any other American citizen.
    One area that has been a point of contention in the past is the 
proximity of EAS airports to other airports where airline service is 
available. Our call to consider a permanent program must address this 
and other such issues.
Once EAS Is Permanent, Airlines Can Adjust Business Models
    Just like other segments of the aviation industry, stable and 
reliable revenue streams are important for service sustainment of air 
transportation to small communities. The economic conditions in small 
communities often change quickly, and airlines are unable to react 
quickly to the changing landscape. Such may be the case when small 
communities are dependent on a single segment of our Nation's economy, 
for example the energy sector. Small communities often grow rapidly 
when oil prices spike, but they can also decline just as rapidly when 
economic changes occur, both of which influence the level of air 
services.
    The EAS or a similar program needs to be designed so that it can 
ensure stable and reliable revenue streams that airlines need in order 
to ride out the out the ups and downs of small community economic 
change. As a result, the airlines would be much better positioned to 
offer pay to their workforce that is consistent with the pay of 
airlines that do not operate at the small communities.
Safety: The Number One Consideration When It Comes to Air Service
    Ensuring safety begins and ends with a well-trained, appropriately 
experienced, and highly skilled flight crew in the cockpit. It truly is 
the pilots who make the difference. Similar to the One-Level-Of-Safety 
campaign that raised the level of safety in our regional airline 
network, the history of accidents that plagued our industry for decades 
has also served as a catalyst for a complex and carefully created set 
of safety regulations that increase pilot qualification and training 
standards that are ``written in blood,'' and which are designed to 
ensure that we do not repeat that history. The rules we have in place 
from accidents involving flights to or from small communities now serve 
as the lifeblood for safety going forward.
    Some of the airlines that are struggling to provide sustainable air 
transportation services to small communities are the same airlines that 
pay their pilots poverty wages, then complain they can't find qualified 
pilots. To add insult to injury, they spend money in Washington on 
lobbyists trying to roll back air safety requirements. We shouldn't 
listen to the special interests when it comes to air safety, but rather 
listen to the air safety experts.
    To suggest that passengers be asked to accept a reduced level of 
safety in exchange for access to air transportation is nearly 
unthinkable. And, this line of thinking is diametrically opposed to the 
industry's top concern of placing safety as the highest priority, above 
all others.
    The special-interest groups advocating for rolling back safety 
rules are quick to dismiss the effectiveness of the most recent rule 
changes, those that Congress established in 2010 as part of the Airline 
Safety and Federal Aviation Administration Extension Act of 2010, 
Public Law (P.L.) 111-216.
    As noted, in the six-plus years since P.L. 111-216 became law on 
August 1, 2010, there have been no Part 121 passenger airline accidents 
where a passenger fatality was recorded. In the six plus years prior to 
the August 1, 2010, law, there were hundreds of fatalities, many of 
them on flights serving small communities.
    This remarkable safety record was not achievable without the 
requirements called for in P.L. 111-216. It is no coincidence that the 
package of rules, including the first officer qualification (FOQ) 
requirements, have directly and noticeably improved passenger airline 
safety. We vehemently guard those rules against any efforts by 
airlines, airports, or other organizations which are willing to put 
profits ahead of safety.
    Rather than rolling back safety rules, we continue to urge our 
industry counterparts to identify policies and changes that will ensure 
that safety is maintained.
    From my perspective, a change in the discussion is desperately 
needed. The pilot supply discussion is distracting the small community 
air transportation service experts from focusing on the primary issue 
that needs to be addressed: Providing safe, scheduled air 
transportation to small communities is necessary, and the costs to 
provide that service are currently higher than some communities can 
support on their own.
    Until that single overarching issue is resolved, the airline 
industry and those who seek to pay qualified pilots on the cheap will 
continue to blame their woes on the supply of workers. Young people who 
are seriously considering an airline pilot career are increasingly 
unwilling to invest in an airline career pathway that offers inferior 
pay, an unrealistic work-life balance, and limited career progression.
    The discussion that is being created by the special interest groups 
seeking to roll back safety rules is distracting the community from 
focusing on the important issues that need to be addressed to ensure 
that airlines can profitably serve the travel needs at small community 
airports. Until the real issues are put on the table, there is a good 
chance that we will be back here at some future date to discuss the 
same issues again, having made very little progress.
DOT Inspector General Cites Regional Airline Business Model
    In a March 2017 report that analyzed regional airlines and pilot 
pay, the Department of Transportation Inspector General (DOT IG) 
reported its findings on pilot pay among regional airlines.
    From my perspective, the DOT IG also took on a much broader set of 
issues when it discussed the challenging business landscape (page 2):

        Regional airlines operate in a very competitive environment, 
        which often hinders their ability to adjust pilot compensation. 
        Basic business models of regional carriers require them to keep 
        costs low to remain competitive. These airlines usually operate 
        under long-term, fixed-fee-capacity purchase agreements with 
        their larger, domestic code-share partners, such as American 
        Airlines, Delta Air Lines, and United Airlines. Under the 
        agreements, mainline carriers pay regional carriers a fixed fee 
        for each departure. These arrangements can be beneficial to 
        regionals because they are sheltered from some business risks, 
        such as fluctuations in fuel prices, ticket prices, and 
        passengers. However, it also means that they do not generally 
        benefit from upward trends in ticket prices (since mainline 
        carriers retain ticket revenue), ancillary revenue (e.g., 
        baggage fees or selective seating fees), and passenger 
        enplanements. Since regionals do not have the ability to charge 
        or increase these fees to drive revenue, they often must focus 
        on cost control as a way to become or stay profitable. As a 
        result, they have found it difficult in many cases to increase 
        pilot pay despite improved profitability at the mainline 
        carriers.

    The DOT IG observations about the regional airline business models, 
as well as the challenges with their difficulties in increasing pilot 
pay, are spot-on from our perspective. Additionally, the challenges of 
providing essential air service further compound the issues.
    It could not be clearer. Attempts to reduce the level of safety by 
changes to rules that ensure safe airline travel for all passengers 
will continue to be a focal point, unless the broader issues of the 
regional airline business model and small community air services are 
addressed. This work must begin immediately.
Small Community Air Service Safety History Written in Blood
    In the early 1990s, ALPA initiated its One Level of Safety (OLS) 
campaign aimed, in part, at bringing the regional airline industry's 
safety up to the same standards as those of the majors. A significant 
accomplishment in this regard was realized when the FAA instituted 
rulemaking that required scheduled airline operations using aircraft 
with greater than nine seats to comply with 14 CFR Part 121. The OLS 
initiative is still a work in progress, however, as the safety record 
of some regional carriers demonstrates:

  1.  In May 1997, Great Lakes Aviation suspended all flights following 
        the FAA's expressed concerns about the adequacy of maintenance 
        at the feeder airline. The FAA reported that airline personnel 
        were not being properly trained. At the time, Great Lakes was 
        operating 500 flights per day and carrying nearly a million 
        passengers annually. The carrier suspended its flights 
        voluntarily, but only after the FAA had notified the airline 
        that it planned to suspend its operating authority. Although 
        not related to the shutdown, a Great Lakes turboprop aircraft 
        was involved in a runway collision at Quincy, IL, in 1996 that 
        killed 14 people.

  2.  The Colgan accident at Buffalo, NY, on February 12, 2009, killed 
        a total of 50 people. In the ensuing investigation, the 
        National Transportation Safety Board (NTSB) identified a number 
        of systemic failures at the company and within the industry at 
        large. The results of that investigation generated a public 
        outcry for numerous improvements to airline safety, and to its 
        credit, this Subcommittee was responsible for writing 
        legislation that addressed many of those outstanding 
        deficiencies. Since then, the FAA has enacted new first officer 
        qualifications and training requirements that increased the 
        amount of education, training, and flight experience of pilots 
        who are hired by Part 121 airlines, among other significant 
        improvements. ALPA is a strong proponent of these new rules, 
        along with other complementary regulations that have been 
        adopted or proposed by Aviation Rulemaking Committees (ARCs) as 
        an outcome of what was learned following the Colgan accident.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Comair 5191, Lexington, KY, August 27, 2016

    The history of regional airline operations underscores the need to 
make safety the first and foremost consideration for service to small 
airline communities.
New First Officer Qualification Rules and the ``Pilot Shortage''
    We would like to address the outrageous claims of some regional 
airline operators regarding a putative pilot shortage that they say has 
required them to cancel flights and park airplanes. To put it very 
simply, there is currently no shortage of qualified pilots; the major 
airlines are hiring 3,500 to 4,000 new first officers each year from a 
variety of sources including regional carriers. Between the 7,500 to 
9,000 new ATP-certificated pilots each year (over 9,300 in 2016) and 
approximately 2,400 pilots leaving the military annually, there are 
plenty of qualified pilots available to meet all of the U.S. airlines' 
needs. As we have said, however, there is a shortage of qualified 
pilots who are willing to fly for substandard wages, working 
conditions, and benefits.
    Although some within the airline industry blame this Subcommittee's 
legislation and the resultant FAA airline pilot qualifications and 
training regulations for a pilot shortage, the airline industry 
actually helped craft those rules and supported their passage. Several 
accidents over a number of years, the most recent and arguably the most 
troubling of which was the aforementioned Colgan Airways accident in 
Buffalo, NY, in 2009 caused a justifiable groundswell of support for 
the new and safer increase in minimum qualifications for pilots to be 
hired by the airlines, the scope of which goes well beyond just the 
number of hours that a first officer must have in order to enter the 
Part 121 industry.
    It should be noted that some in the regional airline industry did 
not adequately prepare for today's pilot hiring needs, which have been 
predictably compounded in the near term by pilot age-limited 
retirements and increased qualification requirements. This Subcommittee 
introduced legislation on first officer qualifications about seven 
years ago, and the industry was well represented on and agreed to the 
recommendations made by the FAA aviation rulemaking committee that 
created the new pilot qualifications and training rules. Further, the 
future impacts of the age-65 retirements that began in 2012 were well 
understood more than eight years ago. To reduce the potential for 
impacts on the pilot pool, Congress gave FAA the ability to grant 
flight-hour credit for specific academic training against the 1,500-
hour requirement for the air transport pilot certificate (ATP). FAA did 
exactly that,, by establishing the ``Restricted ATP'' that an 
individual could qualify with as few as 750 flight hours.
    A few airlines have understood for some time the need to create 
career pathways that will incentivize individuals to seek employment as 
airline pilots. More airlines are presently seeing this need and have 
created, or are in the process of creating, pathways that connect one 
or more accredited aviation universities or colleges with a regional 
airline and a legacy airline so that there is a clear and defined 
progression on which to create a career. As part of these pathways, 
some legacy airlines have ``flow-through'' agreements with their 
regional code-share partners that guarantee regional airline pilots an 
interview with the mainline carriers upon achieving certain career 
milestones. ALPA is a strong supporter of these and similar programs 
that help establish a larger and more qualified pool of pilot 
candidates to safely operate airline equipment.
    Thousands of young adults learn to fly each year with the hopes of 
becoming airline pilots. Their total investment may exceed $150,000 for 
a college aviation education and flight training, but that outlay is 
made on the basis of potentially earning several million dollars over 
the course of a 40-year or longer career. These future aviators need to 
see evidence that their investment will be rewarded, otherwise--over 
the long term--we will see a genuine shortage of qualified workers in 
our aviation industry.
    One impact on the availability of qualified pilots also serves as 
commentary on the present state of the U.S. airline industry. Thousands 
of experienced airline pilots with U.S. citizenship are opting to fly 
for foreign airlines instead of U.S. carriers because the stability, 
pay, and benefits are so much greater than those offered by U.S. 
carriers. As just one example, at U.S. legacy airlines, a first officer 
may have a starting salary of $61,000/year plus benefits, while a 
foreign airline may pay $80,000/year, plus provide housing allowances 
and other extraordinary benefits, such as personal chauffeured 
transportation to and from work and tuition assistance for the pilot's 
children.
Airline Industry-Funded Pilot Source Study Evaluates Training, Not the 
        Value of Pilot Experience
    The Pilot Source Study, conducted by various academic institutions, 
was sponsored by the very organizations who will benefit from the data 
they hoped it would provide. In the study, the training records of 
newly hired first officers were reviewed and found that compared to 
other times in recent history, newly hired pilots required more 
training than pilots did in the past.
    What the study does not discuss is the increased quality of the 
pilots who possess significantly more flight experience than newly 
hired pilots of the past. The study investigates the need for 
additional training for the newly hired pilots to fit into the airline 
operations' way of doing things, not on how well the pilots made the 
correct decisions and skills that they may have developed with the 
flight experience that they brought with them to the job.
    The study is really about the cost of training. Those who oppose 
the new first officer qualification rules as established by P.L. 111-
216 do not want to invest the requisite time and costs associated with 
quality pilot training. The study makes no observations about the 
quality of the pilots from an experiential perspective, which was the 
prime motivator for requiring both pilots in Part 121 operations to 
hold an ATP certificate.
    Perhaps most concerning is that the study makes the flawed 
conclusion that experience is not a predictor of competence. The study 
reaches that conclusion based on a pool of newly hired airline pilots 
in a single calendar year, shortly after the new ATP requirements 
became effective. Based on our insights into this class of newly hired 
airline pilots, many of them were second career pilots who already 
possessed an ATP certificate but had not recently experienced the 
flight training environment. It should have been no surprise to anyone, 
nor did a study really need to be conducted, to prove that these 
individuals required time to adapt to the learning environment. 
Naturally, students with very low flight time emerging from the flight 
training environment were likely more accustomed to learning in an 
environment that the airlines had created for those type of pilots.
Regional Airlines Have Required 1,500 Hours Minimum Experience in the 
        Past
    While many airlines now complain that they should be allowed to 
hire pilots with total flight time well below the current minimums 
needed to obtain an R-ATP or an ATP certificate, the very same airlines 
published minimum hourly flight requirements in excess of 1,500 hours 
to merely apply for a pilot position with their airline.
    In the following graphics, the 1999 Airline Information and Address 
Directory lists the minimum hours required for pilots to submit their 
applications for employment at the regional airline shown as 2,500 
hours to include extensive multiengine and turbine time. This very high 
minimum flight time is indicative of two factors: the supply and demand 
of pilots at that particular time. It is the same single factor that at 
times has resulted in airlines hiring pilots who have 250 or even fewer 
hours and scarcely any multiengine time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

DOT IG Shows Pilot Pay Rising, By Using Marketing Schemes, Not Salary 
        Increases
    In their report issued last month, the DOT IG found that the lowest 
pay levels (presumably to newly hired first officers) were well below 
$23,000 per year in 2015. The IG also reported that compensation at 
these carriers since 2015 has increased and that some airlines 
advertise pay of much higher rates. But the IG points out that these 
advertised pay rates are a combination of salaries, one-time incentive 
offers, and other temporary measures that are currently being deployed 
by air carriers to attract pilots.
    One of ALPA's biggest concerns is the temporary nature of the 
increased first-year pilot pay strategies. In some cases, the base 
salaries of first officers at regional airlines remains very low, which 
sends a discouraging message to those who may be considering an airline 
pilot career.
    Potential students can easily recognize that the first-year 
incentives may be withdrawn at any time, without warning. Even those 
airlines that have struck agreements with pilots on these incentives 
have limited the duration, obviously in hopes of withdrawing the 
incentives as soon as possible.
    Pilot pay scales need to be adjusted permanently, not just with 
limited-time-offer gimmicks. Pilots look to regional airlines to 
provide career progression opportunities into airlines that offer 
broader diversity of flying.
GAO Report on Pilot Supply in 2014 Remains Relevant Today
    If there was ever any doubt about the true nature of the shortage 
that may exist, the 2014 GAO report on the aviation workforce removed 
it. It supported the points that ALPA has made for several years 
concerning whether there is, or will be, a genuine shortage of airline 
pilots.
    Following are a few of the comments contained in the GAO report 
supporting ALPA's long-held view that there is no near-term shortage of 
qualified pilots, but simply a shortage of qualified pilots who are 
willing to be employed by some U.S. airlines in light of their poor 
wages, working conditions, and benefits. Notes have been added below to 
update the data for 2017:

  <bullet> Available data indicate that a large pool of qualified 
        pilots exists relative to the projected demand, but whether 
        such pilots are willing or available to work at wages being 
        offered is unknown.

    <ctr-circle> 2017 Note: Remains true today.

  <bullet> Data on wage earnings and employment growth are not 
        consistent with the existence of a shortage in the airline 
        pilot occupation.

    <ctr-circle> 2017 Note: Remains true today.

  <bullet> GAO estimates that a range of roughly 1,900 to 4,500 new 
        pilots will need to be hired annually over the next 10 years. 
        In 2012, the FAA certificated 6,396 new ATPs, and that number 
        is trending upward. Additionally, about 2,400 pilots separate 
        from the military service branches each year. Note: This total 
        of nearly 9,000 additional pilots becoming available annually, 
        who could potentially fly for the airlines, is approximately 
        double the maximum of what GAO says is needed by the airlines 
        each year.

    <ctr-circle> 2017 Note: In 2016 the FAA certificated over 7,000 new 
            ATPs plus more than 2,000 restricted ATPs with multiengine 
            privileges, for a total exceeding 9,000 pilots eligible to 
            be hired as first officers.

  <bullet> Two out of three studies reviewed by GAO on pilot supply 
        trends suggest that a prolonged pilot shortage is unlikely to 
        develop. One study noted that a shortage of entry-level first 
        officers may temporarily emerge, but would likely be addressed 
        within a few years.

    <ctr-circle> 2017 Note: It appears that based on the number of ATP/
            R-ATP issued in 2016, the GAO predictions were initially 
            correct.

  <bullet> Avoiding a pilot shortage hinges on the ability to 
        incentivize lower-certificated pilots to seek a higher 
        certification, and pilots currently working abroad or elsewhere 
        to seek U.S. airline jobs, should a genuine shortage arise. 
        Analyses reviewed state or imply that airlines may need to 
        provide financial incentives--for example, higher wages, 
        benefits, or bonuses--to bring new pilots into the industry.

    <ctr-circle> 2017 Note: Remains true today.

  <bullet> Eleven of the 12 regional airlines interviewed by GAO have 
        been unable to meet hiring targets for training classes formed 
        since early 2013. Regional airlines currently pay on average 
        about $24 per flight hour (approximately $24,000 annually) for 
        new-hire first officers.

    <ctr-circle> 2017 Note: The average salary has begun to rise, but 
            not enough. The temporary incentives offered are a new 
            development that does increase first-year pilot incomes.

    <ctr-circle> Several airline CEOs have acknowledged that when 
            airlines have taken steps to increase pay, they have seen 
            increases in pilot applicants almost immediately.

  <bullet> The mainline airlines interviewed by GAO report that they 
        are not experiencing any difficulty in attracting qualified and 
        desirable pilot candidates.

    <ctr-circle> 2017 Note: Remains true today.

    In short, the GAO study was on point and continues to serve as a 
marker from which we can track the development of pilot pay and hiring 
rates today.
Others Forecast a Pilot Shortage of Epic Levels
    While most would acknowledge that the GAO provides an unbiased look 
at the future pilot needs in the United States, their forecast is not 
the only one. Another forecast that is broadly discussed is one 
published by the University of North Dakota (UND), which depicts that a 
pilot shortage began back in 2015, just one year after the GAO found 
that many pilots were available for hire. In 2016, the UND reduced 
their forecast shortage by 25 percent. The GAO studied the UND study 
methodology and assumptions.
    One of the GAO observations about the UND study was that they 
inflated the cost of training estimates in out years excessively. The 
GAO acknowledged that while using historic trends to predict future 
changes is part of forecasting, in some cases, it can lead to results 
that may be unlikely. In this case, this method resulted in forecasted 
year-over-year changes in the cost of flight school of almost 8 percent 
above its historic mean by the year 2030, which is well above historic 
averages over the past 20 years.

  <bullet> The GAO also noted that openings of other pilot schools 
        could reduce this inflation.

  <bullet> Using a different assumption regarding increases in training 
        costs would also result in different outcomes with respect to 
        the size of the forecasted shortage.

  <bullet> GAO found that reducing the assumed rate of increase of 
        inflation in the cost of flight training to only one to two 
        points above its historic mean resulted in about 30,000 more 
        CFI certifications, an indicator of pilots targeting airline 
        employment. This added volume of pilots largely ameliorates the 
        estimated shortage.
ALPA Analysis of Pilot Supply
    While ALPA does not generate our own pilot supply forecast, we do 
track the regular updates of those that do. In short, the range of 
forecast demand for pilots over the next decade varies from a low of 
1,900 pilots per year to a high of 5,200 pilots per year.
    According to the FAA's 2016 certification data, the rate of 
issuance of ATP and R-ATP certificates has exceeded 6,000 per year 
since 1990, even when airline hiring was virtually nonexistent. Since 
P.L. 111-216 became effective in 2010, issuances per year have averaged 
more than 6,000. From ALPA's perspective, the market is responding to 
demand. Those who want to fly are finding jobs with less difficulty 
than in the past.
Conclusion and Recommendations
    Small community airline service is an important subject that needs 
to become a permanent part of aviation's policy framework. After nearly 
30 years of managing EAS as a temporary program, with various changes 
along the way, it is time for Congress, the DOT, and the industry to 
work together to assemble a small community airline service model that 
meets the needs of all involved in providing that service. This 
includes the pilots who fly the airplanes.
    ALPA is ready to contribute to the design and implementation of a 
small community air service strategy that ensures and results in 
reliable airline travel, profitable airline operations, and employee 
pay and benefits that are on par with their peers across the airline 
industry.
    We believe that the following actions are needed:

  <bullet> Establish a Permanent Small Community Airline Service 
        Framework. This includes establishing significant reforms and 
        creating a long-term viable program to meet the needs of 
        Americans who live in rural communities throughout all 50 
        states.

  <bullet> Ensure Consistent Reliable Funding for Airline Partners. 
        Congress should examine with DOT the Federal Government's EAS 
        program and update it for the airlines that provide the air 
        service so that the airlines can be successful.

  <bullet> Adjust Business Rules Not Safety Rules. First, make no 
        changes to the FOQ rules as they are currently established. To 
        make reductions to these rules would be a reduction in safety. 
        Second, seek industry input on the best ways to modify the 
        excessive taxation and red tape that the airlines face. 
        Congress can and should play a critical role by removing the 
        current financial and regulatory barriers facing U.S. airlines 
        to make it easier for them to generate sustained levels of 
        profitability.

  <bullet> Ensure Airports Are Provided the Necessary Support to 
        Promote Air Travel. While ALPA would oppose any relaxation in 
        the rules and standards that are designed to ensure safety, 
        there are policies and programs that should be widely available 
        for airports and their community partners to promote airline 
        travel from their small communities. Best practices, proven 
        methods, and other information sharing are low-cost and can 
        broadly be applied in many locations.

  <bullet> Support Industry Efforts to Promote Aviation Professions. 
        Congress can assist by restoring loan guarantees for college 
        and university students who are undergoing flight training as 
        part of their degree curriculum. Congress should work with the 
        airlines to create innovative means for them to offset pilots' 
        flight training expenses, thereby helping to create a reliable 
        pool of new first officer candidates.

  <bullet> Reject the Fallacious Argument of a Pilot Shortage. Those 
        who are claiming a pilot shortage, and are using that supposed 
        shortage as a reason to roll back current pilot training safety 
        requirements, do so without a factual basis. The argument harms 
        small communities because it makes increased service levels 
        contingent on decreasing the safety of the operation, instead 
        of focusing on addressing the actual economic reasons for such 
        service level reductions, of which there are many.

    Thank you for the opportunity to share ALPA's perspective on this 
important topic. Our mission will continue to be moving passengers and 
cargo efficiently across the globe and delivering you and your 
constituents safely back home to communities large and small. We Keep 
America Flying.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                            Dr. Guy M. Smith
    Question. Dr. Smith, in written testimony submitted for the hearing 
record, the Air Line Pilots Association (ALPA) said that the Pilot 
Source Study ``makes the flawed conclusion that experience is not a 
predictor of competence''. Do you have a response to this comment or 
anything else stated by ALPA?
    Answer.
    Dear Senator Thune,

    Thank you for the opportunity to respond to your question. Be 
assured there has always been an excellent relationship between ALPA 
and aviation academia. Many aviation college students benefit from 
ALPA's Ace Club and ``Cleared to Dream'' program; and ALPA has been an 
active partner of the Aviation Accreditation Board International (AABI) 
in setting and maintaining the highest standards for collegiate 
aviation education.
    In their testimony, ALPA stated that the Pilot Source Study ``makes 
the flawed conclusion that experience is not a predictor of 
competence.'' Several members of ALPA have attended briefings on the 
Pilot Source Study; however, the author of their testimony does not 
understand the study nor the rigorous research protocols employed. The 
Pilot Source Study did not study ``experience'' of pilots; experience 
is a broad construct that should be measured by one-on-one pilot 
interviews. We did not interview a single pilot; we visited regional 
airlines and did a comprehensive review of the pilots' HR records; we 
recorded their educational backgrounds and their flying records prior 
to being hired by the airline. The Pilot Source Study also did not 
study ``competence''; in fact, researchers who have attempted to study 
the competence of a group usually fail; competence is an individual 
aspect that ``indicates sufficiency of knowledge and skills that enable 
someone to act in a wide variety of situations''.\1\ Besides compiling 
information from HR records, the researchers collected data from 
pilots' training records to determine pilots' performance in training. 
Performance was measured primarily by determining whether a pilot 
successfully completed the training and whether they completed it 
within the scheduled footprint or if they needed extra training. The 
study concluded that there were several good indicators of pilot 
performance:
---------------------------------------------------------------------------
    \1\ Business Dictionary. (2017). Retrieved from http://
www.businessdictionary.com/definition/competence.html


Years Since Graduation:  4 Years                         Aviation Degree: YES
Total Time:  1,500 Hours                                 Highest Degree: Bachelor's
AABI Flight: YES                                         Previous Employment: Part 121
ATP Certificate: R-ATP                                   Military Pilot: YES
 

    ALPA's testimony implies that the study is flawed because it 
doesn't show ``what everyone knows''--that pilots with more flight 
hours have more experience and therefore are ``better pilots.'' By 
their own admission, ALPA did not research their hypothesis. The Pilot 
Source Study showed that flight hours, as the sole measure of piloting 
skills, was not a good indicator of performance. Rather, it showed that 
flight hours, associated with appropriate educational and experiential 
background, was a good indicator of performance. In P.L. 111-216, 
Congress has already recognized the value of ``appropriate academic 
background,'' and the industry is working to define ``appropriate 
experiential background.'' As I mentioned in my verbal testimony, the 
industry is attempting to define ``structured flying'' and 
``disciplined flying.'' If we can determine that a pilot has 
successfully accumulated a sufficient number of flight hours in a 
structured, disciplined flying environment; we probably could state 
that the pilot is ready to be trained to be a safe and competent 
airline pilot.
    After the hearing, I spoke for about 20 minutes with John Kausner 
of the Families of Continental Flight 3407. John asked me, ``Why are 
you so much against the 1,500-hour requirement for airline pilots?'' I 
told him emphatically that the Pilot Source Study does not disregard 
the 1,500-hour requirement; the study concludes that 1,500 flight hours 
(an arbitrary number) does not indicate, in itself, that a pilot is 
safe and competent. I have been in pilot training most of my adult 
life. I have flown with pilots who have thousands of hours and should 
never be airline pilots. I have also flown with pilots with only 
several hundred hours who are safe and competent; I would entrust my 3 
daughters to fly on their airplanes. This statement resonated with 
John, since he mourns for his daughter, Ellyce, who died in the Colgan 
crash. I told John that our study did not contradict the 1,500-hour 
rule; the study showed that, if we consider flight hours and nothing 
else, pilots with more than 1,500 flight hours did not perform any 
better than pilots with 1,500 or fewer flight hours. John Kausner 
appeared to accept my response. We parted as friends.
    As matter of professional pride, I am compelled to respond to 
ALPA's flawed statement that ``the Pilot Source Study was sponsored by 
the very organizations who will benefit from the data.'' None of the 
seven researchers received a salary or stipend; the research was done 
as part of our academic contract. The graduate students who collected 
the data received a $100 per day stipend. These stipends and all travel 
expenses were paid from a fund donated by two universities and five 
major airlines. No funding for the Pilot Source Study came from a 
regional airline, the Regional Airline Association (RAA), or the 
Aviation Accreditation Board International (AABI).
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                            Dr. Guy M. Smith
    Question. In 2009, we witnessed the tragic crash of Colgan Air 
flight 3407 in Buffalo, New York. 50 people were killed, including 
Beverly Eckert of Stamford, who lost her life eight years after losing 
her husband on 9/11. We learned many things afterward, including the 
fact that the co-pilot may have had insufficient training.
    So Congress took action. Congress required co-pilots to have 1,500 
hours of real-world flying experience. Before then, they needed only 
250. Some want to loosen this requirement. They say that this is too 
demanding, making it hard to hire pilots.
    Captain Chesley Sullenberger--or ``Sully''--the hero known for the 
Miracle on the Hudson--has argued before this committee there is no 
shortcut to safety, no shortcut to experience--and this rule should be 
maintained. He and many other safety advocates say that low pay may be 
the real culprit in problems with hiring good pilots. The first officer 
of the tragic Colgan crash earned approximately $16,200 a year.
    I understand pay has risen since the Colgan tragedy, which is 
reassuring. But according to a recent analysis by the Department of 
Transportation Inspector General, pilot compensation is below $30,000 
annually for many pilots at many airlines.

    Does compensation have an important role attracting pilots to the 
profession?

    Are current compensation levels sufficient to ensure a stable 
workforce of pilots?

    Would testimony from pilots be important and relevant to this 
discussion?
    Answer. Senator Blumenthal, thank you for the opportunity to 
address your questions. Before responding to your three questions, I 
would like to comment on one of your introductory remarks--``Congress 
required co-pilots to have 1,500 hours of real-world flying 
experience.'' I understand that your terminology, ``real-world flying 
experience,'' might have been the intent of Congress; however, as 
implemented, the regulation for the ATP certificate specifies that 
1,500 hours are required for the ATP, but there isn't a qualifying 
requirement for ``real-world flying experience.'' The Pilot Source 
Study supports your explanation of Congressional intent for ``real-
world flying experience''--flight hours alone are not reliable 
predictors of pilot performance. In my testimony before your committee, 
I suggested that those flight hours should be evaluated against 
criteria for ``disciplined'' and ``structured'' flying experience, 
which could include your wording, ``real-world flying experience.'' 
Rather than advocating for changes in congressional laws or FAA 
regulations, I encourage the airline industry to define these 
qualifications.
    On your first two questions concerning compensation for pilots, we 
have no data in the Pilot Source Study on compensation; so my response 
is my opinion, based on 45 years in aviation. My response pertains only 
to regional airlines, since compensation for pilots in the major 
airlines does not appear to be an issue. In their third-party 
submission, ALPA cited the March 2017 letter from the Department of 
Transportation Inspector General (DOT IG) which clearly stated why 
regional airlines are unable to increase pilot pay based on the current 
operating model, fee-for-departure. It is readily agreed in the 
industry that regional airline pilots' pay cannot be proportionate to 
the major airlines under this operating model. The real question is--if 
pay for regional airline pilots was commensurate with the major 
airlines, is there a sufficient supply of qualified professional pilots 
ready and willing to become regional airline pilots? This is a pilot 
supply question, and the Pilot Source Study is not a pilot supply 
study. There are two pilot forecast studies--also not pilot supply 
studies. The 2016 Boeing Pilot & Technician Outlook, projects a need 
for 617,000 new commercial airline pilots over the next 20 years. The 
UND Pilot Supply Forecast predicts a shortfall between 2012 and 2031 of 
38,178 pilots for all commercial operations. The 2014 GAO report on the 
aviation workforce, also cited in the ALPA testimony, is a pilot supply 
study; however, it was completed before the full effects of P.L. 111-
216 impacted the industry, beginning in August, 2013. It is opportune 
for the aviation industry to commission a comprehensive and valid pilot 
supply study. I have designed a pilot supply study that would involve 
gleaning de-identified data from the FAA Form 8500-8 (Application for 
Airman Medical Certificate). Such a study would need funding, 
permission from FAA for third-party access to the records, and 
involvement of all stakeholders (FAA, airlines, aviation associations, 
ALPA, etc.).
    Concerning your third question, Senator Blumenthal, I'm not sure 
testimony from pilots would elucidate the pilot compensation issue. Any 
regional airline pilot will probably tell you that pay in the regional 
airlines is not sufficient. This would be blatantly clear if you asked 
for testimony from a regional airline pilot who is carrying over 
$100,000 in student debt for their pilot training--and there are many 
of these! However, Congress would get a true education on these issues 
by asking for testimony from directors of training or flight operations 
at the regional airlines. While conducting the Pilot Source Study in 
2015, our teams interviewed training and operations managers who 
educated us on the issues they face. These pilots could tell you about 
the advances that regional airlines have made in compensation, bonuses, 
and hiring incentives. However, the essence of their testimony would 
give Congress a deeper understanding of the current pilot supply and 
the issues they address daily to ensure that safety remains paramount 
while delivering high-quality and appropriate training to maintain the 
viability of their airline.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                            Dr. Guy M. Smith
    Question 1. In terms of the objectivity of your study, universities 
like Embry-Riddle who offer a flight training program have been very 
critical of the new First Officer Qualification (FOQ) requirements, 
ostensibly because they could deter potential students from enrolling 
in their programs or lengthen their path to a regional airline cockpit. 
Your written testimony mentions two universities who contributed to 
financing this study; would you identify these universities and also 
whether they have flight training programs? Additionally, would you 
identify the association and consulting firm who helped underwrite this 
study as well? Finally, has there been any type of audit, review, or 
validation of the methodology or findings of this study by an 
independent, third party entity?
    Universities like Embry-Riddle who offer a flight training program 
have been very critical of the new First Officer Qualification (FOQ) 
requirements.
    Answer. Thank you, Senator Duckworth, for the opportunity to 
respond to your questions. On your first question, I am not a 
spokesperson for Embry-Riddle Aeronautical University; but I know there 
are many at Embry-Riddle and similar universities who benefit from a 
consequence of the FOQ Rule. Aviation graduates typically complete 
their certificates and ratings in 300-400 flight hours and are fully 
prepared to begin their careers; however, because of the FOQ Rule, 
these universities are able to hire their most qualified graduates as 
junior flight instructors and gainfully employ them as flight 
instructors until they have acquired the requisite flight hours.

    Question 1a.  Your written testimony mentions two universities who 
contributed to financing this study; would you identify these 
universities and also whether they have flight training programs?
    Answer. The Pilot Source Study showed that graduates from AABI-
accredited flight programs performed better in regional airline 
training than any other aggregation of pilots. The two universities 
that provided funding for the Pilot Source Study were Embry-Riddle 
Aeronautical University (employer of Dr. Guy Smith, co-principal 
investigator) and the University of North Dakota (employer of Dr. 
Elizabeth Bjerke, co-principal investigator); both of these 
universities have AABI-accredited flight programs. Neither Dr. Smith 
nor Dr. Bjerke received any pay or stipend for the research project. 
Their universities paid only for travel expenses incurred by the 
researchers. It is common practice among universities to support the 
work of their research faculty without any influence on the results.

    Question 1b. Additionally, would you identify the association and 
consulting firm who helped underwrite this study as well?
    Answer. Travel expenses and stipends for graduate students ($100 
per day) were contributed by the National Business Aviation Association 
(NBAA) and 5 major airlines: Alaska Air, American Airlines, Delta Air 
Lines, JetBlue Airways Corporation, and United Airlines. These were un-
endorsed donations to a separate fund administered by AABI. To maintain 
objectivity, the Pilot Source Study fund did not request or accept any 
donations from AABI, RAA, or any regional airline. Dr. MaryJo Smith, a 
self-employed consultant for Ypsilon Associates, assisted in data 
collection at three regional airlines; she did not receive a salary or 
stipend and paid for some of the travel expenses.

    Question 1c. Finally, has there been any type of audit, review, or 
validation of the methodology or findings of this study by an 
independent, third party entity?
    Answer. Yes, the work is peer-reviewed. The official report of the 
Pilot Source Study consists of five research articles which have been 
submitted to The Journal of Aviation Technology & Engineering (JATE) 
(ISSN 2159-6670) published by Purdue University Press. The JATE is a 
refereed open-access publication serving the needs of collegiate and 
industrial scholars and researchers in the multidisciplinary fields of 
aviation technology, engineering, and human factors. The first three 
articles of the Pilot Source Study have been published in the JATE; 
Articles 2 and 3 are currently featured on the JATE front page, http://
docs.lib.purdue.edu/jate/. The researchers are currently reviewing 
Articles 4 and 5; they will be submitted to the JATE review process 
this summer. Links to all of the pilot source study documents are 
available on the study's webpage: https://www.pilotsourcestudy.org/

    Question 2. In current discussions about pilot supply in the U.S., 
some detractors of the new FOQ requirements seem to suggest they have 
driven potential aviators from pursuing the profession. Others indicate 
that poor working conditions, including salaries, benefits and 
scheduling over the course of the past two decades at regional airlines 
are the main culprit or that expenses associated with flight training 
are too steep. Would you comment on the effect of these different 
factors on pilot supply? Would you provide the Committee with 
enrollment numbers for Embry-Riddle's aviation program over the past 15 
years to give us a better sense of these trends?
    Answer. Senator Duckworth, my response to your second question is 
similar to my testimony in response to a question from Senator 
Blumenthal. We have no data in the Pilot Source Study on pilot working 
conditions, salaries, benefits, or scheduling. Based on 45 years in 
aviation, I can confirm that the conditions you mentioned are possibly 
a deterrent to pilots aspiring to be regional airline pilots. On the 
other hand, many of the pilots who graduate from our aviation 
universities are already committed to careers as airline pilots; they 
know they must start at a regional airline, regardless of pay, etc. We 
do not have an empirical pilot supply study that would determine if 
there is a sufficient supply of qualified professional pilots ready and 
willing to become regional airline pilots. A 2015 study by the 
University of North Dakota and the University of Nebraska Omaha, the 
Pilot Careers Aspiration Study, showed that, since 2013, there has been 
no large increase in the number of university students aspiring for a 
long term career as an airline pilot. The study concluded that salary, 
quality-of-life factors, upgrade time, and defined career paths were 
most influential to attract new pilots to an airline career.

    Question 2a. Would you comment on the effect of these different 
factors on pilot supply?
    Answer. People often mistake the Pilot Source Study as a pilot 
supply study. It is not. The population of the Pilot Source Study is 
pilots who have been hired by the regional airlines; the population of 
a pilot supply study is the pool of pilots who are eligible to be hired 
by the regional airlines. The aviation industry, lawmakers, and 
regulators urgently need a comprehensive and valid pilot supply study; 
otherwise, they could make decisions based on opinions rather than 
data. I have testified to a question from Senator Blumenthal that a 
pilot supply study would require funding, permission from FAA for 
third-party access to their records, and involvement of all 
stakeholders (FAA, airlines, aviation associations, ALPA, etc.). The 
publicly available sources for trending certificated airmen statistics 
present data quality concerns. The FAA's Airmen Certification Database 
and Annual U.S. Civil Airmen Statistics report offer limited insight 
into currently qualified airmen by failing to link airmen age with 
certificate(s) and medical class held. Additionally, thousands of 
certificated airmen records in the Airmen Certification Database do not 
list medical status at all, possibly creating an overstated number of 
qualified, available airmen. Having access to accurate and complete 
data is critical in order to capture and assess the magnitude of the 
pilot shortage.
    From the aviation university perspective, the major deterrent for 
young people to obtain their pilot certificates and ratings from a top-
tier aviation program accredited by AABI, is the cost of flight 
training. Though many students at these universities have some 
scholarship funding; the majority pay for their flight education with 
student loans, often exceeding $100,000, which they begin to pay back 
when they start flying for hire. This is a daunting future when these 
graduates face low wages as junior flight instructors. Though regional 
airlines have increased pay and added signing bonuses and other 
incentives, starting salaries at regional airlines do not offer 
sufficient relief from financial concerns, especially for pilots hoping 
to plan for young families.

    Question 2b. Would you provide the Committee with enrollment 
numbers for Embry-Riddle's aviation program over the past 15 years to 
give us a better sense of these trends?
    Answer. Below is a table of enrollments and graduations from the 
Bachelor of Aeronautical Science (BAS) program at the Embry-Riddle 
Aeronautical University campus in Daytona Beach, FL. I have been given 
permission by the Embry-Riddle Aeronautical Science Department to share 
these data with you. Aeronautical Science is the only AABI-accredited 
flight program at the Daytona Beach campus of Embry-Riddle. As you 
study the enrollment and graduation data; please understand that many 
aviation graduates are not planning to pursue employment with a U.S. 
regional airline; some are international students, and many U.S. 
students seek employment elsewhere--the military, business aviation, 
graduate degrees, permanent flight instructor positions, and non-flying 
aviation pursuits.

     Daytona Beach Campus Only--Enrollments in Aeronautical Science
------------------------------------------------------------------------
 
------------------------------------------------------------------------
YEAR                           Total Enrollment (4-Years)
------------------------------------------------------------------------
2017                                                                1525
------------------------------------------------------------------------
2016                                                                1504
------------------------------------------------------------------------
2015                                                                1493
------------------------------------------------------------------------
2014                                                                1504
------------------------------------------------------------------------
2013                                                                1435
------------------------------------------------------------------------
2012                                                                1517
------------------------------------------------------------------------
2011                                                                1516
------------------------------------------------------------------------
YEAR                           Total Enrollment (4-Years)
------------------------------------------------------------------------
2010                                                                1489
------------------------------------------------------------------------
2009                                                                1659
------------------------------------------------------------------------
2008                                                                1684
------------------------------------------------------------------------
2007                                                                1647
------------------------------------------------------------------------
2006                                                                1460
------------------------------------------------------------------------
2005                                                                1708
------------------------------------------------------------------------
2004                                                                1776
------------------------------------------------------------------------
2003                                                                2046
------------------------------------------------------------------------


    Daytona Beach Campus Only--Aeronautical Science Degrees Conferred
------------------------------------------------------------------------
 
------------------------------------------------------------------------
YEAR                                Total Graduates
------------------------------------------------------------------------
16-17                                                 (Partial data) 124
------------------------------------------------------------------------
15-16                                                                156
------------------------------------------------------------------------
14-15                                                                138
------------------------------------------------------------------------
13-14                                                                135
------------------------------------------------------------------------
12-13                                                                142
------------------------------------------------------------------------
11-12                                                                146
------------------------------------------------------------------------
10-11                                                                159
------------------------------------------------------------------------
09-10                                                                199
------------------------------------------------------------------------
08-09                                                                165
------------------------------------------------------------------------
07-08                                                                177
------------------------------------------------------------------------
06-07                                                                198
------------------------------------------------------------------------

    Question 3. Your written testimony highlights a ``gap'' that the 
FOQ rule has created between completing flight training and being 
eligible to be hired by a regional airline or other Part 121 carrier. 
Your testimony seems to imply that this gap degrades pilots' 
preparation to be regional airline first officers. In order to earn the 
additional flight hours by doing something such as flight instructing, 
I understand a prospective regional airline first officer is looking at 
a timeline of an additional 12-18 months. When compared to a profession 
like medicine, this gap does not seem unreasonable. Are you suggesting 
that the maturation and professional development accrued during these 
additional months are a detriment to one's career as a commercial 
airline pilot?
    Answer. Senator Duckworth, please allow me to dispute your 
statement that the gap introduced by P.L. 111-216, degrades a pilot's 
preparation for regional airlines. The Pilot Source Study was primarily 
a study of the source of pilots' certificates--the first block in the 
figure below. This source of certificates could be the military, a 
flight training academy, an FAR Part 61 training program, an FAR Part 
141 training program, a collegiate flight training program, or an AABI-
accredited collegiate flight training program. The Pilot Source Study 
showed that graduates from AABI-accredited collegiate flight programs 
performed better in regional airline training than any other 
aggregation of pilots. The study also showed that the gap introduced by 
P.L. 111-216 reduced the effects of their degree--pilots with more than 
4 years since graduation did not perform as well in regional airline 
training as pilots who spent a shorter amount of time building the 
requisite flight time. In the Pilot Source Study 2015, there were many 
pilots who had more than 10 years since graduation; understandably, 
many of these pilots needed extra training and some were unable to 
complete regional airline training. Therefore, the gap introduced by 
P.L. 111-216 and the FOQ Rule reduced some of the positive effects of 
pilots' educational backgrounds and total flight hours.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    I like your comparison to the medical profession where doctors 
spend 3-7 years as interns or residents in their gap between medical 
school graduation and becoming a licensed doctor. These are structured, 
disciplined programs where doctors' practices are supervised and 
evaluated. We don't have a similar structure in the aviation industry. 
The only requirement that P.L. 111-216 and the FOQ rule inserted into 
the gap was an increase in the number of flight hours. There is no 
requirement for structured, disciplined flying experiences similar to 
the doctors' requirements during internships and residencies. I don't 
think that congressional legislation or FAA regulation can solve this 
problem. It is up to industry to determine what kind of flying 
experience will increase the maturation and professional development of 
a pilot. The medical profession does this by the Medical Licensing Exam 
and specialty certification. The legal profession does this by a bar 
exam. Many professionals (nurses, accountants, aviation managers, etc.) 
are certified by public certification boards. The aviation industry is 
content to let flight hours be the sole qualifying factor for 
professional pilots. None of the three Pilot Source Studies (2010, 
2012, and 2015) has shown that ``HOURS,'' without any other qualifying 
factor, is a reliable predictor of performance by pilots.

    Question 4. I am very concerned about the extremely low salaries 
offered by some of the lower-tier regional airlines. A recent IG report 
that surveyed five regional carriers found two of the five with 
starting salaries for first officers in the low $20,000/annual range 
and their average first officer salary below $30,000/annual. What are 
your thoughts on these types of salaries for a young pilot and any 
potential safety ramifications when it comes to pilot decisions on 
where and how they choose to live in relation to where they are based? 
Also important, what is the impact of salary ranges on pilot supply in 
terms of attracting young people to undertake flight training and 
pursue a career as a commercial pilot?
    What are your thoughts on these types of salaries for a young 
pilot?
    Answer. Senator Duckworth, I won't waste your time by repeating my 
previous testimony. The March 2017 letter from the Department of 
Transportation Inspector General (DOT IG) stated why regional airlines 
are unable to increase pilot pay based on the current operating model, 
fee-for-departure. The industry doesn't foresee a change in this 
operating model, so the regional airlines are engaged in self-help 
programs--partnerships, pay increases, bonuses, etc. The economy will 
have to adjust to any pilot shortage and to the upcoming wave of 
retirements, probably by severely reducing the number of regional 
airlines or by making regional airlines extinct. I do not consider 
reducing or eliminating an entire sector of the industry to be a 
tolerable solution.

    Question 4a. What are your thoughts on . . . any potential safety 
ramifications?
    Answer. This is probably the most challenging (and important) part 
of your question. In my visits to 22 regional airlines while collecting 
data for the Pilot Source Study 2015, I was encouraged by training 
managers who insisted that they did not compromise on their end 
product, a safe and competent line pilot. To achieve this outcome, 
these training managers were compelled to extend their training 
footprints and to disqualify some pilots, even after they had invested 
significant resources in training them. On the other hand, to fulfill 
operational requirements, pilot recruiters must fill classes and 
trainers must provide a sufficient number of safe pilots to meet 
operational requirements. Without these vital on-time assets, flights 
must be canceled and air service must be reduced. The question of 
potential safety ramifications deserves more attention from Congress. 
As I mentioned in my testimony to Senator Blumenthal's question, I urge 
you to obtain testimony from directors of training or flight operations 
at regional airlines who are truly cognizant of your principal 
concern--safety.

    Question 4b. What is the impact of salary ranges on pilot supply in 
terms of attracting young people to undertake flight training and 
pursue a career as a commercial pilot?
    Answer. I already mentioned the 2015 Pilot Careers Aspiration Study 
that concluded salary was the most influential to attract new pilots to 
an airline career. There are also many research projects that suggest 
that money does not appear to be a primary source of motivation in 
stimulating people to enter a profession, starting with Frederick 
Herzberg's theory nearly 50 years ago. In the short term, a substantial 
money increase will certainly attract more pilots to the regional 
airlines; however, if we want to attract more young people to undertake 
flight training and to pursue a career as a commercial pilot, we must 
make the whole experience attractive to them. This is not a matter for 
Congress to legislate or for the FAA to regulate; the aviation industry 
must wrestle with this challenge. Whether challenged to cross the 
Atlantic Ocean or to put a man on the moon, the Aviation/Aerospace 
industry has responded and achieved. I have faith that we will continue 
to do so with the current challenges.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                           Spencer Dickerson
    Question 1. As co-chair of the bipartisan Senate Tourism Caucus, 
I've been working on policies to boost tourism. Tourism generates about 
$13 billion per year and supports 250,000 jobs in Minnesota. In Duluth, 
Minnesota, the Airport Authority is partnering with the City's tourism 
agency, to attract a low cost carrier to begin service to Phoenix, 
Arizona. Direct flights to smaller, regional airports like this attract 
a steady stream of visitors, which benefit local restaurants, hotels 
and businesses.
    Duluth International Airport is planning to apply for a Small 
Community Air Service Development Grant to help fund this tourism 
initiative. How can these types of efforts that increase demand for air 
travel help strengthen regional airports?
    Answer. Senator, thank you for your ongoing efforts to promote 
tourism and for supporting programs that help small communities secure 
and retain commercial air service. We appreciate your leadership, your 
work on the Senate Commerce Committee, and all the assistance that you 
provide airports in Minnesota and around the country.
    I commend the Duluth International Airport for partnering with the 
city's tourism agency in effort to attract low cost service to Phoenix. 
I completely agree with your assessment that commercial air service 
helps small communities attract tourists and businesses that promote 
economic development and support jobs.
    Securing commercial air service in small communities is 
exceptionally challenging. That is why the American Association of 
Airport Executives strongly supports the Small Community Air Service 
Development and Essential Air Service programs. Both of these programs 
help small communities secure and retain commercial air service.
    DOT officials have pointed out that small community grants fund a 
variety of projects including financial incentives for airlines and 
marketing initiatives. At a time when small airports are doing 
everything they can to hold on to commercial air service and attract 
new carriers and more routes, the Small Community Air Service 
Development Program can give airports a much-needed boost.
    Small airports in Minnesota and throughout the country were pleased 
that the FAA reauthorization bill that the Senate approved last year 
authorized $10 million annually for the Small Community Air Service 
Development Program--a $5 million increase from the Fiscal Year 2016 
enacted level--and $155 million annually for the Essential Air Service 
Program.
    Airports are urging Congress to increase funding for these two 
programs as lawmakers resume consideration of the FAA reauthorization 
bill and take up the FY18 appropriations bill. Authorizing and 
appropriating additional funding for the Small Community Air Service 
Development Program would allow more airports in Minnesota and 
throughout the country to participate in this helpful program.

    Question 2. In states like Minnesota with short construction 
seasons due to weather, delays in funding can postpone projects by 
months or even years. I've worked to address this issue by including a 
provision in the last FAA Reauthorization that directs the FAA to 
prioritize review of projects in cold weather states. Right now, 
because of the Continuing Resolution (CR) airports have not received 
the full amount of Airport Improvement Program (AIP) funds to which 
they are entitled. For Bemidji Regional Airport in my state, this could 
mean a significant delay in the completion of a new taxiway.
    How do long-term funding bills improve an airport's ability to 
complete safety improvements or new construction projects?
    Answer. Senator, thank you for helping airports in Minnesota and 
other states with short construction cycles. We deeply appreciate that 
the last FAA reauthorization bill included your proposal that requires 
the FAA to give priority consideration to construction projects in cold 
weather states. Your provision is helping airports in states like 
Minnesota move forward with their construction projects more quickly.
    Even with that additional guidance, however, short-term FAA 
extensions and stop-gap continuing resolutions can adversely impact the 
FAA's ability to get AIP grants to airports in a timely manner. That's 
why we're pleased that Congress and the Administration finally finished 
the Fiscal Year 2017 appropriations process earlier this month. 
Completion of the omnibus spending bill should allow the FAA to 
distribute remaining Fiscal Year 2017 AIP grants.
    As you know, the last FAA reauthorization bill took four-and-a-half 
years to complete and required 23 separate short-term extensions. Those 
numerous temporary measures proved incredibly disruptive to airport 
operators who routinely saw their AIP grants delayed because of 
prolonged uncertainty in Washington. Numerous fits and starts made it 
challenging for airports to plan and complete their infrastructure 
projects. The stalled authorization process was particularly hard on 
smaller airports that rely on Federal funds and those in the northern 
part of the country that operate with short construction seasons.
    Airport operators are hopeful that Congress will pass a multi-year 
FAA reauthorization bill before the current extension expires at the 
end of September. However, it Congress is unable to complete action on 
the multi-year bill before then, we urge lawmakers to pass a year-long 
extension instead. A 12-month extension would ensure that Federal 
funding for airport infrastructure remains on track as lawmakers 
continue to work on a comprehensive reauthorization bill.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                               Mark Baker
    Question. The Metropolitan Airports Commission (MAC) was created by 
the Minnesota Legislature in 1943 to promote air transportation and 
commerce in a seven-county region. MAC is a public corporation that 
operates one of the largest airport systems in the nation, which 
includes Minneapolis--St. Paul International Airport (MSP) and six 
general aviation airports. They have used an innovative system to 
develop over 600 hangars at their general aviation airports. MAC leases 
land to individuals and corporations and they make investments in their 
own facilities.
    Mr. Baker, I apologize that I couldn't ask you this question in 
person, but I had to leave the hearing for votes on the Senate floor 
related to the Supreme Court nominee. I understand you have had 
firsthand experience with MAC's hanger program, so you know how well it 
works. What can we do to encourage more of these private-public 
partnerships?
    Answer. Senator Klobuchar, thank you for your question. The 
Metropolitan Airports Commission (MAC) was created by the Minnesota 
legislature in 1943 to provide a regional approach to developing and 
promoting safe, efficient, environmentally sound aviation services in 
the Minneapolis-St. Paul metropolitan area. Consistent with that role, 
the MAC owns and operates Minneapolis-St. Paul International Airport 
and six general aviation ``reliever'' airports in the Twin Cities 
metropolitan area.
    One of the sound decisions made at the outset of the MAC was to 
develop its general aviation airports according to a true public-
private partnership model. At many other airports, airport owners 
(typically city, township, or county governments) want to construct, 
own and maintain all buildings on the airport themselves, which 
requires significant capital expenditure and a large and ongoing 
maintenance budget.
    In the case of the MAC, it's model provides the land, roads, 
airfield and other common-use infrastructure, and private entities 
build storage hangars and commercial enterprises on land they lease 
from the MAC. That way, tenants can build structures that comply with 
MAC standards and meet the tenant's needs.
    Private owners can often build and maintain facilities cheaper than 
public entities can. Tenants can then recover and sometimes even make a 
significant profit on their investment when they are ready to sell. If 
they leased the buildings from the airport owner, as they do at many 
airports, they could not recover any of their investment in renting 
those buildings. All the rent paid would be a sunk investment. For its 
part, the MAC isn't faced with the significant capital investment and 
maintenance costs that it would be if it owned the buildings. And 
tenants can construct and make improvements to hangars without regard 
to the MAC's capital financing limitations. Even under the MAC model, 
the reality remains that tenants cannot afford to bear the full cost of 
developing airport infrastructure. For example, if they had to bear the 
full cost of bringing sewer and water services onto the airport, the 
cost in many cases could exceed what they paid to build their hangar at 
a MAC facility. There simply aren't enough tenants at most general 
aviation airports to pay the full cost of the facility's development, 
operation, and maintenance. The gap between the revenues generated by 
the airport and the cost of developing and maintaining the airport is 
generally covered through use of the immensely important Federal 
Airport Improvement Program grants, state airport funds or local funds 
(usually from city, township or county coffers, or in the MAC's case, 
from cash generated through operation of its airport system as a 
whole). For general aviation airports to be successful, they absolutely 
rely on those external funding sources to cover a portion of the costs 
of ensuring there is adequate, well maintained, and safe infrastructure 
in place for use by airport tenants. The MAC model helps minimize that 
gap and create a firm framework for meeting the goals of all involved. 
Ultimately, everyone benefits from the MAC model of airport operations. 
Private companies invest in the commission's airports, create jobs and 
business activity in their communities, and ultimately recover costs of 
their investment when they sell their hangars or airport businesses. 
And the community gains from jobs and economic activity generated 
because of the airport's operations.
    The MAC operates under a true public-private partnership model, 
which supports infrastructure development and improvements and tenants 
investing dollars in their own hangars and facilities at their 
airports. It is a model other airport operators would do well to 
emulate. It underscores the importance of public entities (airport 
owners and Federal and state entities providing infrastructure grant 
dollars) and the private aviation community coming together to create 
thriving airports.
    AOPA would like to work with you and the Committee to develop a 
Public-Private Partnership General Aviation Pilot Program so that other 
airports across the country can take advantage of the benefits 
associated with attracting private sector investment and improving 
airport infrastructure through cooperation and collaboration.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                            Hon. Laurie Gill
    Question 1. In terms of a suggested pilot shortage and the effect 
of the First Officer Qualification (FOQ) rule, am I correct in 
understanding that the carrier that serviced Pierre in 2013 at the 
outset of the FOQ rule, who blamed cancellations and delays at your 
airport on its inability to hire enough pilots, is no longer servicing 
Pierre?
    Answer. Correct, Great Lakes Aviation is no longer servicing 
Pierre. According to Great Lakes Aviation, their crew base dropped from 
300 pilots to less than 90 pilots following the FOQ rule change. Great 
Lakes Aviation said that many of their existing pilots were no longer 
qualified to fly under the new FOQ rules.
    Consequently, our airport experienced a dramatic decline in flight 
dependability/customer service.
    To maintain commercial air service in Pierre, we were forced to re-
establish our Essential Air Service (EAS) designation (Great Lakes 
didn't utilize the EAS program for Pierre routes). Once the designation 
and associated subsidy was re-established, it became financially 
feasible to offer commercial flights in and out of Pierre.

    Question 2. Am I also correct in inferring that your new carrier 
has not had the same problems with cancellations and delays, and 
therefore has been successful in fully staffing its flights?
    Answer. Correct. To date, we have experienced very few crew-related 
delays or cancellations. Again, this was made possible by the EAS 
subsidy which allows ADI to utilize tenured charter pilots to operate 
scheduled air service flights.

    Question 3. Is it possible that other factors like pilot pay, 
working conditions, and a company's prior history and reputation could 
have contributed to the first carrier's staffing issues and not the FOQ 
requirements?
    Answer. Thank you for this question. I was honored to be a 
congressional appointee to the U.S. DOT Air Service Working Group. And 
that Working Group would certainly agree that the cause of the pilot 
shortage and associated current commercial airline challenges is multi-
faceted.
FOQ Impact
    First, based on the group's research, data does show that in 2013 
dozens of small communities experienced an immediate and significant 
loss of air service following the FOQ rule change.
Financial Barriers
    Even prior to the FOQ rule change, there was a significant 
financial barrier for would-be pilots. The cost of the education 
combined with the cost of achieving necessary training hours was, 
financially, very burdensome. The FOQ rule change exacerbated those 
financial barriers.
    Additionally, the FOQ rule change, significantly altered the career 
path for new pilots. Under the current structure, the same number of 
flight hours is necessary for pilots whether they are working for a 
regional airline or a mainline carrier. To that end, the career path 
has changed, and eliminated the need for newly-qualified pilots to gain 
experience in smaller markets. The regional airline industry responded 
by increasing new hire pilot compensation by 105 percent and introduced 
other incentives like longevity bonuses. Those changes haven't been 
enough.
Supply and Demand
    We have a supply and demand issue on our hands. Assuming the demand 
isn't going to decline, our option is to increase the supply. That's 
why when I testified in front of the Congressional Subcommittee, I 
suggested two potential solutions to help reduce the financial barrier, 
and in turn, grow the pilot pool.

  <bullet> Current rules see value in military experience and 
        programming from higher education institutes. I'd ask that the 
        FAA review the military and academic experience to consider 
        broadening its view of what qualifies as experience worthy of 
        credit hours.

  <bullet> Additionally, given the nationwide pilot shortage, I'd 
        encourage lawmakers to consider financial support for those 
        studying to be pilots. Financial barriers are certainly a 
        concern for aviation students and those who have already 
        graduated and are working to pay back student loans.

    Financial support could encourage more people to stay in the field 
or choose the field. It's something we already do for other high-need 
fields like medical professionals. Perhaps it should be considered for 
the aviation industry as well.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
